Semiannual Report to Congress
 Office of Inspector General for the U.S. Department of Labor




Volume 64                                April 1 - September 30, 2010
    A Message from the Acting Inspector General
    I am pleased to submit this Semiannual Report to Congress, which highlights the most significant activities
  and accomplishments of the U.S. Department of Labor (DOL), Oﬃce of Inspector General (OIG) for the six-month
  period ending September 30, 2010. During this reporting period, our investigative work led to 175 indictments,
  158 convictions, and $85 million in monetary accomplishments. In addition, we issued 38 audit and other reports
  which, among other things, recommended that more than $1.3 billion in funds be put to better use.


OIG audits and investigations continue to assess the eﬀectiveness, eﬃciency, economy, and integrity of DOL’s programs
and operations. For example, during this reporting period, we found that in 32 years, the Mine Safety and Health
Administration has never successfully exercised its Pattern of Violation authority.

We also found that the Occupational Safety and Health Administration has not eﬀectively evaluated the impact of
hundreds of millions of dollars in penalty reductions as an incentive for employers to improve workplace safety and
health. Moreover, we found that employers with a history of serious violations continue to receive reduced penalties
and that up to $127 million in penalty reductions may have been inappropriate.

Finally, we issued five audit reports related to the American Recovery and Reinvestment Act of 2009 during this
semiannual period.

Our investigations continue to combat labor racketeering and/or organized crime in internal union aﬀairs, union-
sponsored benefit plans, and labor management relations. For example, one major OIG investigation resulted in the
sentencing of the former national president of the Brotherhood of Locomotive Engineers and Trainmen and former
president of the International Brotherhood of Teamsters Rail Division to 18 months’ incarceration after he pled guilty
to bribery in connection with a Federally-funded program and to interstate travel to carry on unlawful activity.

Another investigation led to an investment advisor being ordered to serve more than nine years of imprisonment and
pay restitution of more than $26 million to several union-sponsored pension funds after pleading guilty to charges
of embezzlement and wire fraud.

OIG investigations also identified vulnerabilities and fraud in DOL programs. One investigation resulted in a massage
therapist being ordered to serve 78 months in prison and pay $1.6 million in restitution for her role in a health care
fraud scheme involving the Oﬃce of Workers’ Compensation Programs.

The OIG remains committed to promoting the integrity, eﬀectiveness, and eﬃciency of DOL. I would like to express my
gratitude to the professional and dedicated OIG staﬀ for their significant achievements during this reporting period.
I look forward to continuing to work with the Department to ensure the integrity of programs and the protection of
the rights and benefits of workers and retirees.




                                                                                                     Daniel
                                                                                                     D  i lRR. P
                                                                                                               Petrole
                                                                                                                    l
                                                                                             Acting Inspector General
           Selected Statistics......................................................................................2
           Signiﬁcant Concerns..................................................................................3

           Worker Safety, Health, and Workplace Rights
Contents   Mine Safety and Health Administration.....................................................8
           Occupational Safety and Health Administration........................................9
           Wage and Hour Division...………..………...................………...…………………....11

           Worker and Retiree Beneﬁt Programs
           Federal Employees’ Compensation Act Program.....................................14
           Employee Beneﬁts Security Administration...........................................17
           Unemployment Insurance Programs........................................................18

           Employment and Training Programs
           Workforce Investment Act........................................................................24
           Job Corps..................................................................................................27
           Foreign Labor Certiﬁcation Programs........................................................31
           Veterans’ Employment Training Service...................................................35

           Labor Racketeering
           Internal Union Corruption Investigations.................................................41
           Beneﬁt Plan Investigations.......................................................................43
           Labor-Management Investigations...........................................................48

           Departmental Management...................................................................52
           Employee Integrity Investigations.............................................................55
           Single Audits.............................................................................................56

           Legislative Recommendations................................................................58
           Appendices.............................................................................................62




                                                       Semiannual Report to Congress: April 1- September 30, 2010
                                                Selected Statistics
              Investigative recoveries, cost-eﬃciencies, restitutions,
              ﬁnes and penalties, forfeitures, and civil monetary action1 .................... $85 million

              Investigative cases opened ..................................................................................246

              Investigative cases closed ....................................................................................278

              Investigative cases referred for prosecution .......................................................190

              Investigative cases referred for administrative/civil action ...................................83

              Indictments .........................................................................................................175

              Convictions ..........................................................................................................158

              Debarments ...........................................................................................................19




              Audit and other reports issued .............................................................................38

              Funds recommended for better use ........................................................ $1.3 billion

              Outstanding questioned costs resolved during this period ................. ...$4.3 million
                 Allowed2...........................................................................................$35.2 million
                Disallowed3 ..................................................................................... $30.1 million




          1     These accomplishments do not include the following amounts that have been recovered as a result of the OIG’s
                investigative eﬀorts in multi-agency investigations:

                •     	Restitution of $11,847,420 for victims in an investigation involving labor traﬃcking and related violations. The court-
                      ordered restitution includes payment of victim’s wages during their servitude, as calculated under the Fair Labor
                      Standards Act. United States v. Akouavi Kpade Afolabi
                •	    A civil monetary penalty in the amount of $1,033,362 assessed by Immigration and Customs Enforcement as a result
                      of a company’s routine use of undocumented workers on their job sites.

          2     Allowed means a questioned cost that DOL has not sustained.
          3     Disallowed means a questioned cost that DOL has sustained or has agreed should not be charged to the government.




2   Semiannual Report to Congress: April 1- September 30, 2010
                                     Significant
                                       g         Concerns

    The OIG works with the Department and Congress to provide information and recommendations that will be useful
  in their management or oversight of the Department. The OIG has identiﬁed areas that we consider particularly
  vulnerable to mismanagement, error, fraud, waste, or abuse. These issues form the basis of our annual Top Management
  Challenges report required under the Reports Consolidation Act of 2000.


For FY 2010, these challenges are:

      • 	 Achieving the Goals and Protecting the Investment Provided by the American Recovery and 

          Reinvestment Act

      • 	 Protecting the Safety and Health of Workers
      • 	 Improving Performance Accountability of Workforce Investment Act Grants
      • 	 Ensuring the Eﬀectiveness of the Job Corps Program
      • 	 Safeguarding Unemployment Insurance
      • 	 Improving the Management of Workers’ Compensation Programs
      • 	 Maintaining the Integrity of Foreign Labor Certiﬁcation Programs
      • 	 Securing Information Technology Systems and Protecting Related Information Assets
      • 	 Ensuring the Security of Employee Beneﬁt Plan Assets
      • 	 Ensuring DOL’s New Core Financial Management System Produces Reliable, Accurate, and 

          Timely Financial Information


The recently issued Top Management Challenges report is found in its entirety in the appendices of the Semiannual Report
to Congress. The following is a synopsis of our speciﬁc concerns in each area.


Achieving the Goals and Protecting the                         awarded to states since the Recovery Act was signed into
Investment Provided by the American                            law on February 17, 2009. Congress has now rescinded
                                                               $110 million of the $150 million appropriated for HCTC
Recovery and Reinvestment Act
                                                               National Emergency Grants, leaving about $26 million
                                                               available for future grants. Similarly, as part of our
Ensuring program eﬀectiveness and meeting Recovery
                                                               September 2010 audit of UI modernization grants, nine
Act requirements to stimulate the economy are
                                                               states indicated in response to an OIG survey that they
signiﬁcant challenges for the Department. Our audits
                                                               were unlikely to apply for $1.3 billion of UI modernization
have identified large amounts of unspent Recovery
                                                               beneﬁts.
Act funds and questionable expenditures of other
such funds. For example, our March 2010 audit
                                                               Additionally, our audit work over the past year found that
of the Health Coverage Tax Credit (HCTC) National
                                                               the Employment and Training Administration (ETA) has
Emergency Grants found that just $8 million of the
                                                               announced, evaluated, and issued Recovery Act grants
$150 million designated for the program had been

                                                                Semiannual Report to Congress: April 1- September 30, 2010   3
                                                   Significant Concerns

in accordance with relevant criteria. However, funds                 Another OIG audit found that OSHA did not always ensure
provided by the Act for monitoring Recovery Act grants               that complainants received appropriate investigations
have expired as of September 30, 2010. This impacts ETA’s            under the whistleblower program.
ability to execute its Recovery Act grantee monitoring
and oversight responsibilities and may increase the risk
                                                                     Improving Performance Accountability of
that a portion of the $717 million in Recovery Act grant             Workforce Investment Act Grants
funds may not be spent for their intended purposes. To
address this need, ETA has asked for funding to support              The Department is challenged to ensure that Workforce
an increase in grant monitoring staﬀ as part of its FY 2011          Investment Act (WIA) grants accomplish program objectives.
budget request.                                                      Successfully meeting the employment and training needs of
                                                                     citizens requires selecting the best service providers, making
Protecting the Safety and Health of                                  expectations clear to grantees, ensuring that success can be
Workers                                                              measured, providing active oversight, and disseminating
                                                                     and replicating proven strategies and programs. As detailed
Of continuing concern for the OIG is the safety and                  in a recent audit report, the OIG is concerned with the
health of our nation’s workers. Over the last several                Department’s ability to provide adequate oversight and
years, we have documented a pattern of weak oversight,               monitoring of $717 million in WIA grants awarded under
inadequate policies, and a lack of accountability on the
                                                                     the Recovery Act. As previously stated, funds provided by
part of the Mine Safety and Health Administration (MSHA).
                                                                     the Recovery Act for the monitoring of grants expired on
MSHA’s challenge involves eﬀectively managing existing
                                                                     September 30, 2010, and this may impact the Department’s
resources and utilizing existing authorities to maximize
                                                                     ability to execute its Recovery Act grantee monitoring
its enforcement eﬀorts while fulﬁlling other important
duties. As detailed in a recent audit report, the OIG is             and oversight responsibilities. We are also concerned
concerned that in 32 years MSHA has not successfully                 with recent audit ﬁndings that not all State Workforce
exercised its Pattern of Violations authority to identify            Agencies conduct evaluations of the Title IB workforce
mine operators with the worst compliance records. Other              investment activities for the Adult, Dislocated Worker, and
areas of concern for MSHA include its ability to recruit and         Youth programs, and when they do, they don’t report the
maintain a properly trained cadre of mine inspectors, the            identiﬁed best practices to ETA.
backlog of cases currently before the Federal Mine Safety
and Health Review Commission, and the rising trend of                Ensuring the Effectiveness of the Job Corps
Black Lung disease cases.                                            Program

The OIG is also concerned with the Occupational Safety               The OIG’s work has consistently identiﬁed challenges to
and Health Administration’s (OSHA’s) ability to best target          the eﬀectiveness of the Job Corps program. Job Corps has
its resources and measure the impact of its eﬀorts. Since            been challenged to meet its placement and recruitment
OSHA can reach only a fraction of the seven million entities
                                                                     goals over the past several years. The number of Job Corps
it regulates, it must strive to target the most egregious and
                                                                     graduates placed in jobs, continuing their education, and/
persistent violators while protecting the most vulnerable
                                                                     or entering the military has declined from 91% for the year
worker populations. However, a recent OIG audit found
                                                                     ended June 30, 2005, to 76% for the year ended June 30,
that OSHA has not eﬀectively evaluated the impact of
hundreds of millions of dollars in penalty reductions as             2010.
incentives to reducing workplace hazards.



4       Semiannual Report to Congress: April 1- September 30, 2010
                                             Significant Concerns

Recent OIG work has also found that weak controls at           Improving the Management of Workers’
centers have resulted in the overstatement of performance      Compensation Programs
results and unallowable costs charged to Job Corps.
Accurate performance reporting is a particular challenge       The Department has responsibility for managing the Energy
for Job Corps, as most centers are operated by contractors     Employees Occupational Illness Compensation Act Program
through performance-based contracts with incentive             (Energy workers’ program) and the Federal Employees’
fees and bonuses that are tied directly to contractor          Compensation Act (FECA) Program. The OIG’s concern for
performance. Under such contracts, there is a risk that        the Energy workers’ program centers on the timeliness of
contractors will overstate performance results. With           its claim decisions. Complex regulatory requirements and
respect to unallowable costs, during this reporting period,    the diﬃculty of locating employment and other records, as
OIG audits questioned $1.8 million related to a contractor’s   well as the inability of sick, often aging, claimants to fully
indirect costs, and $65,553 that another contractor charged    understand their rights and responsibilities, contribute to
for the Center Director’s personal housing and travel          the lengthy decision process. This is exacerbated by the
expenses. In addition, OIG audits continued to identify        fact that the National Institute for Occupational Safety
unsafe or unhealthy conditions and the lack of required        and Health (NIOSH) must prepare a complicated and time-
safety inspections at some centers. We also found that         consuming dose reconstruction of the amount of radiation
some centers did not hold required behavior review board       to which an employee with cancer was exposed, and the
meetings to evaluate student misconduct and initiate           Department has no regulatory authority to control the
disciplinary action; and underreported signiﬁcant incidents    completion time of the NIOSH process.
occurring at the centers.
                                                               The FECA program must ensure it makes proper payments,
Safeguarding Unemployment Insurance
                                                               while also being responsive and timely to eligible claimants.
                                                               Opportunities to defraud the program continue to exist,
Improper payments of Unemployment Insurance (UI)
                                                               and certain ones are made more likely by FECA’s inability
compensation benefits are a continuing concern for
                                                               to match FECA compensation recipients against Social
the OIG. ETA reported more than $15.2 billion in UI
                                                               Security records. Other challenges facing the FECA program
overpayments, and estimates that about $3.4 billion of
                                                               include moving claimants oﬀ the periodic rolls when they
these overpayments are attributable to fraud – an increase
                                                               can return to work or their eligibility ceases, preventing
from the $2.8 billion reported in FY 2009. The current
                                                               ineligible recipients from receiving beneﬁts, and preventing
economic downturn has made controlling overpayments
                                                               fraud by service providers and by individuals who receive
more diﬃcult, as the number of claims ﬁled has greatly
                                                               FECA beneﬁts while working.
increased and new programs had to be implemented
quickly, which has resulted in states shifting resources
from detecting improper payments to processing
claims. Notably, OIG’s review of ETA’s compliance with
Executive Order 13520, its required Report on UI Improper
Payments identiﬁed improvements needed to measure,
and to mitigate UI improper payments. Moreover, OIG
investigations continue to uncover UI fraud committed by
individuals, as well as identity theft schemes designed to
illegally obtain UI beneﬁts.


                                                                Semiannual Report to Congress: April 1- September 30, 2010   5
                                                   Significant Concerns

Ensuring the Integrity of Foreign Labor                              mobile computers/devices is a continuing challenge to
Certification Programs                                               the Department. In light of these challenges, the OIG
                                                                     continues to recommend the creation of an independent
                                                                     Chief Information Oﬃcer to provide exclusive oversight of
DOL’s Foreign Labor Certiﬁcation (FLC) programs are
                                                                     all issues aﬀecting the IT capabilities of DOL.
intended to provide U.S. employers access to foreign
labor to meet American worker shortages under terms
and conditions that do not adversely aﬀect U.S. workers.             Ensuring the Security of Employee Benefit
Ensuring the integrity of the Department’s FLC programs,             Plan Assets
while also providing a timely and eﬀective review of
applications to hire foreign workers, is a continuing                The OIG remains concerned with the Department’s ability
challenge for the Department. Moreover, the Department               to protect beneﬁts and beneﬁt plan assets generally against
is also challenged with statutory limits on its authority in         fraud, misconduct, and negligence. OIG investigations have
the H-1B program and uncertainty regarding its authority             shown that beneﬁt plan assets remain vulnerable to labor
to debar individuals or entities. In addition, as detailed in        racketeering and/or organized crime inﬂuence. Moreover,
this Semiannual Report, OIG investigations continue to               the Department is challenged by its limited authority
uncover schemes carried out by immigration attorneys,                to oversee plan audits, and by its inability to assess
labor brokers, employers, and transnational organized                enforcement program eﬀectiveness. In addition, the broad
crime groups, some with possible national security                   changes required by the Patient Protection and Aﬀordable
implications.                                                        Care Act will challenge the Department to develop in excess
                                                                     of thirty new health plan regulations, provide ongoing
                                                                     technical assistance, incorporate new requirements into
Securing IT Systems and Protecting
                                                                     employee beneﬁt enforcement programs, institute new
Related Information Assets
                                                                     statutorily mandated research and health plan surveys, and
                                                                     broaden assistance and educational programs for employee
Management of information technology (IT) systems
                                                                     beneﬁt plan participants and beneﬁciaries.
is a continuing challenge for all Government agencies,
including DOL. Ensuring security, keeping up with new
                                                                     Ensuring DOL’s New Core Financial
threats and IT developments, providing assurances that IT
                                                                     Management System Produces Reliable,
systems will function reliably, and safeguarding information
assets will continue to challenge the Department. The                Accurate, and Timely Financial
FY 2010 Federal Information Security Management Act                  Information
audit identiﬁed access controls, inventory of sensitive IT
assets, oversight of third-party systems, and remediation            The implementation of the New Core Financial Management
of known vulnerabilities as signiﬁcant deﬁciencies. The              System has presented the Department with numerous
OIG has reported on access control weaknesses over                   challenges. The Department’s ﬁnancial data did not migrate
DOL’s major IT systems since FY 2001. These weaknesses               correctly and DOL is challenged to clean up inaccurate
represent a significant deficiency over access to key                ﬁnancial data from the DOLAR$ and other interfacing
systems and may permit unauthorized users to obtain or               systems. While the Department is working to address these
alter sensitive information, including unauthorized access           challenges, it is still unable to produce ﬁnancial statements
to ﬁnancial records. Furthermore, the security of sensitive          for the OIG to audit.
information that can be accessed remotely or stored on


6       Semiannual Report to Congress: April 1- September 30, 2010
Worker Safety, Health, and
    Workplace Rights




                 Semiannual Report to Congress, Volume 62
                            Worker Safety, Health, and Workplace Rights


              Mine Safety
                     f    and
                            d Health
                                 l h Administration

                                      d
      The Federal Mine Safety and Health Act of 1977, as amended by the Mine Improvement and New Emergency
    Response Act of 2006 (MINER Act), charges the Mine Safety and Health Administration (MSHA) with protecting the
    health and safety of more than 300,000 men and women working in our nation’s mines.



In 32 Years, MSHA Has Never Successfully
Exercised Its POV Authority                                          The OIG found that the Department never implemented
                                                                     regulations for administering MSHA’s POV authority until
The April 5, 2010, accident at the Upper Big Branch Mine             1990, and those regulations created limitations on MSHA’s
South in Montcoal, West Virginia, which resulted in the              authority that were not present in the enabling legislation,
death of 29 miners, immediately raised concerns about the            making it diﬃcult for MSHA to place mines on POV status.
mine’s safety record and MSHA’s process for identifying              According to MSHA oﬃcials, in the 17 years that followed
mines having a pattern of violations (POV). Those concerns           (from 1990 until mid-2007), MSHA district oﬃces across the
were heightened when MSHA determined that a computer                 nation operated with limited guidance from the national
error had caused the Upper Big Branch Mine South to                  oﬃce and performed POV analyses based on individual
incorrectly be omitted from its most recent list of mines            interpretations of requirements. They were responsible for
with potential POVs.                                                 conducting the required annual POV screening of mines,
                                                                     but never put any mine operator on POV status. In 2007,
Following the accident, and in response to a request                 MSHA made its ﬁrst attempt to implement a quantiﬁable
from several members of Congress, the OIG conducted                  method for screening and monitoring potential POV mines.
a performance audit of MSHA’s administration of its                  However, the criteria lacked a supportable rationale, and
POV authority since its inception with the passage of the            the process proved to be complex and unreliable. Our audit
Federal Mine Safety and Health Act of 1977. POV authority            also identiﬁed delays in MSHA’s testing of rock dust samples
enables MSHA to take enhanced enforcement actions                    in underground coal mines that could cause critical delays
when a mine demonstrates recurring safety violations                 in MSHA identifying serious safety hazards.
that could signiﬁcantly and substantially contribute to the
cause and eﬀect of health and safety hazards.                        We made 10 recommendations to MSHA that it: give
                                                                     priority to new rulemaking to eliminate or modify authority
Our audit found that in 32 years, MSHA has never                     limitations created by current regulations; develop a
successfully exercised its POV authority. During this                process to appropriately involve stakeholders, while
period, MSHA has only once issued a POV notice to a                  preventing the rulemaking process from stalling; ensure
mine operator. Successful administration of this authority           that POV selection criteria are transparent, reasoned, and
has been hampered by a lack of leadership and priority               suitable to making POV determinations; and ensure the
in the Department across various Administrations. This               integrity and timeliness of inspection data and results used
allowed the rulemaking process to stall and fall victim to           to determine patterns of violations. MSHA agreed with
the competing interests of the industry, the operators,              our recommendations and committed to developing and
and the unions representing the miners as to how that                implementing corrective actions (Report No. 05-10-005­
authority should be administered.                                    06-001, issued September 29, 2010)




8       Semiannual Report to Congress: April 1- September 30, 2010
                          Worker Safety, Health, and Workplace Rights


   Occupationall Safety
                   f andd Health
                             l h Administration

                                  d
    The Occupational Safety and Health Administration (OSHA), authorized by the Occupational Safety and Health Act
  of 1970, promulgates and enforces occupational safety and health standards and provides compliance assistance to
  employers and employees.


OSHA Should Evaluate the Impact of                              they received signiﬁcant reductions totaling $86.6 million.
Millions of Dollars in Penalty Reductions                       These reductions averaged $18,076 per employer and
as Incentives for Employers to Improve                          ranged up to $480,400. Half of these employers violated
                                                                a similar standard on subsequent inspections, indicating
Workplace Safety and Health
                                                                that correction of workplace hazards may not have been
                                                                comprehensive and company-wide. We also found that
When working conditions that violate the Occupational
                                                                OSHA’s Integrated Management Information System
Safety and Health Act of 1970 (OSH Act) are identiﬁed,
                                                                cannot eﬀectively track employers with company-wide
OSHA inspectors issue citations with penalties. In setting
                                                                violations, in part because of the lack of quality data due
penalty amounts, OSHA is required to give consideration
                                                                to employer-related companies and name variations.
to the gravity of violations, as well as the employer’s size,
good faith, and history. While penalty reductions are not
                                                                We also found that up to 36% or $127 million in reductions
mandated by the OSH Act, OSHA established them as an
                                                                may not have been appropriate. This is because OSHA’s
incentive for employers to correct violations and improve
                                                                directives for reducing penalties did not provide clear
workplace safety and health. Another driving factor
                                                                guidance, and did not integrate the size, good faith,
for reductions was the employer’s right to contest the
                                                                and informal settlement reductions with an employer’s
inspection, which could delay abatement and continue to
                                                                overall character. Area Oﬃce Directors and staﬀ did not
expose employees to hazards. We conducted a performance
                                                                always comply with or make full use of these directives.
audit covering 49,192 Federal OSHA inspections for a two-
                                                                Speciﬁcally, we found that OSHA’s use of size reductions
year period between July 1, 2007, and June 30, 2009, to
                                                                resulted in what amounts to an entitlement, as 98% of all
determine if OSHA eﬀectively evaluated the impact of
                                                                cited violations were reduced at the maximum allowable
penalty reduction incentives on workplace safety and
                                                                rate. Of the $127 million in reductions, $94.1 million were
health. During this period, inspections resulted in 142,187
                                                                for potential excessive employer size reductions, $31.8
citations, of which 98% received deductions. Penalties of
                                                                million for grantees’ unjustiﬁed informal settlements
$523.5 million were reduced by $351.2 million or 67%.
                                                                reductions, and $1.1 million for safety history reduction
                                                                errors.
Our audit found that OSHA has not eﬀectively evaluated
the impact of penalty reductions as an incentive for
                                                                We made 11 recommendations to OSHA to commit the
employers to improve workplace safety and health. OSHA
                                                                necessary resources to eﬀectively evaluate the impact
reduced penalties on an inspection and per-violation basis
                                                                of penalty reductions, improve information systems,
without always considering an employer’s overall safety
                                                                and revise and implement policies and procedures.
and health performance — 24% of the citations were
                                                                OSHA expressed concerns about some audit ﬁndings
issued to 4,791 employers (227 with fatalities) that had a
                                                                and recommendations. Based on OSHA’s response, we
history of serious violations in two or more inspections, yet
                                                                 Semiannual Report to Congress: April 1- September 30, 2010   9
                           Worker Safety, Health, and Workplace Rights

clariﬁed two recommendations, but our overall conclusions           • 	 develop performance measures or indicators for the
remained unchanged. (Report No. 02-10-201-10-105,                       whistleblower program; and
issued September 30, 2010)                                          • 	 provide adequate guidance to investigators.

Complainants Did Not Always Receive                                 By not providing complainants with thorough investigations,
Appropriate Investigations Under the                                OSHA could not ensure that they were protected as
Whistleblower Protection Program                                    intended under the various whistleblower protection
                                                                    statutes.
We conducted an audit of OSHA’s whistleblower
program to determine to what extent OSHA ensured that               Furthermore, OSHA’s Whistleblower Investigations Manual
complainants received appropriate investigations under              had not been updated since 2003. Therefore, investigators
the Whistleblower Protection Program. The Whistleblower             did not have any written guidance on how to conduct
Protection Program was created to enforce Section 11(c)             investigations under the three new whistleblower statutes
of the OSH Act which prohibits employers from retaliating           transferred to OSHA since the last update. Additionally,
against employees who exercise their rights under the               many investigators did not have access to subject matter
Act. OSHA has between 30 and 90 days to complete                    experts for technical guidance on the 17 statutes they were
investigations of complaints of discriminatory actions taken        responsible for enforcing.
against employees who “blow the whistle” under either
the OSH Act or any of the 16 additional whistleblower               We recommended that OSHA implement controls to
statutes — including Sarbanes-Oxley Act and Surface                 oversee and monitor investigations and caseloads, develop
Transportation Assistance Act statutes — to which OSHA              speciﬁc performance measures, update the Whistleblower
has been assigned whistleblower provisions.                         Investigations Manual, and designate subject matter experts
                                                                    with technical competencies in speciﬁc whistleblower
We found that OSHA did not always ensure complainants               statutes. OSHA agreed with the recommendations, stating
received appropriate investigations in our audit of three           that it is in the process of performing a top-to-bottom
Whistleblower Protection Program statutes: OSHA 11(c),              review, including assessing whether to restructure the
Sarbanes-Oxley Act, and Surface Transportation Assistance           Oﬃce of the Whistleblower Protection Program. OSHA
Act. We tested a statistical sample of investigative case           further stated the review will incorporate the valuable
ﬁles against the eight elements identiﬁed in the OSHA               perspective and recommendations received from this
Whistleblower Investigations Manual as being essential              audit report. OSHA also stated that it is currently revising
to the investigative process to ensure that complainants            its Whistleblower Investigation Manual. (Report No. 02­
receive appropriate investigations. As a result of our              10-202-10-105, issued September 30, 2010)
testing, we estimated that 80% of the whistleblower
investigations for the three sampled programs did not
meet one or more of the eight elements. This occurred
because OSHA did not:

• 	 supervise investigations adequately;
• 	 manage regional investigators’ caseloads adequately;
• 	 oversee and monitor investigations for compliance
    with policies and procedures;

10     Semiannual Report to Congress: April 1- September 30, 2010
                         Worker Safety, Health, and Workplace Rights


                                Wage and
                                       d Hour Division

    The Wage and Hour Division (WHD) is responsible for enforcing labor laws such as those that cover minimum wage,
  overtime pay, recordkeeping, family and medical leave, and migrant workers, among others. Additionally, WHD
  administers and enforces the prevailing wage requirements of the Davis Bacon Act and other statutes applicable to
  Federal contracts for construction and for the provision of goods and services. The Davis-Bacon Act and related acts
  require the payment of prevailing wage rates and fringe beneﬁts on Federally ﬁnanced or assisted construction. The
  McNamara-O’Hara Service Contract Act requires the payment of prevailing wage rates and fringe beneﬁts to service
  employees on Federally ﬁnanced service contracts. The OIG investigates violations by contractors who receive Federal
  funding and who submit falsiﬁed certiﬁed payroll records.



Restitution of $5.8 Million Ordered in                         Three Restaurateur Brothers Sentenced in
Prevailing Wage Fraud Investigation                            Back Wage and Tax Violations Scheme
Simon Whitley, the controller for Serrot Construction and      Brothers Eduardo, Fernando, and Juan Carlos Pabon were
All American Building and Development, was ordered             all sentenced on July 30, 2010, to 30 months’ incarceration
on June 18, 2010, to pay $5,786,204 in restitution and         and ordered to make restitution collectively in the amount
sentenced to one year probation. Whitley and Serrot’s          $1.4 million to the IRS for back taxes owed. In addition to
president, Jose Torre, each pled guilty in September 2004      restitution, Eduardo Pabon, the owner of the restaurant
to committing mail fraud. Torres also pled guilty to tax       Mi Tierrita, voluntarily paid $659,341 in back wages to
evasion.                                                       the New York State Department of Labor to compensate
                                                               underpaid wages of employees of Mi Tierrita. The
From 1997 to 2000, Serrot was awarded approximately            sentence was the result of the brothers’ April 2009 guilty
$20 million in Federally funded contracts by the New York      plea to conspiracy to commit tax fraud and the unlawful
City Housing Authority (NYCHA). These contracts were           employment of undocumented workers.
for the installation of doors in public housing projects
throughout the ﬁve boroughs of New York City. During           The Pabons hired undocumented workers to work at various
the performance of the contracts, even though they were        jobs in their three New York restaurants. In order to avoid
required to pay the prevailing wage, Torres and Whitley        paying back wages, the defendants, who had been audited
devised an elaborate series of schemes to defraud NYCHA,       by WHD on three separate occasions concerning back
to substantially underpay their employees, to avoid paying     wages, lied to and provided WHD with false documents
taxes on the additional income, and to launder the proceeds    about their employees and their businesses.
of the crime through the purchase of commercial rental
properties. These schemes resulted in employees being           This was a joint investigation with the IRS and Immigration
underpaid by more than $5.7 million. This amount was           and Customs Enforcement (ICE). United States v. Pabon
ordered to be repaid as a result of this investigation.        (E.D. New York)
We entered into the investigation at the request of NYCHA.
This was a joint investigation with the NYCHA-OIG, WHD,
and the Internal Revenue Service (IRS). United States v.
Torres, et al. (E.D. New York)


                                                                Semiannual Report to Congress: April 1- September 30, 2010   11
Worker and Retiree
Benefit Programs




             Semiannual Report to Congress, Volume 62
                                    Worker and Retiree Benefit Programs


     Federal
       d l Employees’
              l       Compensation Act Program

    The Oﬃce of Workers’ Compensation Programs (OWCP) administers the Federal Employees’ Compensation Act (FECA),
  Black Lung, and Longshore and Harbor Workers. The FECA program provides workers’ with wage-loss compensation
  and pays medical expenses to approximately 2.8 million civilian and certain other employees who incur work-related
  occupational injuries or illnesses, as well as survivors beneﬁts for covered employee’s employment-related death. In
  FY 2010, the FECA program made over $1.7 billion in wage loss compensation payments to claimants and processed
  approximately 19,900 initial wage loss claims. At that FY’s end, 43,100 claimants were receiving regular monthly
  wage loss compensation payments.



Massage Therapist Sentenced to 78                                    California Man Sentenced to 21 Months
Months in Prison and Ordered to Pay                                  in Prison for FECA Fraud
$1.6 Million in Restitution for Health
Care Fraud Scheme                                                    Mark Correnti, a former mechanic for the U.S. Navy, was
                                                                     sentenced on April 23, 2010, to 21 months in prison, three
Kawai Ary-Berry, a massage therapist who misrepresented              years of supervised release, and ordered to pay $237,676
herself as a licensed physical therapist and billed the              in restitution. Correnti pled guilty in November 2009 to
government for physical therapy services, was sentenced              making false statements to obtain Federal employees’
on July 2, 2010, to 78 months in Federal prison, to be               compensation, and resigned from his government position
followed by three years of supervised release, and was               prior to the conviction.
ordered to pay $1.6 million in restitution, after being found
guilty in April 2010 of committing health care fraud.                Correnti claimed that in 1989 he suﬀered a debilitating
                                                                     back injury that, according to Correnti was so serious that
From January 2003 through April 2008, Ary-Berry                      it did not allow him to perform any type of work. The
submitted fraudulent billings to the OWCP totaling                   investigation established that since 2000, Correnti owned
$2,419,573, of which OWCP paid $1,884,541. Ary-Berry,                and actively operated a boat and recreational vehicle
the owner of PTMT The Pain Relief Center, would contact              storage business in California. Correnti never reported his
and receive approval from OWCP to perform physical                   self-employment and earnings to OWCP, which he was
therapy treatments for OWCP patients who presented her               legally required to do.
with a prescription for physical therapy. She would then
submit fraudulent claims to OWCP for reimbursement for               This was a joint investigation with the Defense Criminal
her services. In addition, Ary-Berry often received OWCP             Investigative Service (DCIS). United States v. Mark Anthony
payments for services claimed to exceed 24 hours in a                Correnti (E.D. California)
single day.

This was a joint investigation with the U.S. Postal Service
(USPS)-OIG. United States v. Kawai Ary-Berry (N.D.
Texas)


14      Semiannual Report to Congress: April 1- September 30, 2010
                                Worker and Retiree Benefit Programs

Theft of Survivor Benefit Checks Results                       Waldren resigned from Federal employment in February
in 14-Months’ Prison Sentence                                  2009. He was employed as a Transportation Security
                                                               Administration (TSA) screener for the Columbus
                                                               International Airport, where, in 2005, he sustained a work-
Thomas Doughty, Jr., was sentenced on April 26, 2010,
                                                               related injury. He was subsequently placed on the periodic
to 14 months’ imprisonment to be followed by two years
                                                               rolls and received monthly FECA beneﬁt payments. After
of supervised release and ordered to pay $120,193 in
                                                               Waldren was injured, he falsely reported to a vocational
restitution to DOL. Doughty pled guilty in January 2010
                                                               rehabilitation specialist during a background interview that
to theft of government property for falsely receiving
                                                               he had sold WHS to his sons. Waldren never reported any
survivor’s beneﬁts from OWCP. The beneﬁts were intended
                                                               employment or association with a business enterprise on
for the widow of a FECA claimant, to whom Doughty was
                                                               any forms he submitted to OWCP.
not related.

                                                               This was a joint investigation with the TSA-Office of
Following the death of the widow in 1997, Doughty, who
                                                               Inspections. United States v. Lawrence E. Waldren (S.D.
was assisting a friend in charge of handling the widow’s
                                                               Ohio)
estate, redirected FECA survivor beneﬁt checks mailed to
the widow to his home address, cashed them, and used           Physician Sentenced for Health Care
their proceeds for his personal beneﬁt. To continue the
                                                               Fraud
scheme, Doughty submitted several claims for continuous
compensation in the name of the widow to OWCP. The
                                                               Dr. Windsor Dennis, an orthopedic surgeon who operated a
scheme continued for six years until a 2006 check of
                                                               medical practice in New Orleans, Louisiana, was sentenced
the Social Security Death Master File uncovered the
                                                               June 2, 2010, to 12 months of home conﬁnement with
deception.
                                                               electronic monitoring, 2 years’ probation, and ordered to
                                                               pay $750,000 in restitution and a $5,000 ﬁne. Dr. Dennis
This was a joint investigation with the Naval Criminal
                                                               pled guilty in March 2010 to one count of health care
Investigation Service. United States v. Doughty (C.D.
                                                               fraud. Between August 2005 and August 2006, Dr. Dennis
California)
                                                               defrauded the OWCP by billing for services not rendered,
                                                               including services he claimed he performed during the
Ohio Business Owner Ordered to Sell                            time his clinic was shut down after Hurricane Katrina. This
Business to Pay Restitution to OWCP                            was a joint investigation with the USPS-OIG. United States
                                                               v. Windsor S. Dennis, M.D. (E.D. Louisiana)
Larry Waldren, the owner and operator of Waldren’s
Hunting Supplies (WHS), was sentenced on July 9, 2010,         Pharmaceutical Company Agrees to Plead
to 12 months and 1 day conﬁnement, and ordered to pay          Guilty and Pay $600 Million in Off-Label
restitution of $148,161. Additionally, Waldren and his wife,   Marketing Case
Tina Waldren, were ordered to sell the WHS property and
land and ﬁve other undeveloped lots they owned to assist       Pharmaceutical manufacturer Allergan, Inc., agreed
in paying the restitution order. Waldren was found guilty      on September 1, 2010, to plead guilty to a criminal
in February 2010 of making false statements in order to        misdemeanor for misbranding and pay $600 million to
obtain FECA beneﬁts.                                           resolve its criminal and civil liability stemming from the



                                                                Semiannual Report to Congress: April 1- September 30, 2010   15
                                   Worker and Retiree Benefit Programs

company’s promotion of its biological product, Botox®,              Hanson reported an on-the-job back injury in 1978. Based
for uses not approved as safe and eﬀective by the Food              on reports of his attending physician, OWCP began paying
and Drug Administration (FDA). The resolution includes              Hanson compensation for total disability in April 1981.
a criminal ﬁne and forfeiture totaling $375 million, a civil        From at least 1983 through 2009, Hanson submitted
settlement with the Federal government of $210,250,000,             falsiﬁed claimant forms to the DOL-OWCP regarding his
and up to $14,750,000 to aﬀected states that opt to                 employment status. Over the course of Hanson’s disability
participate in the agreement. The OWCP paid $1,668,535              payments, he never reported outside income or work-
in Botox®-related costs.                                            related activities to OWCP as required. Hanson later
                                                                    admitted to investigators that he had been secretly working
The civil settlement agreement addresses allegations                restoring automobiles, doing construction projects, and
that Allergan used unlawful marketing practices which               performing other unreported work throughout the duration
caused false claims to be submitted to government health            of his workers’ compensation beneﬁts. For the majority of
care programs and agencies, such as Medicare, Medicaid,             his work activities performed while receiving FECA beneﬁts,
TRICARE, the Federal Employees Health Beneﬁt Program,               he was paid in cash. Hanson also admitted that he often
the U.S. Department of Veterans Aﬀairs (VA), and OWCP.              wore a medical brace to his doctor appointments in order
From 2001 through at least 2008, Allergan promoted                  to deceive his doctor into believing that he was unable to
Botox ® for use that was not medically accepted or covered          return to work. As part of his plea agreement, Hanson has
by the above Federal healthcare programs, knowingly                 agreed to pay $328,123 in restitution which represents all
made unsubstantiated and misleading statements about                of the funds from his OPM retirement account and Hanson
the eﬃcacy of Botox ® to encourage its improper use,                forfeited $72,000 in cash.
instructed doctors to miscode Botox® claims to ensure
payment by government healthcare programs, and                      This is a joint investigation with the DLA. United States v.
provided inducements to doctors to inﬂuence them to                 John Hanson (D. Maryland)
administer more Botox®.

This was a joint investigation with the Federal Bureau
of Investigation (FBI), the FDA’s Office of Criminal
Investigation, and the Department of Health and Human
Services (HHS)-OIG. Investigative assistance was provided
by the Oﬃce of Personnel Management (OPM)-OIG,
TRICARE Program Integrity, and the VA-OIG. United States
v. Allergan, Inc. (N.D. Georgia)

Maryland Man Pleads Guilty to
Fraudulently Obtaining $636,000 in
26-Year FECA Scam

John Hanson, a former printer for the Defense Logistics
Agency (DLA), pled guilty on September 1, 2010, to making
a false statement to fraudulently obtain $636,410 in
Federal disability payments over the course of 26 years.


16     Semiannual Report to Congress: April 1- September 30, 2010
                                Worker and Retiree Benefit Programs


        Employee
           l     Benefits
                     f Security Administration

                                 d
    The Employee Beneﬁts Security Administration (EBSA) is responsible for overseeing more than 150 million Americans
  covered by more than 708,000 private retirement plans, 2.8 million health plans, and similar numbers of other welfare
  beneﬁt plans holding over $5 trillion in assets; as well as plan sponsors and members of the employee beneﬁts
  community. EBSA is responsible for administering and enforcing the ﬁduciary, reporting, and disclosure provisions of
  Title I of the Employee Retirement Income Security Act of 1974 (ERISA).



EBSA Should Do More to Protect                                  undisclosed compensation by certain service providers.
Retirement Plan Assets from Conflicts of                        While these actions go a long way toward creating
                                                                transparency in plan activities and improving protections
Interest                                                        for plan assets and participant beneﬁts, EBSA needs to
                                                                do more to protect plan participants and beneﬁciaries.
We conducted a performance audit to determine if EBSA
                                                                Speciﬁcally, EBSA needs to address other critical regulatory
has taken action to evaluate and reduce risk of harm to plan
                                                                areas that have hampered its enforcement program,
participants from conﬂicts of interest in pension service
                                                                such as the narrow deﬁnition of a ﬁduciary and the lack
providers. The private emplyoyee beneﬁts system in the
                                                                of regulations dealing with conﬂicts of interest. The SEC
United States involves about $5 trillion in assets for more
                                                                and EBSA have guidelines that are helpful in focusing
than 150 million Americans participating in more than
                                                                attention on conﬂicts of interest; however, EBSA cannot
708,000 retirement plans, 2.8 million health plans, and
                                                                incorporate them into its enforcement program because
similar numbers of other welfare beneﬁt plans. ERISA
                                                                it cannot enforce compliance unless regulations exist. In
governs the investment of these assets. ERISA assigns
                                                                reviewing 24 pension service providers, the SEC found
DOL primary responsibility to enforce the fiduciary
                                                                13 instances of inadequate disclosure of conﬂicts of interest.
provisions of ERISA Title I, which is accomplished through
                                                                EBSA, using its regulations, could not take any enforcement
EBSA. Conﬂicts of interest arise when a service provider
                                                                action on the inadequate disclosure to pension plans. EBSA
has competing professional or personal interests, which
                                                                did, however, ﬁnd two instances of prohibited transactions
can hinder the service provider’s and the plan ﬁduciary’s
                                                                under ERISA in its review of the SEC cases.
ability to act solely in the interest of plan participants or
beneﬁciaries.
                                                                We made two recommendations to EBSA that would
                                                                strengthen its enforcement program relative to conﬂicts
Our audit found that EBSA has taken several actions to
                                                                of interest: to broaden the deﬁnition of a ﬁduciary for
evaluate and reduce risk or harm to plan participants and
                                                                investment advisers, and develop regulations requiring
beneﬁciaries from conﬂicts of interest by service providers.
                                                                disclosure of all conﬂicts of interest and consideration of
For example, EBSA developed two new regulations
                                                                conﬂicts of interest in selection of service providers. EBSA
regarding fee determinations and disclosures and is
                                                                agreed with the ﬁnding and recommendations. In addition,
requiring this information be reported to EBSA; followed
                                                                EBSA also stated one of its highest priorities has been the
up on a 2005 Security and Exchange Commission (SEC)
                                                                adoption of a regulation that would ensure plan ﬁduciaries
report on conﬂicts of interest and initiated 12 speciﬁc
                                                                are furnished the information they need to make informed
investigations; worked with the SEC to develop guidelines
                                                                decisions about service providers. (Report No. 09-10-001­
for plan ﬁduciaries to use in selecting and monitoring
                                                                12-121, issued September 30, 2010)
speciﬁc service providers; and implemented the Consultant
Adviser Project, which concentrated resources on improper,
                                                                 Semiannual Report to Congress: April 1- September 30, 2010   17
                                   Worker and Retiree Benefit Programs


                  Unemployment
                       l       Insurance Programs

    Enacted 75 years ago as a Federal–state partnership, the Unemployment Insurance (UI) programs is the Department’s
  largest income-maintenance program. This multibillion-dollar program assists individuals who are unemployed due to
  lack of suitable work. While the framework of the programs is determined by Federal law, the beneﬁts for individuals
  are dependent on state law and are administered by State Workforce Agencies (SWAs) in 53 jurisdictions covering
  the 50 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands, under the oversight of Employment
  and Training Administration (ETA).




Recovery Act: More Than a Billion Dollars                           States have until August 2011 to apply for the UI
in UI Modernization Incentive Payments                              modernization incentive payments. In response to an
                                                                    OIG survey, nine states indicated that they were unlikely
is Unlikely to be Claimed by States
                                                                    to apply for $1.3 billion of UI modernization beneﬁts.
                                                                    These states most often cited the cost of increased
The Recovery Act set aside $7 billion from the Federal
                                                                    beneﬁt payments that would continue after the incentive
Unemployment Account (FUA) in the Unemployment Trust
                                                                    payments are exhausted as the reason for not applying.
Fund, to be used for UI incentive payments for states whose
                                                                    They also cited needed changes to state laws as politically
unemployment compensation laws meet Recovery Act
                                                                    diﬃcult and unpopular with their citizens. Further, the
criteria intended to expand eligibility for unemployment
                                                                    states reported that they did not plan to spend $33 million
beneﬁts permanently. The Recovery Act also provided
                                                                    of administrative grant funds due to signiﬁcant challenges
$500 million in administrative grants to assist states with
                                                                    in procurement or state legislative approval processes,
their UI operations. We conducted a performance audit
                                                                    the need for additional state funds to implement desired
to determine:
                                                                    changes, and/or diﬃculties in identifying just how to spend
                                                                    the funds.
• 	 why states had not applied for the modernization
    funds;
                                                                    Most of the states receiving UI modernization payments
• 	 the status of the $7 billion of modernization funds
                                                                    were not able to provide data regarding claimants’
    established by Congress for use by states, and the status
                                                                    payments. States that could quantify beneﬁts paid under
    of the $500 million in administrative grants to states;
                                                                    the new provisions reported that approximately 55,000
• 	 if states that received UI modernization incentive
                                                                    new claimants were paid $82 million. Four states received
    payments made unemployment compensation beneﬁt
                                                                    incentive payments and delayed implementation of required
    payments to claimants who met the new eligibility
                                                                    changes to state law, but did not provide implementation
    requirements, as enacted in state law; and
                                                                    plans, timelines, or projected implementation costs.
• 	 if states that received incentive payments but have not
                                                                    To better ensure that $1 billion or more of Recovery Act
    yet implemented UI modernization incentive provisions,
                                                                    funds are put to best use, we recommended ETA work
    have implementation plans, including projected costs,
                                                                    with Congress to reinstate unused UI modernization funds
    timeframes and anticipated challenges.
                                                                    into the Federal Unemployment Account (FUA) and work
                                                                    with the


18     Semiannual Report to Congress: April 1- September 30, 2010
                               Worker and Retiree Benefit Programs

states to ensure the $500 million of administrative funds     Three Sentenced in Bank Fraud Scheme
are spent as intended. ETA supports our recommendation        that Defrauded UI Fund of Approximately
that unused funds become unrestricted in the FUA, but
                                                              $359,000
recommends this occur on October 1, 2011, as provided
by the Recovery Act. (Report No. 18-10-012-03-315, issued
                                                              Michael Pecka, his wife Nicole, and their friend,
September 30, 2010)
                                                              Kimberly Borror, were sentenced on September 7, 2010
                                                              after pleading guilty to charges of bank fraud for their
Kenyan National Sentenced for Various                         involvement in a scheme to defraud the New York State
Schemes Including Fictitious Employers                        UI Fund of approximately $359,000. Michael Pecka was
and Aggravated Identity Theft                                 sentenced to 37 months’ imprisonment and ordered to
                                                              pay $359,000 in restitution. Nicole Pecka was sentenced
Peter Mwangi, a Kenyan citizen who at the time of his         to 12 months’ imprisonment and ordered to pay $80,000
oﬀenses was illegally in the United States, was sentenced     in restitution. Borror was sentenced to one day (time
June 17, 2010, to 81 months in prison, to be followed by      served) and ordered to pay $30,000 in restitution. Each
36 months of supervised release. After his imprisonment       of the defendants also received ﬁve years’ probation. The
he will likely face deportation. He was also ordered to pay   restitution orders are to be paid jointly and severally among
a $10,000 ﬁne and restitution of $612,913. In December        the three defendants.
2009, Mwangi pled guilty to mail fraud related to a UI
scheme and also to a separate indictment charging him         Michael Pecka organized and participated in a scheme that
with passport fraud and aggravated identity theft.            made unauthorized withdrawals from the New York State
                                                              UI Fund. After receiving legitimate UI beneﬁts for a short
From about March 2006 through June 2008, Mwangi               period of time in 2006, he opened numerous business
registered 11 ﬁctitious employers with the Massachusetts      accounts in his name and in the names of the other
Division of Unemployment Assistance (DUA) and then ﬁled       defendants. Pecka used his UI account number and routing
hundreds of fraudulent claims in the names of supposed        information to open online trading accounts. He funded
former employees of these businesses. Mwangi used             these accounts by wiring unauthorized UI withdrawals into
his own identity as well as the names and Social Security     them. Using debit cards that he received by opening the
numbers of other individuals, both living and deceased,       accounts, he then withdrew all of the money from each
to make the claims. DUA mailed the beneﬁt checks to           account. Pecka obtained approximately $359,000 through
various addresses controlled by Mwangi. He then cashed        this scheme using the ill-gotten gains to fund limousine
or deposited the checks into bank accounts which he           rides to New York City and to purchase a trip to Italy, lottery
also controlled. Over the course of the scheme, Mwangi        tickets, and various personal items. To varying degrees,
obtained $612,913 in unemployment beneﬁts to which            the other defendants were complicit, had knowledge, or
he was not entitled.                                          received beneﬁts from the crimes.

This was a joint investigation with ICE-Office of             This was a joint investigation with the FBI. United States
Investigations, the U.S. Postal Inspection Service (USPIS),   v. Pecka, et al. (W.D. New York)
U.S. Department of State (DOS)-Diplomatic Security
(DS), and the Massachusetts Department of Workforce
Development DUA. United States v. Peter Mwangi (D.
Massachusetts)

                                                                Semiannual Report to Congress: April 1- September 30, 2010   19
                                   Worker and Retiree Benefit Programs

Former California State Employee                                    failed to pay between $7 million and $20 million in Federal
Sentenced to 30 Months for                                          withholding, Social Security, and Medicare taxes.

Scheme Involving Over $30,000 in
                                                                    S&P supplied hundreds of East Asian, non-English speaking
Unemployment Checks
                                                                    workers to approximately 30 Rhode Island companies and
                                                                    agreed to be responsible for all payroll and employment
Martin Bautista, a former Employment Program
                                                                    tax withholdings, including UI, and to carry workers’
Representative with the California Employment
                                                                    compensation insurance coverage for its employees.
Development Department (EDD), and his accomplice,
                                                                    From April 2004 to January 2008, Chea underreported
Francisco Gomez, were each sentenced on
                                                                    the number of employees employed by S&P in order to
April 26, 2010, to 30 months in Federal prison and three
                                                                    defraud the State of Rhode Island UI Tax Program.
years of supervised release. Additionally, they were ordered
to pay full restitution of $35,100 jointly and severally to
                                                                    This is a joint investigation with the IRS-Criminal
EDD. Bautista and Gomez each pled guilty to violations of
                                                                    Investigation (CI) and HHS-OIG. United States v. Cheang
mail fraud and aggravated identity theft in January 2010.
                                                                    Chea (D. Rhode Island)

Between June 2007 and January 2008, Bautista misused                Illinois Woman Convicted of UI Scheme
his position with EDD to access the UI database and                 involving State Employment Security
inappropriately reopen inactive UI claims. Bautista
                                                                    Supervisor
targeted inactive claims with common names and changed
the addresses on the claims to various other addresses that         Angelica Vasquez was found guilty on June 17, 2010, of
he or Gomez controlled. Bautista then directed fraudulent           mail fraud in connection with a scheme that defrauded
UI check and claim forms used to continue requesting such           the Illinois Department of Employment Security (IDES) of
checks to the unauthorized addresses. The investigation             more than $700,000 in UI beneﬁts.
determined that approximately seven UI claims bearing the
identities of seven victims not entitled to UI compensation         Vasquez engaged in a scheme with an IDES supervisor
were used to perpetrate the scheme. Additionally, 51 UI             to knowingly process fraudulent UI applications. The
checks totaling approximately $30,150 were issued and               IDES supervisor accepted and processed fraudulent UI
negotiated by Bautista and Gomez at local check cashing             applications provided by Vasquez for approximately
facilities.                                                         80 undocumented workers using false Social Security
                                                                    numbers. Between 2003 and 2008, Vasquez provided the
This was a joint investigation with the California EDD              IDES supervisor with meals and alcohol in exchange for the
Investigations Division. United States v. Martin Bautista           supervisors’ acceptance and processing of the fraudulent
and Francisco Gomez (C.D. California)                               UI applications. Vasquez charged undocumented workers
                                                                    between $400 and $800 to process their applications. She
Owner of Temporary Employment Agency
                                                                    would also have the undocumented workers’ beneﬁts
Pleads Guilty in UI Fraud Scheme
                                                                    terminated if they did not make payment to her.

Cheang Chea, the owner of S&P Temporary Help Services,
                                                                    This was a joint investigation with USPIS and ICE. United
Inc., pled guilty on June 8, 2010, to charges of tax evasion,
                                                                    States v. Angelica Vasquez (N.D. Illinois)
theft from a health care beneﬁt program, and mail fraud.
Chea underreported substantial amounts of wages and

20     Semiannual Report to Congress: April 1- September 30, 2010
                                Worker and Retiree Benefit Programs

Texas Workforce Development Specialist
Indicted in UI Fraud Scheme

A former Workforce Development Specialist for the Texas
Workforce Commission (TWC) was indicted on July 21,
2010, on charges of theft of public money and mail fraud.
The defendant allegedly requested payments of $200
each from 67 UI applicants to ensure that the applicants
would receive UI beneﬁts they were not entitled to receive.
Between June 2007 and September 2009, the defendant
purportedly ﬁled fraudulent claims on behalf of individuals
totaling approximately $310,541 using fictitious last
employers which were created for the sole purpose of
ﬁling for UI beneﬁts.

This is a joint investigation with the TWC.




     “Between June 2007 and September 2009, the defendant purportedly
      filed fraudulent claims on behalf of individuals totaling approximately
     $310,541 using fictitious last employers which were created for the sole
                         purpose of filing for UI benefits.”




                                                              Semiannual Report to Congress: April 1- September 30, 2010   21
Employment and Training
      Programs




               Semiannual Report to Congress, Volume 62
                                    Employment and Training Programs


                                 Workforce
                                    kf     Investment Act

     The primary goal of the Workforce Investment Act (WIA) is to consolidate, coordinate, and improve employment,
  training, literacy, and vocational rehabilitation programs in the United States. The OIG has conducted numerous audits
  of the WIA program and its grantees since WIA’s enactment, including audits of state WIA expenditures, training
  and educational services provided to dislocated workers, and state-reported performance data. The Department
  has implemented many of our recommendations to improve WIA program administration and performance. OIG
  investigations have resulted in the prosecution of individuals who illegally obtained WIA funds, thereby denying
  eligible persons the beneﬁt of employment services. Our investigations have also documented conﬂict-of-interest
  issues involving program administrators.



ETA Can Improve Its Process for                                     had to report was not always clear. Oﬃcials for the two SWAs
Sharing Information with Stakeholders                               that did not perform evaluations told us of review activities
                                                                    they conducted; however, neither SWA documented their
by Including Best Practices from State
                                                                    results or issued reports. By not performing evaluations,
Workforce Agencies’ WIA Evaluations
                                                                    these SWAs may have missed opportunities to achieve
                                                                    similar increases in the eﬀectiveness and eﬃciency of their
WIA requires State Workforce Agencies’ (SWA) to conduct
                                                                    employment and training programs.
ongoing evaluations of their Title IB workforce investment
activities for the purpose of promoting, establishing,
                                                                    The OIG found that ETA did not have a process for analyzing
implementing, and using methods for continuously
                                                                    completed evaluations or a method of sharing them with
improving them. WIA funds are reserved for this purpose,
                                                                    the other SWAs and stakeholders. ETA was not aware
and SWAs are required to include evaluation activities
                                                                    of the extent of SWA evaluations, because it did not
when submitting their WIA Annual Reports each October.
                                                                    have a procedure for monitoring whether or not SWAs
We conducted a performance audit to determine the
                                                                    conducted evaluations and how the results were used. As
extent to which SWAs are conducting evaluations of their
                                                                    a result, ETA is missing the opportunity to save funds by
workforce investment activities and using the results to
                                                                    leveraging resources for its own evaluation eﬀorts through
promote eﬃciency and eﬀectiveness in their respective
                                                                    coordination with SWAs in areas that have a national impact
state workforce investment systems.
                                                                    on the employment and training system. In addition, SWAs
                                                                    are not provided the opportunity to hear about and use
The OIG assessed the evaluation activities of eight
                                                                    results from other SWAs that might create signiﬁcant
SWAs over a five-year period and found that they
                                                                    eﬃciencies in their own operations.
generally conducted evaluations and used the results to
promote eﬃciency and eﬀectiveness in their respective
                                                                    We made recommendations to ETA to: clarify ETA’s
state workforce investment systems. Six of eight SWAs
                                                                    requirements to the SWAs for reporting evaluations in
conducted evaluations; however, of the 38 evaluations that
                                                                    the SWA WIA Annual Report; develop and implement a
were completed during our review period, only nine were
                                                                    system to analyze the SWA evaluation results and identify
included in the SWAs’ WIA Annual Reports. SWA oﬃcials
                                                                    best practices that could improve employment and training
stated that ETA’s requirement on which evaluations they


24     Semiannual Report to Congress: April 1- September 30, 2010
                                 Employment and Training Programs

service delivery; and develop and implement a system so        for one of its sub-recipients by 26% (10.52). The second
that these best practices can be shared nationally with        recipient did not consider it practicable to collect jobs
other SWAs. ETA has indicated it will: 1) develop guidelines   created or retained for lower-tier sub recipients, and jobs
for Regional Oﬃce staﬀ to initially review SWA evaluations     created or retained was underreported by 36% (134.25)
to determine which ones to pass on to its national oﬃce for    for one of its sub-recipients. As a result, these recipients
ﬁnal review; 2) share best practices, tools, and replicable    did not provide the most comprehensive and complete
models identiﬁed through state evaluations based on            job-impact numbers available. Inaccurate reporting could
rigorous research practices through its online technical       mislead the public about the number of jobs created or
assistance platform (www.Workforce3 One.org); and              retained and prevent meaningful comparisons of the data
3) explore opportunities, depending on funding availability,   as a whole.
to improve the functionality of the Workforce3 One.org
website. (Report No. 03-10-003-03-390, issued August           We also found that OMB’s guidance can be clariﬁed and
31, 2010)                                                      enhanced for the reporting of lower-tier sub-recipient
                                                               jobs created or retained. In addition, transparency could
Recovery Act: Data Quality in Recipient                        be optimized by ensuring that the FederalReporting.gov
Reporting                                                      website indicates whether expenditures are reported on
                                                               the cash or accrual basis of accounting.
ETA received $4 billion of Recovery Act funds, the majority
of which — 73% ($2.9 billion) — was awarded using the          We made two recommendations to ETA: (1) to instruct
WIA formula to provide Youth, Adult, and Dislocated            one recipient to make full use of the correction period and
Worker employment and training activities to the               (2) to consult with OMB on the issuance of guidance for
57 SWAs. We conducted an audit at the request of the           sub-recipient and lower-tier sub-recipient reporting of jobs
Recovery Accountability and Transparency Board (RATB)          created or retained. ETA agreed with the recommendations
to determine whether recipients’ processes for compiling       and indicated that they will take action on them. The RATB
and reporting selected data provided reasonable assurance      has compiled data and issued a report using the results of
of their compliance with the Recovery Act’s Section 1512       our audit, as well as audits conducted by other Federal
requirements on quarterly reporting. Our audit covered         agencies. (Report No. 18-10-002-03-390, issued September
two WIA recipients and four sub-recipients, and actions        27, 2010)
taken to enhance data quality for the third reporting period
ending March 31, 2010 for two WIA recipients and four
sub-recipients. We limited our review to ﬁve key data          Recovery Act: Funding Challenges Threaten
elements: funds received/invoiced, expenditures, number        the Quality of Future Monitoring Activities
of jobs created or retained, project status, and ﬁnal report   for ETA’s Discretionary Grants
indicator.
                                                               The Recovery Act provided $750 million for competitive
Our audit found that, of the ﬁve key data elements, the two    grants to high-growth and emerging-industry sectors,
recipients reasonably reported on four data elements but       primarily for green and health care job training and
did not properly report on a ﬁfth: jobs created or retained.   placement. Of that amount, $500 million was targeted
This occurred because one recipient’s process did not make     green job training and careers in that sector. The remaining
use of the correction period to update its data, which         $250 million was targeted for projects that prepare workers
resulted in the over-reporting of jobs created or retained     for careers in the health care sector. The Recovery Act also


                                                                Semiannual Report to Congress: April 1- September 30, 2010   25
                                     Employment and Training Programs

allowed DOL to use $47 million for the administration,               While reviewing the green job projects of the Recovery
management, and oversight of Recovery Act grants.                    Act high-growth grants, we noted that ETA does not have
These funds were made available for obligation through               a comprehensive policy framework to guide its green
September 30, 2010.                                                  initiatives and grant programs. Without a comprehensive
                                                                     policy framework, DOL will lack a needed programmatic
The OIG conducted an audit to determine if:                          definition to guide its green jobs initiative and help
                                                                     ensure the grants addressing green jobs are as eﬀective
• 	 ETA used merit-based selection criteria, as required             as possible.
     by the Oﬃce of Management and Budget (OMB),
     in awarding $750 million in Recovery Act funds for              We recommended that ETA continue to identify and
     competitive grants for worker training and placement            prioritize workloads and funding levels to ensure grants
     in high-growth and emerging-industry sectors;                   are adequately monitored, and provide a comprehensive
• 	 ETA considered “a demonstrated or potential ability to           policy framework for carrying out ETA’s responsibilities in
     deliver programmatic results,” in awarding competitive          the green jobs area. ETA acknowledged that funding issues
     grants under the Recovery Act, as required by OMB               will impact monitoring eﬀorts, but has requested funding
     Memo M-09-15;                                                   for this purpose in its FY 2011 budget submission and hired
• 	 ETA’s guidance during grant solicitation and post­               contractor support staﬀ to minimize the impact. ETA stated
     solicitation activities, including monitoring, addressed        it is premature to conclude that a comprehensive policy
     Congress’ requirements regarding use of these funds;            framework is needed or feasible to produce on the green
     and                                                             jobs issue. The OIG continues to believe this approach is
• 	 grant agreements required adherence to Recovery Act              necessary to maximize the eﬀectiveness and eﬃciency of
     reporting and tracking requirements.                            Federal funds expenditures in the emerging job sector.
                                                                     (Report No.18-10-013-03-390, issued September 30,
We found that ETA announced, evaluated, and selected                 2010)
the grants under our review in accordance with relevant
criteria, and that its monitoring guidelines and procedures
were comprehensive. Furthermore, grant agreements
informed grantees of their responsibilities for Recovery
Act reporting.

Recovery Act funds to ETA to monitor Recovery Act grants
expired on September 30, 2010. This has resulted in ETA
assigning the monitoring of the 244 Recovery Act grants
to non-Recovery Act monitors who already have full
workloads. Also, reduction in staﬀ resources and funding
for travel costs will impact ETA’s ability to fully execute the
Recovery Act grantee monitoring and oversight functions.
These reductions may increase the risk that some of the
$717 million in Recovery Act grant funds may not be spent
for their intended purposes.



26      Semiannual Report to Congress: April 1- September 30, 2010
                                Employment and Training Programs


                                                  Job Corps

    Job Corps, which is under the oversight of ETA, operates 124 centers throughout the United States and Puerto Rico
  to provide occupational skills, academic training, job placement services, and other support services, such as housing
  and transportation, to approximately 60,000 students each year. Its primary purpose is to assist eligible youth who
  need intensive education and training services.



Recovery Act: Job Corps Could Not                               reasonable based on a market rent study. However, Job
Demonstrate That a Multi-Year Lease                             Corps did not perform a lease-purchase analysis as required
                                                                by OMB Circular A-94 to determine the least expensive way
to Acquire a New Center Was the Least
                                                                to acquire a new facility. Current departmental policies
Expensive Option
                                                                and procedures related to Job Corps real property leasing
                                                                were last updated in 1991, which pre-dates OMB Circular
The Recovery Act provided the Oﬃce of Job Corps $250
                                                                A-94 requirements. Through our analysis, we estimate
million for construction, operations, and administrative
                                                                that Government construction of the facility may have cost
costs. Job Corps’ largest single expenditure of these funds
                                                                $31 million less than the $82 million multi-year lease. As
was a 20-year lease totaling $82 million with the YWCA
                                                                a result, Job Corps may have lost the opportunity to put at
of Greater Los Angeles, Inc., for the YWCA to construct a
                                                                least $31 million of Recovery Act funds to better use.
new facility at the Los Angeles Job Corps Center (LAJCC).
The lease agreement requires Job Corps to make an
                                                                According to Job Corps, the multi-year lease was chosen
advance payment of $20 million and incremental lease
                                                                without performance of a lease-purchase analysis because
payments ranging from $2.8 million to $3.3 million per
                                                                the lease proposal from the YWCA was the only option
annum through 2031. Job Corps also agreed to pay 60%
                                                                submitted in response to the request for proposal. Job
of fair market value (FMV) at the end of the lease term if
                                                                Corps further explained that “…the requirement to perform
it opts to purchase the facility. The Recovery Act included
                                                                the tasks necessary for a formal lease-purchase analysis
provisions that specifically allowed Job Corps to use
                                                                would have precluded the Department from meeting
the multi-year lease option and advance payments to
                                                                the 120-day requirement provided by the Recovery Act.”
lease real property as long as construction began within
                                                                However, the Department failed to note that, while the
120 days of the Recovery Act’s enactment. We conducted
                                                                Recovery Act does promote quick commencement of
a performance audit of this $82 million expenditure to
                                                                expenditures, it does not waive existing legislative or
determine the impact of Job Corps using a multi-year lease
                                                                administrative requirements or prudent management
to acquire the facility at the LAJCC.
                                                                decisions.

Our audit found that Job Corps could not demonstrate the
                                                                We also determined Job Corps could not demonstrate that
multi-year lease with the YWCA was the least expensive
                                                                the bargain purchase option (BPO) price of 60% of FMV is
option to the Government for purposes of acquiring a
                                                                the least expensive way to acquire the facility at the end
new facility at the LAJCC. OASAM negotiated the cost
                                                                of the 20-year lease term. In addition, OASAM could not
of the multi-year lease from a proposed $105 million to
                                                                provide documentation to support the basis for the BPO
$82 million and determined that the resultant cost was

                                                                  Semiannual Report to Congress: April 1- September 30, 2010   27
                                     Employment and Training Programs

price. OASAM oﬃcials stated that a detailed record of                MINACT, Inc., Did Not Always Comply
negotiations is not required for leases, and noted that              With Job Corps Safety and Health
the ﬁnal cost of the multi-year lease was negotiated from
                                                                     Requirements at the Excelsior Springs
$105 million originally proposed by YMCA to $82 million.
                                                                     Job Corps Center
However, without an adequate cost beneﬁt analysis, Job
Corps could not ensure that it paid the least expensive
                                                                     We conducted a performance audit of the Excelsior Springs
price to acquire the facility. Based on our analysis, should
                                                                     Job Corps Center operated by MINACT, Inc., under contract
Job Corps choose to acquire the new facility at the
                                                                     with the Oﬃce of Job Corps. The audit included coverage of
end of the lease period, it will have paid a minimum of
                                                                     MINACT’s safety and health programs and ﬁnancial activity
$116 million — $82 million in lease payments and
                                                                     at the Center for calendar year 2009. Safe and healthy
$34 million to exercise the BPO — to do so.
                                                                     conditions are critical to ensuring students maintain the
                                                                     wellness necessary to participate fully in their training and
We made two recommendations to ETA to work with
                                                                     to maximize their beneﬁt from the Job Corps program.
OASAM to demonstrate, in accordance with OMB Circular
A-94, that the multi-year lease with the YWCA to acquire a
                                                                     We found that MINACT did not ensure compliance with Job
new facility at the LAJCC was the least expensive option to
                                                                     Corps requirements for managing Center safety and health
the Government and, if appropriate, renegotiate the multi­
                                                                     programs in the areas we reviewed: student misconduct,
year lease agreement to ensure that the total cost of the
                                                                     safety and health inspections, and committee meetings.
lease, including the BPO price, is the least expensive option
                                                                     Speciﬁcally, Excelsior Springs did not always convene
to the Government. We also recommended Job Corps
                                                                     Fact Finding Boards as required for students suspected
and the Department update their policies and procedures
                                                                     of infractions, such as physical assault with intent to
for facility leasing. ETA and OASAM stated that a cost/
                                                                     cause bodily harm to a student, threat of assault, ﬁghting,
beneﬁt analysis was not required, because OMB waived
                                                                     and sexual harassment. As a result, MINACT could not
certain budgetary reporting of their lease. Job Corps and
                                                                     demonstrate appropriate disciplinary action was taken,
OASAM objected to the report’s estimate of potential
                                                                     and potentially dangerous students may have been allowed
savings as speculative, stating that no other oﬀeror came
                                                                     to remain at the Center. In addition, MINACT could not
forward to oﬀer a suitable building or parcel of land.
                                                                     demonstrate that all required safety and health inspections
We did not concur that this relieved the Department of
                                                                     and committee meetings were conducted. Center records
conducting a sound cost/beneﬁt analysis. Further, OMB’s
                                                                     indicated it did not conduct 6% of weekly inspections, 15%
reporting waiver was granted four months after the lease
                                                                     of monthly inspections, and 83% of quarterly inspections.
was signed. ETA and OASAM agreed that policies and
                                                                     As a result, Excelsior Springs exposed students and staﬀ to
procedures for real property leasing will be reviewed and
                                                                     potential safety and health hazards that could have been
revised accordingly. (Report No. 18-10-009-03-370, issued
                                                                     identiﬁed and abated.
September 30, 2010)

                                                                     In the area of ﬁnancial activity, MINACT and Excelsior Springs
                                                                     did not ensure compliance with Job Corps requirements for
                                                                     managing and reporting ﬁnancial activity in either of the
                                                                     two areas tested: non-personnel and personnel expenses.
                                                                     The Center could not demonstrate goods and services
                                                                     related to non-personnel expense transactions were
                                                                     properly approved, received, or processed. As a result, we

28      Semiannual Report to Congress: April 1- September 30, 2010
                                 Employment and Training Programs

questioned $203,921 in costs for 62 transactions tested,       determined the Center took appropriate disciplinary
because Excelsior Springs could not show that payments         action. The staﬀ involved with the student voluntarily
for dental, medical, IT support, and advertising services      resigned, and the students whose case logs were changed
were appropriate. In addition, MINACT lacked supervisory       to eliminate references to alcohol use had nonetheless
review over payroll transactions. This increased the risk      received appropriate disciplinary action.
that inappropriate payroll expenses could be incurred and
charged to Job Corps without detection.                        Our testing of MTC’s overall management of student
                                                               misconduct showed it generally took adequate actions
We made seven recommendations to ETA to direct MINACT          to investigate and resolve incidents; however, the Center
to: improve corporate-level controls and monitoring over       did not always report student misconduct and other
all centers for ﬁnancial managing and reporting, student       signiﬁcant incidents to Job Corps as required. We found that
misconduct, and Center health and safety requirements;         46% (28 of 61) of the signiﬁcant incidents that occurred
identify and correct non-compliance with Job Corps             at the Center between December 2009 and May 2010
requirements; improve effectiveness of training and            were not reported. Although the Center had adequate
oversight of staﬀ; and provide documentation to support        procedures for reporting signiﬁcant incidents as required,
questioned costs identiﬁed during our audit. ETA concurred     Center management did not provide suﬃcient oversight
with our recommendations and stated that Job Corps             to ensure compliance. This lack of reporting impacts Job
will instruct MINACT to improve its controls and will          Corps assessment of Center operations.
determine the extent of any reimbursements resulting
from unsupported questioned costs. (Report No. 26-10­          Our review of daily reports that are intended to document
004-01-370, issued August 10, 2010)                            security staﬀ activities showed that these reports were
                                                               missing for 73% (136 of 186) of individual work schedules
MTC Can Improve Incident Reporting                             over 23 pay periods tested from December 2009 through
and Payroll Oversight at the Sierra Nevada                     May 2010. In addition, 76% (139 of 182) of entries in the
Job Corps Center                                               security dispatch logs reviewed over four pay periods did
                                                               not document when security staﬀ departed from duty
We conducted a performance audit of the Sierra Nevada          as required. Neither Job Corps nor Sierra Nevada had
Job Corps Center, which is operated by the contractor          written policy requiring daily activity reports and dispatch
Management and Training Corporation (MTC), in response         logs; however, the Center security manager required
to a Hotline complaint concerning improprieties at             the documentation to ensure security staﬀ was actively
the Center. The complaint contained eight allegations          engaged with Center personnel while on duty and to ensure
encompassing two primary issues: Sierra Nevada not taking      a visible security staﬀ presence in the dormitories. The
appropriate action for student and staﬀ misconduct, and        Center could not provide that assurance due to the missing
paying staﬀ for hours not worked.                              or incomplete documentation. Additionally, during our
                                                               review of payroll controls, we could not verify that the hours
Our audit found that ﬁve allegations were not substantiated,   reported for exempt employees represented actual hours
two allegations had some merit, and one allegation was         worked because the Center did not require documentation
inconclusive. The two partially substantiated allegations      of the hours worked nor supervisor approval. These control
related to an inappropriate relationship between a student     deﬁciencies occurred because Center management had not
and Center staﬀ, and case logs that were changed to            established procedures deﬁning adequate documentation
eliminate references to alcohol use. In both cases, we         requirements and oversight.


                                                                Semiannual Report to Congress: April 1- September 30, 2010   29
                                     Employment and Training Programs

We recommended that Job Corps require Sierra Nevada to               Our audit questioned $1.8 million of indirect cost that ATSI
establish procedures that verify the Center’s compliance             charged to Job Corps using the provisional rates speciﬁed
with Job Corps requirements for reporting signiﬁcant                 in its contracts for its estimated indirect costs. ATSI violated
incidents, verify the Center’s compliance with its own               the Federal Acquisition Regulation as well as contract
requirements for Activity Reports and for the Dispatch               provisions by failing to submit required annual indirect cost
Log, and provide adequate assurance and maintain                     proposals that are needed to determine approved rates and
documentation that reported hours worked by exempt                   any amounts to be reimbursed to the Federal government.
employees represent actual hours worked. Job Corps                   Further, when ATSI did submit the delinquent indirect cost
concurred with the first two recommendations and                     proposals as a result of our audit, it included transactions
concurred in part with the third one, and will take corrective       that either were not supported by any documentation or
actions. MTC stated that it took corrective action for the           were supported by documentation that did not provide
ﬁrst two recommendations. For the third recommendation,              adequate assurance that the costs were valid.
MTC believes the Center’s existing supervisory oversight of
hours worked by exempt employees is suﬃcient. ETA stated             The audit also found that DOL procedures regarding the
that it will review timesheets of security staﬀ and exempt           Federal agency responsible for monitoring of indirect cost
employees based on the sampling method used by the                   proposal submissions were not speciﬁc, and OASAM and
OIG. If appropriate, ETA will instruct the Center to revise          Job Corps personnel were unclear of their responsibilities.
its operating procedures and policies to ensure corporate            Both agencies believed the other was responsible for
oversight and center level controls are in compliance with           ensuring compliance, and therefore neither monitored
properly recording work hours for salaried employees.                annual contractor submissions. OASAM and Job Corps also
(Report No. 26-10-007-01-370, issued September 30,                   did not have eﬀective processes to ensure that overcharges
2010)                                                                resulting from OASAM reviews would be reimbursed to
                                                                     Job Corps. Because of these deﬁciencies, ATSI was able
Applied Technology Systems, Inc.,                                    to obtain payments far in excess of that to which it was
Overcharged Job Corps for Indirect                                   entitled.
Costs
                                                                     We made ﬁve recommendations to ETA and OASAM aimed
At the request of the Oﬃce of the Assistant Secretary                at ensuring proper oversight of contractors’ indirect costs
for Administration and Management (OASAM), the OIG                   and recovering the $1.8 million in questioned cost. ETA
conducted a performance audit of indirect costs that                 and OASAM accepted our recommendations and will
Applied Technology Systems, Inc. (ATSI), a Job Corps center          require ATSI to provide supporting documentation for
contractor, charged to the Oﬃce of Job Corps for calendar            the questioned costs, and any costs ATSI cannot support
years (CY) 2004-2007. Our objective was to determine                 will be assessed as liquidated damages. ATSI expressed
whether ATSI complied with Federal regulations and                   concern about the accuracy of our ﬁndings and will conduct
contract provisions for reporting indirect costs. ATSI used          research to provide additional supporting documentation
the provisional rates speciﬁed in its center contracts to            to OASAM and Job Corps. (Report No. 26-10-003-01-370,
charge Job Corps $9.3 million for its estimated indirect             issued September 24, 2010)
costs during CYs 2004-2007.




30      Semiannual Report to Congress: April 1- September 30, 2010
                                Employment and Training Programs

                Foreign Labor
                          b Certification
                                 f        Programs

    ETA administers a number of foreign labor certiﬁcation programs which allow U.S. employers to employ foreign
  labor to meet American worker shortages. The H-1B visa specialty workers program requires employers who intend to
  employ foreign specialty occupation workers on a temporary basis to ﬁle labor condition applications with ETA stating
  that appropriate wage rates will be paid and workplace guidelines will be followed. The H-2B program established a
  means for U.S. nonagricultural employers to bring foreign workers into the United States for temporary employment.
  The Permanent Foreign Labor Certiﬁcation program allows an employer to hire a foreign worker to work permanently
  in the United States.



Debarment Authority Should Be Used                             provide that information to the government’s Excluded
More Extensively in Foreign Labor                              Parties List System. This increased the risk that parties
                                                               that had previously violated FLC laws or regulations could
Certification Programs
                                                               continue to participate in FLC programs or receive business
                                                               or beneﬁts from other Federal agencies. We also identiﬁed
The Immigration and Nationality Act (INA) established
                                                               several FLC applications that contained potentially invalid
several visa types that permit foreign residents to work in
                                                               Employer Identiﬁcation Numbers (EIN). An invalid EIN may
the United States. ETA and the WHD, in conjunction with the
                                                               indicate that the applicant is not a legitimate organization
U.S. Departments of Homeland Security and State, oversee
                                                               recognized by the Internal Revenue Service. While the
and enforce provision of the INA’s various visa programs.
                                                               number of potentially invalid EINs we identiﬁed was small,
Violations of program requirements subject persons and
                                                               screening FLC applications for invalid EINs is a reasonable
entities to potential debarment from future program
                                                               fraud prevention measure.
participation. During FY 2009, ETA approved 96% (309,268
of 321,730) labor certiﬁcation applications. We conducted a
                                                               We recommended that DOL take steps to assure that
performance audit of ETA and WHD to determine whether
                                                               debarments are considered and decisions documented
the Department properly used suspension and debarment
                                                               for anyone convicted of FLC violations; and that FLC
tools in administering the foreign labor certiﬁcation (FLC)
                                                               debarments are reported to appropriate DOL personnel
programs during FY 2009.
                                                               for inclusion in the government-wide exclusion system. We
                                                               also recommended that ETA strengthen FLC application
Our audit found that the Department did not fully utilize
                                                               processing controls to ensure the detection and resolution
the suspension and debarment authority provided in
                                                               of applications with potentially invalid EINs. ETA cited
the INA and its FLC regulations and did not consider the
                                                               the need to resolve diﬀering legal opinions concerning
government-wide debarment and suspension authority
                                                               the use of the exclusion system and stated that they had
under 29 CFR part 98. Our audit found that DOL narrowly
                                                               implemented additional EIN controls. WHD cited a need
deﬁned their suspension and debarment authority based
                                                               for further legal research over both debarment authority
only on the INA and FLC regulatory provisions, rather than
                                                               and use of the exclusion system. (Report No. 05-10-002­
the broader government-wide authority. Further, when
                                                               03-321, issued September 30, 2010)
DOL did debar individuals or entities, they did not




                                                                 Semiannual Report to Congress: April 1- September 30, 2010   31
                                     Employment and Training Programs

Three Employees Sentenced in H-2B                                    fraudulent IPR visas in buses chartered by IPR. Upon re­
Work Visa Fraud Scheme                                               entering the United States, the illegal workers returned to
                                                                     their former employers, never working for the employers
Theresa Klish, Mary Gillin, and Emily Ford, employees of             listed on the fraudulent petitions submitted by IPR.
International Personnel Resources (IPR), were sentenced
in May and June 2010 after pleading guilty in December               This was a joint investigation with ICE. Based on information
2009 to visa fraud and to conspiracy to commit visa                  provided by the defendants, several subsequent
fraud. The pleas stem from their roles in a conspiracy that          investigations have been initiated regarding companies
shuttled undocumented workers through the immigration                that participated in IPR’s visa fraud scheme. United States
system to illegally obtain temporary work visas. Klish               v. International Personnel Resources (E.D. Pennsylvania)
was sentenced to ﬁve years’ supervised release, a ﬁne of
$2,000, and forfeiture of $500,000; Gillin, to four months’          Guilty Pleas in Visa Fraud Conspiracy
home conﬁnement, three years’ supervised release, and
a $50,000 ﬁne; and Ford, to ﬁve years’ supervised release            Wilson, Valeria, and Eduardo Barbugli, a husband, wife, and
and a $20,000 ﬁne. Michael Glah, the owner and operator              son who owned and operated eleven staﬃng companies,
of IPR, pled guilty in December 2009 to the same visa fraud          pled guilty in July and September 2010 to charges of visa
charges as well as to immigration fraud. As part of the plea         fraud, conspiracy, and encouraging undocumented workers
agreement, Glah and Klish agreed to forfeit $1 million at            to come to and remain in the United States. As part of
sentencing. Glah was scheduled to be sentenced in August             their plea, the Barbuglis agreed to a multi-million dollar
2010, but was found dead at his home in West Chester,                forfeiture, for which they are jointly and severally liable.
Pennsylvania, prior to sentencing.
                                                                     The Barbuglis ran a large contract labor business which
Between 2003 and 2008, IPR systematically applied for a              facilitated the approval of H-2B visas allowing more than
greater number of temporary foreign work visas than its              1,000 foreign nationals to enter the United States to work
client businesses needed. By inﬂating this number, IPR               as temporary workers. The Barbuglis also operated a
created its own supply of approved H-2B visas for use in             São Paulo, Brazil, recruitment business that they used to
an illegal substitution scheme. IPR fabricated identities for        smuggle illegal workers into the United States.
non-existent H-2B workers by randomly selecting names
from a Mexico City telephone book maintained by IPR,                 Between January 2006 and September 2009, the Barbuglis
and then fabricated information, including dates of birth            and their recruitment oﬃcer, who was also charged,
and addresses for the names that were selected. If IPR               conspired to prepare and submit numerous fraudulent
clients’ visa petitions were rejected or if the clients wanted       labor certiﬁcation applications and visa petitions to DOL and
additional workers, names from the fabricated supply were            USCIS. The scheme used shell companies as fronts to obtain
used on new or resubmitted petitions.                                H-2B visas for hundreds of foreign workers. In support of the
                                                                     labor certiﬁcation applications, the defendants submitted
To further the scheme, IPR instructed clients to have their          altered hotel contracts and fraudulent recruitment reports
illegal workers, most of whom were Mexican nationals,                stating that U.S. workers were hired.
return to Mexico in order to re-enter the United States
under IPR’s fraudulently obtained visas. Through this plan,          This is a joint investigation with ICE (Document Beneﬁt
in which illegal workers were coached to lie to government           Fraud Task Force), DOS-DS, and Brazilian authorities with
oﬃcials, approximately 433 illegal workers returned under            the Public Ministry of São Paulo, Brazil who are working


32      Semiannual Report to Congress: April 1- September 30, 2010
                                  Employment and Training Programs

with U.S. Embassy investigators in São Paulo, Brazil. United     This is a joint investigation with U.S. Department of
States v. Valeria Dozzi Barbugli, United States v. Wilson R.     Homeland Security-Homeland Security Investigations,
Barbugli, United States v. Eduardo Dozzi Barbugli (M.D.          IRS-CI, FBI, and USCIS-FDNS, the Kansas Department
Florida)                                                         of Revenue, and the Independence (Missouri) Police
                                                                 Department. United States v. Abrorkhodja Askarkhodjaev,
Guilty Pleas in Racketeering Enterprise                          et al. (W.D. Missouri)
Scheme to Employ Temporary Work Visa
Holders and Undocumented Workers at                              Business Owners Plead Guilty to H-1B
Businesses in 14 States                                          Visa Fraud Scheme

                                                                 Fazal Mehmood and Vineet Maheshwari, owners of
Between June 2010 and August 2010, guilty pleas were
                                                                 Worldwide Software Services, Inc. (WSSI), along with WSSI,
entered by six of 12 defendants who were indicted in May
                                                                 pled guilty on April 30, 2010, to charges of conspiracy to
2009 on Racketeer Inﬂuenced and Corrupt Organizations
                                                                 commit visa fraud, false statements, and engaging in illegal
Act (RICO) charges for activities which occurred in 14 states.
                                                                 monetary transactions.
The individuals face ﬁnes, imprisonment of no more than
20 years, and forfeiture. Among the criminal acts included
                                                                 WSSI ﬁled applications for hundreds of workers through the
in the RICO indictment are forced labor traﬃcking, identity
                                                                 DOL’s H-1B foreign labor certiﬁcation program indicating
theft, harboring and transporting undocumented workers,
                                                                 that the workers would be working at WSSI in Clinton, Iowa.
money laundering, visa fraud, extortion, tax evasion, and
                                                                 WSSI sought H-1B workers at a time when they did not have
fraud in foreign labor contracting.
                                                                 jobs available for them. Once the H-1B workers arrived in
                                                                 the United States, they were placed with other employers
The defendants were involved in a criminal enterprise in
                                                                 in other states. The defendants have agreed to voluntarily
which hundreds of foreign workers were illegally employed
                                                                 dissolve WSSI and a related company— Sana Systems,
at hotels and other businesses across the country. Using
                                                                 Inc.—and accept debarment from the Department’s foreign
false information to acquire DOL certiﬁcation for 1,266
                                                                 labor certiﬁcation program.
H-2B temporary work visas, the defendants created Web
sites designed to recruit foreign workers and to facilitate
                                                                 This is a joint investigation with FBI, ICE, IRS-CI, Social
the sale of H-2B visas to foreign nationals they did not
                                                                 Security Administration (SSA)-OIG, USPIS and Clinton (IA)
intend to employ. They incorporated multiple businesses in
                                                                 Police Department. United States v. Fazal Mehmood and
the states of Missouri and Kansas to disguise their criminal
                                                                 Vineet Maheshwari (S.D. Iowa)
activities, including processing payrolls for both temporary
and undocumented workers, and evading employment tax             California Immigration Consultant
liability, such as Federal Insurance Contributions Act and
                                                                 Charged with Encouraging Illegal
UI on the foreign workers. Many of the foreign workers
                                                                 Immigration
were victims of human traﬃcking, and were coerced to
work in violation of the terms of their visa without proper
                                                                 A California woman, who operated an immigration
pay and under the threat of deportation. They were also
                                                                 consulting business from approximately 1990 until 2008,
forced to reside together in substandard housing and pay
                                                                 was indicted in May 2010 and July 2010, for encouraging
exorbitant rental fees.




                                                                  Semiannual Report to Congress: April 1- September 30, 2010   33
                                    Employment and Training Programs

 and inducing illegal immigration for private ﬁnancial
gain, mail fraud, tax charges, and engaging in monetary
transactions in property derived from speciﬁed unlawful
activity.

The defendant allegedly filed approximately 1,700
fraudulent foreign labor certiﬁcation petitions with DOL
between 2001 and 2008. Her clients – generally Filipino
nationals who were not authorized to work in the United
States – were employed by residential care homes.

This is a joint investigation with the ICE, USCIS, IRS-CI,
USPIS, the SSA-OIG, and the State of California’s EDD.




     “The defendant allegedly filed approximately 1,700 fraudulent foreign labor

            certification petitions with DOL between 2001 and 2008.”





34     Semiannual Report to Congress: April 1- September 30, 2010
                                 Employment and Training Programs


        Veterans’ Employment
                     l       and
                               d Training Service

    The mission of the Veterans’ Employment and Training Service (VETS) is to provide veterans with the resources and
  services to succeed in the 21st century workforce by maximizing their employment opportunities, protecting their
  employment rights, and meeting labor market demands with qualiﬁed veterans. VETS provides funding through the
  Homeless Veterans Reintegration Program (HVRP) to help homeless veterans obtain jobs through grants that support
  a range of services, including job training, counseling, and placement.



Texas Veterans Commission Could                                 management services to assist the veteran in achieving
Enhance Services to Veterans with Barriers                      employment. For the remaining 38, TVC did not develop
                                                                an Individual Development Plan to assist this population of
to Employment
                                                                veterans in achieving employment. TVC documented that
                                                                just 251 veterans received case management services.
Homeless veterans and veterans with disabilities may
not be able to overcome their employment barriers and
                                                                We interviewed 25 homeless veterans and/or veterans
obtain suitable employment without intensive support
                                                                with disabilities, to assess the nature and extent of services
services, such as case management, résumé assistance,
                                                                they received: 19 said they either did not receive any
and job search assistance. The Jobs for Veterans State
                                                                services or they received only some of the services that
Grant Program (JVSG) is VETS primary program for serving
                                                                were reported; 23 said they did not obtain employment
veterans’ training and employment needs. The Disabled
                                                                from the services provided; and 14 said the services they
Veterans Outreach Program (DVOP), which is supported
                                                                received did not meet their needs or only partially met
by JVSG, is designed to facilitate intensive support services
                                                                their needs. Given the low number of veterans that TVC
— using a case management approach — to veterans with
                                                                reported as having received case management services
special employment and training needs, including those
                                                                to address these veterans’ barriers to employment, the
who are homeless or have disabilities. The OIG conducted
                                                                OIG believes the $2.9 million in DVOP funding for the
an audit to determine if the Texas Veterans Commission
                                                                period of July 1, 2008, through December 31, 2008, could
(TVC) provided services to meet veterans’ employment
                                                                have been better used. TVC management cited a lack of
and training needs in the State of Texas.
                                                                adequate training necessary for staﬀ to accurately assess
                                                                the veterans’ needs and/or document intensive service
Based on our statistical sample of 245 veterans out of
                                                                activities. We also concluded that VETS did not provide
the total 42,983 reported served by TVC, our audit found
                                                                eﬀective oversight of the program to ensure that the
that TVC provided services to meet veterans’ employment
                                                                employment and training needs of homeless veterans
and training needs in 84% of cases. However, the 16% not
                                                                and/or veterans with disabilities were met.
receiving full services disproportionately included homeless
and disabled veterans. We estimated there were 6,331
                                                                The OIG recommended that VETS ensure TVC provides
homeless and/or disabled veterans who did not receive
                                                                training to all DVOP staﬀ on accurately assessing veterans’
the full range of services to address their employment
                                                                needs and documenting intensive service activities. We
needs. Of the 39 homeless veterans and/or veterans
                                                                also recommended that VETS implement a policy requiring
with disabilities in our sample, only one received case

                                                                 Semiannual Report to Congress: April 1- September 30, 2010   35
                                    Employment and Training Programs

states to enhance their existing oversight to ensure DVOP           services. These deﬁciencies undermined VETS’ ability
specialists provide case management services for homeless           to ensure veterans succeeded in obtaining meaningful
veterans and veterans with disabilities. TVC disagreed with         employment. In addition, these deﬁciencies resulted in
the report’s conclusion, but agreed that improvements               $2.3 million in unsupported and other questioned costs, as
could be made in the services provided to the hardest-to­           well as $713,000 which may have been put to better use.
serve disabled and homeless veterans. VETS committed
to improving training and refocusing the DVOP program               We made six recommendations to VETS to develop and
on providing intensive support services. (Report No. 06­            implement procedures to ensure accurate participant
10-001-02-001, issued May 28, 2010)                                 attendance, an eﬀective monitoring process, measurement
                                                                    and reporting of outcome goals, and appropriate controls
VETS Needs to Strengthen Management                                 over contract activities and administration. We also
Controls Over the Transition Assistance                             recommended recovery of unsupported and questioned
Program                                                             contract costs. VETS agreed that controls need to be
                                                                    strengthened and pointed to current and planned
The unemployment rate of military personnel separating              improvements. (Report No. 06-10-002-02-001, issued
from the military has risen from 9.8% in 2009 to 11.8% in           September 30, 2010)
2010. The rate of unemployment among returning soldiers
aged 18-24 is approximately 22%. The Transition Assistance          The Homeless Veterans Reintegration
Program (TAP) was established in 1990 to provide                    Program Should Be Improved to Ensure
employment assistance, such as, résumé preparation                  Homeless Veterans’ Employment Needs
and interviewing techniques, to separating and retiring             Are Met
military personnel and their spouses during their period of
transition from military service to the civilian workplace.         We conducted a performance audit of VETS’ HVRP to
For FY 2009, DOL reported delivering TAP services to                determine whether the program effectively met the
124,700 participants with funding of $7.2 million. The              employment needs of homeless veterans. The Department
OIG conducted a performance audit of the VETS TAP                   of Veteran Aﬀairs estimated that in 2009, 107,000 adults
to determine if the agency has eﬀective management                  who served in the armed forces stayed in a shelter one or
controls to ensure it provided employment assistance to             more nights. HVRP’s primary purpose is to assist homeless
veterans.                                                           veterans to ﬁnd and retain employment. For program year
                                                                    (PY) 2008 (July 1, 2008, through June 30, 2009), $22 million
Our audit found that VETS did not have effective                    was appropriated to HVRP funding 89 competitive grants
management controls to ensure TAP participants                      in 34 states, with the planned goals of assisting 14,081
received the assistance they needed to obtain meaningful            homeless veterans in ﬁnding and retaining employment
employment. We found that consistent evaluation criteria            for at least three quarters.
and resolution tracking were lacking in VETS’ monitoring.
VETS could not substantiate the 124,700 participants it             Our audit found that VETS lacked adequate controls to
reported as having attended TAP workshops at 47% (117 of            ensure HVRP eﬀectively met the employment needs of
247) of domestic and overseas TAP sites. Additionally, VETS         homeless veterans. Our measurement of overall program
did not use measurable performance goals and outcomes               results revealed that of the 13,777 program participants
to evaluate program eﬀectiveness. Further, it lacked                in PY 2008, only 31% (4,302) obtained and retained
adequate controls over contracting for TAP workshop                 employment for three quarters. Review of national,


36     Semiannual Report to Congress: April 1- September 30, 2010
                                Employment and Training Programs

regional, and state/local grant operations revealed
signiﬁcant breakdowns in VETS’ oversight and monitoring
of grantees’ operations and performance.

We identiﬁed 60 grants that were underperforming, of
which 82% (49 of 60) were not placed on Corrective Action
Plans as required to improve their performance. In the four
grants we reviewed in detail, the Grant Oﬃcer Technical
Representatives’ monitoring and regional oﬃces’ review
controls failed to detect and/or respond to performance
and ﬁnancial compliance deﬁciencies. VETS’ primary
grant reporting and management system was found to
be unavailable, which hampered reporting and weakened
oversight functions. As a result, performance results
fell short of the planned goal of placing 9,093 veterans
into employment by 27% (2,461 of veterans). Had VETS
provided eﬀective oversight of underperforming grants,
we estimate that $5.9 million of program funds may have
been put to better use.

We recommended that VETS take steps to develop and
implement policies and procedures requiring greater
oversight of grantees. Additionally, we recommended
that VETS develop a standardized methodology to review
grantee operations and performance, and implement
a reliable program reporting system. VETS agreed and
committed to developing and implementing corrective
actions. (Report No. 06-10-003-02-001, issued September
30, 2010)




       “Our audit found that VETS lacked adequate controls to ensure HVRP

           effectively met the employment needs of homeless veterans.”





                                                              Semiannual Report to Congress: April 1- September 30, 2010   37
Labor Racketeering




             Semiannual Report to Congress, Volume 62
                                          Labor Racketeering
                                                           g

    The OIG at DOL has a unique programmatic responsibility to investigate labor racketeering and/or organized crime
  inﬂuence involving unions, employee beneﬁt plans, or labor-management relations. The Inspector General Act of 1978
  transferred responsibility for labor racketeering and organized crime-related investigations from the Department
  to the OIG. In doing so, Congress recognized the need to place the labor racketeering investigative function in an
  independent law enforcement oﬃce free from political interference and competing priorities. Since the 1978 passage
  of the Inspector General Act, OIG special agents, working in association with the Department of Justice’s Organized
  Crime and Racketeering Section and various U.S. Attorneys’ Oﬃces, have conducted criminal investigations to combat
  labor racketeering in all its forms.


Traditional Organized Crime: Traditionally, organized crime groups have been involved in beneﬁt plan fraud, violence
against union members, embezzlement, and extortion. Our investigations continue to identify complex ﬁnancial and
investment schemes used to defraud beneﬁt fund assets, resulting in millions of dollars in losses to plan participants.
The schemes include embezzlement or other sophisticated methods, such as fraudulent loans or excessive fees paid to
corrupt union and beneﬁt plan service providers. OIG investigations have demonstrated that abuses by service providers
are particularly egregious due to their potential for large dollar losses and because they often aﬀect several plans at the
same time. The OIG is committed to safeguarding American workers from being victimized through labor racketeering
and/or organized crime schemes.

Nontraditional Organized Crime: Our current investigations are documenting an evolution of labor racketeering and/or
organized crime corruption. We are ﬁnding that nontraditional organized criminal groups are engaging in racketeering
and other crimes against workers in both union and nonunion environments. Moreover, they are exploiting DOL’s foreign
labor certiﬁcation and Unemployment Insurance (UI) programs.

Impact of Labor Racketeering on the Public: Labor racketeering activities carried out by organized crime groups aﬀect
the general public in many ways. Because organized crime’s exercise of market power is usually concealed from public
view, millions of consumers unknowingly pay what amounts to a tax or surcharge on a wide range of goods and services.
In addition, by controlling a key union local, an organized crime group can control the pricing in an entire industry.

The following cases are illustrative of our work in helping to eradicate both traditional and nontraditional labor racketeering
in the nation’s labor unions, employee beneﬁt plans, and workplaces.




40     Semiannual Report to Congress: April 1- September 30, 2010
                                               Labor Racketeering


           Internal Union Corruption Investigations

    Our internal union investigation cases involve instances of corruption, including oﬃcers who abuse their positions
  of authority in labor organizations to embezzle money from union and member beneﬁt plan accounts and defraud
  hard-working members of their right to honest services. Investigations in this area also focus on situations in which
  organized crime groups control or inﬂuence a labor organization, frequently to inﬂuence an industry for corrupt
  purposes or to operate traditional vice schemes. Following are examples of our work in this area.



Former Locomotive Engineers’ Union                             Ex-Union Business Manager Convicted of
President Sentenced for Bribery                                Embezzling $85,000

Edward Rodzwicz, former national president of the              Shawn Clark, a former business agent for the New Jersey
Brotherhood of Locomotive Engineers and Trainmen (BLET)        Regional Council of Carpenters (NJRCC) and the de facto
and former president of the International Brotherhood of       business manager and member of the NJRCC Local Union
Teamsters (IBT) Rail Division, was sentenced on September      455, was convicted on May 17, 2010, of embezzling
7, 2010, to 18 months’ incarceration and 18 months’            approximately $85,000 in funds from Local 455. Clark
supervised release. He pled guilty in March 2010 to bribery    was the sole holder of a credit card which was issued to
in connection with a Federally funded program and to           Local 455 and was to be used solely for the business and
interstate travel to carry out unlawful activity. Rodzwicz     beneﬁt of the union and its members. Between December
resigned from his union positions after being suspended        2000 and December 2007, he made over 450 separate
by the BLET Executive Board. BLET, a division of the IBT, is   charges totaling $65,000 at 14 diﬀerent gentlemen’s clubs
a national labor union with more than 55,000 members           in New Jersey. Clark also improperly used the union’s credit
consisting of railroad employees throughout the United         card at various other restaurants and bars in New Jersey
States.                                                        without conducting legitimate union business. Additionally,
                                                               he used the union’s credit card to make hundreds of
Rodzwicz solicited a bribe of two $10,000 payments from        illegitimate purchases totaling approximately $18,000 at
an attorney who ostensibly committed a violation of            an oﬃce supply store and at the U.S. Post Oﬃce.
BLET’s Designated Legal Counsel (DLC) program rules and
was subject to termination from the program. Rodzwicz          This is a joint investigation with Oﬃce of Labor-Management
solicited the bribe from the attorney in exchange for          Standards (OLMS). United States v. Shawn Clark (D. New
Rodzwicz’s assurances that the attorney would retain his       Jersey)
status as a DLC. DLC attorneys represent BLET members in
Federal Employers’ Liability Act injury cases.

United States v. Edward Rodzwicz (E.D. Missouri)




                                                                 Semiannual Report to Congress: April 1- September 30, 2010   41
                                                    Labor Racketeering

Union Timekeepers Convicted at Trial                                at the Port of Baltimore working as a timekeeper during
of Wire Fraud Conspiracy in Scheme to                               a particular shift when in fact the co-defendant was
                                                                    elsewhere.
Defraud Employer
                                                                    United States v. William R. Zichos, Jr., et al. (D. Maryland)
William Zichos, Jr., Dale Kowalewski, and Joseph Bell
were convicted by a Federal jury on September 30,                   Union President and Secretary Treasurer
2010, of wire fraud and conspiracy to commit wire fraud
                                                                    Charged in Alleged Embezzlement
in a scheme to defraud their employer, Ports America
                                                                    Scheme
Baltimore, the stevedore and terminal operator at the
Port of Baltimore.
                                                                    The president of the Novelty & Production Workers
                                                                    Union, Local 148, and Local 148’s secretary treasurer,
Zichos, Kowalewski, and Bell were employed by Ports
                                                                    were both charged on August 31, 2010, with embezzling
America as timekeepers with International Longshoremen’s
                                                                    approximately $375,000. The secretary treasurer, who is
Association (ILA) Local 953, the Baltimore ILA local union
                                                                    also the administrator of Local 148’s Welfare Fund, was
representing members employed as steamship clerks,
                                                                    also charged with embezzling approximately $62,000 from
checkers, weighers, and timekeepers at the Port of
                                                                    the Welfare Fund.
Baltimore. In their capacity as ILA union timekeepers,
and pursuant to a Collective Bargaining Agreement (CBA)
                                                                    It is alleged that, from July 2005 through August 2010,
between the union and Ports America Baltimore, the
                                                                    the defendants gave themselves salary increases and
defendants were required to take attendance of all ILA
                                                                    bonuses which they misrepresented and concealed from
union longshoremen assigned to work particular shifts and
                                                                    the Local 148 members and the executive board. The
record the amount of straight and overtime hours those
                                                                    secretary treasurer allegedly falsiﬁed the minutes of the
longshoremen worked to unload and load cargo vessels
                                                                    union’s executive board and general membership meetings,
berthed at the Port of Baltimore. The CBA further required
                                                                    creating the illusion that the salary increases and bonuses
Ports America Baltimore to allow the defendants, as union
                                                                    had been fully presented to, and considered, and approved
timekeepers, to record their own attendance, complete
                                                                    by the executive board and the members. It is further
their own daily timesheets, and enter their own electronic
                                                                    alleged that the defendants engaged in a conspiracy in
payroll data for the shifts they were assigned to work.
                                                                    which personal expenses incurred by the president on
                                                                    the Local 148 credit card, which did not beneﬁt the union,
Through the defendants’ scheme, Ports America paid
                                                                    were paid for by the union. The indictment also alleges
wages and fringe benefit contributions into the ILA
                                                                    that, from December 2007 through the present, the
employee beneﬁt plans for hours the defendants did not
                                                                    secretary treasurer, in his capacity as fund administrator,
work. The defendants were compensated for work at the
                                                                    received salary increases and bonuses from the Welfare
Port of Baltimore; when in fact, they were on personal
                                                                    Fund without authorization from the Board of Trustees and
travel domestically and internationally. From October 2004
                                                                    contrary to his duties as a plan ﬁduciary.
to February 2008, Zichos, Kowalewski, and Bell certiﬁed
to Ports America and the Steamship Trade Association of
                                                                    This was a joint investigation with OLMS.
Baltimore that one of the co-defendants was present




42     Semiannual Report to Congress: April 1- September 30, 2010
                                               Labor Racketeering

                            Benefit Plan Investigations
                                                g
    The OIG is responsible for combating corruption involving the monies in union-sponsored employee beneﬁt plans.
  Those pension plans and health and welfare beneﬁt plans comprise hundreds of billions of dollars in assets. Our
  investigations have shown that the assets remain vulnerable to labor racketeering schemes and/or organized crime
  inﬂuence. Beneﬁt plan service providers, including accountants, actuaries, attorneys, contract administrators,
  investment advisors, insurance brokers, and medical providers, as well as corrupt plan oﬃcials and trustees, continue
  to be a strong focus of OIG investigations.



Investment Adviser Sentenced to Nine                           and beneﬁt, resulting in losses totaling approximately
Years in Prison; $26 Million in Restitution                    $24 million. Orecchio used the embezzled funds to:
                                                               purchase and renovate a Michigan area horse farm,
Ordered for Embezzling from Union
                                                               renovate a Detroit strip club, purchase and renovate other
Pension Funds
                                                               homes, purchase jewelry and luxury automobiles, ﬁnance
                                                               millions of dollars of extravagant travel, and purchase
John Orecchio, an investment adviser, was sentenced
                                                               entertainment unrelated to any legitimate business
on June 17, 2010, to nine years and four months in
                                                               activities of AA Capital.
prison followed by three years of supervised release and
restitution of $26,411,414. Orecchio pled guilty in February
                                                               This was a joint investigation with EBSA and FBI. United
2010 to charges of wire fraud and embezzlement from an
                                                               States v. John A. Orecchio (N.D. Illinois)
employee beneﬁt plan.

Between February 2002 and September 2006, Orecchio             Cardiologist Sentenced to Five Years in
was the president and co-owner of AA Capital Partners,         Prison and $13 Million in Restitution for
Inc., a Chicago-based company that invested union
                                                               Health Care Fraud Scheme
pension funds, which are principally located in Michigan.
Orecchio, on behalf of AA Capital, entered into investment
                                                               Dr. Sushil Sheth, an Illinois cardiologist, was sentenced
management agreements with a number of union pension
                                                               on August 10, 2010, to ﬁve years in prison, two years’
funds, pursuant to which the union pension funds placed
                                                               supervised release, and restitution of $13,122,348 for his
approximately $169 million with AA Capital.
                                                               role in a fraudulent health care reimbursement scheme.
                                                               The government seized property and funds totaling more
Orecchio caused AA Capital to make “capital calls” (legal
                                                               than $11.3 million from Dr. Sheth; all of which will be
right of an investment firm to demand a portion of
                                                               forfeited and applied to the court-ordered restitution.
the money promised to it by the investor) on accounts
                                                               Dr. Sheth pled guilty in August 2009 to charges of health
containing the union pension funds, knowing that some
                                                               care fraud.
of the funds that he was causing to be withdrawn were
not going to be directed toward investments, legitimate
                                                               Between 2002 and 2007, Dr. Sheth received approximately
management fees, or overhead expenses attributable to
                                                               $13.4 million in fraudulent reimbursements from Medicare
the pension plan investors. Rather, Orecchio converted the
                                                               and other health care insurers, as well as several ERISA-
proceeds of some of the capital calls for his own use

                                                                 Semiannual Report to Congress: April 1- September 30, 2010   43
                                                    Labor Racketeering

covered union health and welfare funds, for cardiac care            In addition, James stole a portion of the union-negotiated
that was not performed. He used the illicit proceeds for            disability benefit from a disabled UAW member. He
his own beneﬁt, including a lavish lifestyle complete with          befriended the union member and requested the disability
the purchase of a suburban Chicago mansion, property in             funds for investment. When James’ scheme became public
Arizona, luxury automobiles, and various venture capital            knowledge, he made admissions to some of the investors,
investments. Dr. Sheth used his hospital privileges to              including the union member, that he (James) did not make
access and obtained information about patients without              the agreed upon investments. Other retired UAW members
their knowledge or consent. He hired individuals to bill            were also defrauded by James.
Medicare and other insurance providers for medical
services that he purportedly rendered to patients, but              This is a joint investigation with EBSA and FBI. United States
whom he never treated. After waiting nearly a year after            v. Anthony A. James (E.D. Michigan)
the treatment was provided, Dr. Sheth often submitted
false claims that he provided the highest level of cardiac          President and Vice President of
care – treatment in an intensive care unit – on multiple            Demolition Company Sentenced for
days during the patients’ hospital stays.                           Multiple Fraud Schemes

This was a joint investigation with EBSA, FBI, HHS-OIG, and         William Holley, president of Holley Enterprises, Inc. (HEI),
OPM-OIG. United States v. Sushil Sheth (N.D. Illinois)              a Delaware-based demolition company, was sentenced on
                                                                    August 26, 2010, to 48 months’ imprisonment, 36 months’
Ponzi Scheme Conviction Results in                                  supervised release, and restitution of $684,218 for his
Thirteen-and-a-Half Year Prison Sentence                            role in various fraud schemes designed to avoid payment
and $2.7 Million in Restitution                                     of funds that were legally owed to the U.S. government,
                                                                    HEI employees, and the union beneﬁt plans of Laborers
Anthony James, the owner and president of James Asset               International Union of North America (LIUNA) Local Union
Advisory, LLC, was sentenced on September 9, 2010, as a             332. Joseph Funk, Jr., HEI’s vice president, was sentenced
result of his conviction in April 2010 for operating a Ponzi        on September 23, 2010, to 36 months’ imprisonment,
scheme and for stealing investor and beneﬁt plan assets,            36 months’ supervised release, and restitution of $422,411
including beneﬁts derived by individuals from United                for his role in the scheme.
Auto Workers (UAW) negotiated contracts. James was
sentenced to 13 years and 6 months in prison, restitution           Holley and Funk were both convicted in March 2010 of
of $2,667,762, and ﬁve years’ supervised release.                   conspiracy to defraud the United States and conspiracy
                                                                    to commit wire fraud. Funk was separately convicted of
James made wire transfers for his clients’ investments, but         ERISA fraud, and Holley was separately convicted of tax-
failed to make investments into previously agreed upon              related charges.
investment vehicles (mutual funds, stocks, bonds, etc).
He would utilize the funds from newer investors to pay              From 2004 through May 2007, Holley and Funk engaged
oﬀ older investors, and also used new investment funds              in a number of fraudulent schemes related to their cash
to fund his personal lifestyle. James annually provided             payroll. Through their schemes, the men were able to retain
investors with falsiﬁed account statements.                         payroll




44     Semiannual Report to Congress: April 1- September 30, 2010
                                               Labor Racketeering

taxes that should have been paid to the IRS; wages that they   The Culinary Fund, which provides medical insurance
were obligated to pay to their workers pursuant to state       services to at least 50,000 participants in the hospitality
law; and contributions that they were obligated to pay to      industry in the Las Vegas area, was billed approximately
employee beneﬁt funds on behalf of their union-aﬃliated        $4.9 million for “out of country” claims for the time period
employees. Their conduct gave them an unfair advantage         of approximately January 2002 through February 2006.
over legitimate contractors and allowed them to pay less       These claims were almost entirely from Mexico, with the
in wages, taxes, and beneﬁt plan contributions. Holley and     majority of those claims for emergency procedures. The
Funk attempted to conceal this conduct by creating false       Culinary Fund paid more than $3 million on the claims.
documentation and submitting the documents to private
businesses, government agencies, employee beneﬁt plans,        This is a joint investigation with the USPIS and FBI. United
and other entities.                                            States v. Rebeca Acosta, et al. (D. Nevada)

This was a joint investigation with IRS-CI and FBI. United
                                                               Former Union Officer Sentenced for
States v. William C. Holley and United States v. Joseph E.     Embezzling More Than $380,000 in
Funk, Jr. (D. Delaware)                                        Union and Benefit Plan Funds

Physician Sentenced for Defrauding                             Paul Peters II, the former president and plan administrator
Culinary Union’s Health Care Insurance                         of the Waterfront Guard Association Local 1852 (WGA),
Program                                                        was sentenced April 30, 2010, to 30 months in prison, three
                                                               years’ supervised release, and restitution of $320,000 for
Dr. Ana Acosta was sentenced on May 27, 2010, to 30            his role in an embezzlement scheme. Peters pled guilty in
months in prison, three years of supervised release, and       July 2009 to embezzlement from a labor union and from
ordered to pay $959,735 in criminal restitution for her role   union-sponsored employee welfare and pension plans.
in a scheme to defraud the Las Vegas Hotel and Restaurant      As a result of his conviction, Peters was also debarred,
Employees International Union Welfare Fund (Culinary           prohibiting him from acting in any oﬃcial capacity or
Fund). Dr. Acosta pled guilty to violations of health care     exercising discretionary control of the assets of any labor
fraud in February 2010.                                        organization or employee beneﬁt plan for a period of
                                                               13 years.
Dr. Acosta and others devised a scheme to defraud the
Culinary Fund by submitting claims for unauthorized            From 2002 through 2005, more than $380,000 was
cosmetic surgeries performed on union members in               embezzled from the WGA plans and transferred into the
Tijuana, Mexico. Dr. Acosta and her co-conspirators met        union operating account. During this period, Peters and
with prospective patients for the purpose of conducting        Brian Armentrout, WGA’s former recording secretary,
cosmetic surgery consultations. The prospective patients       received improper personal disbursements through checks
were told that, even though cosmetic procedures were not       written to themselves from the WGA union operating
covered by the Culinary Fund, the defendants would bill        account using the embezzled WGA plan assets, which
the Culinary Fund for the cosmetic procedure by making         served as the funding mechanism for the disbursements.
it appear as if the patient had suﬀered an unexpected          Peters made misrepresentations about why the money was
injury in Mexico and had received emergency medical            being paid by listing the checks and other documents
treatment.



                                                                Semiannual Report to Congress: April 1- September 30, 2010   45
                                                    Labor Racketeering

as being for various purposes, such as operating expenses,          Founder and Treasurer of Labor Union
reimbursement of pensioners’ medical payments, and                  Charged with Mail Fraud
salaries for plan administration.The embezzled funds were
converted and used to purchase, among other things, a               The founder and treasurer of the National Association
Ford Mustang convertible and a Ford Expedition, home                of Special Police and Security Officers (NASPSO) was
improvements, stock transactions, home mortgage                     charged on June 25, 2010, with mail fraud in connection
payments, and boarding costs for horses. Armentrout was             with his operation of a pension plan for members of
sentenced in October 2009 for his role in the scheme.               NASPSO. NASPSO is a labor union representing private
                                                                    security guards assigned to protect Federal buildings in
This was a joint investigation with EBSA. United States v.          the Washington, DC, metropolitan area.
Paul S. Peters, II (D. Maryland)

L ouisiana Woman Charged with                                       The indictment alleges that, from approximately June 2004
Embezzling $491,000 in Union Training                               through August 2006, the defendant wrote numerous
Funds                                                               checks to himself, or to other third parties, from the
                                                                    NASPSO checking account where he had placed funds
The administrative assistant for the South Central Laborers         intended for the NASPSO pension plan. The defendant
Training and Apprenticeship Fund (SCLTAF) was indicted              purportedly spent more than $100,000 of the pension plan
on August 26, 2010, and charged with wire fraud and                 funds while falsely maintaining that the checking account
embezzlement from an employee beneﬁt plan. SCLTAF                   was an operational fund that he was administering and
is a welfare plan arrangement and is funded by various              using to provide beneﬁts to the union beneﬁciaries.
union contractors throughout the states of Texas,
Louisiana, Arkansas, Mississippi, and Oklahoma. The                 This is a joint investigation with EBSA.
funds contributed to the SCLTAF are for the exclusive use
of training, educating, retraining, or refresher training           Florida Pastor Pleads Guilty to Embezzling
of employees and others in the skills and jobs which are            more than $800,000 from Health and
beneﬁcial to the construction industry.
                                                                    Welfare Fund
The defendant’s responsibilities included maintaining the
                                                                    Gregory Sims, the owner and pastor of The Crossroads
books and records of SCLTAF’s bank account and credit card
account, monitoring such accounts, and paying appropriate           of Dade City (CDC) church and fund manager of the
SCLTAF-related expenses that had been properly charged              International Brotherhood of Electrical Workers (IBEW)
to the SCLTAF credit card account by the SCLTAF oﬃcers              Local Union 915 Health and Welfare fund, pled guilty on
and employees. The defendant was issued a credit card               September 27, 2010, to embezzling $813,143 from the
to conduct SCLTAF’s business. It is alleged that, beginning         fund.
in December 2004 and continuing through October 2008,
the defendant embezzled approximately $491,000 from                 In his role as fund manager, Sims was responsible for
SCLTAF through misuse of the credit card by making                  the fund account reconciliation, check issuance, and the
unauthorized personal purchases.                                    preparation of ﬁnancial statements. His responsibilities
                                                                    included the utilization of the fund’s computer software
This is a joint investigation with EBSA, the Pointe Coupee          to issue checks for the fund. Sims used his position as fund
Parish (Louisiana) Sheriﬀ ’s Oﬃce, and the West Baton
                                                                    manager to issue checks payable to CDC—all of which were
Rouge Parish (Louisiana) Sheriﬀ ’s Oﬃce.


46     Semiannual Report to Congress: April 1- September 30, 2010
                                               Labor Racketeering

unsupported by proper documentation and which were
not for the beneﬁt of the fund.

This is a joint investigation with EBSA. United States v.
Gregory Sims (M.D. Florida)

Former Mayor of Niagara Falls Pleads
Guilty to Submitting False Documents to
a Pension Plan

Vincenzo Anello, the former mayor of Niagara Falls, NY, pled
guilty on September 2, 2010, to making a false statement
on a document submitted to an employee pension plan.
Anello, a member of the IBEW Local 237 for 41 years,
retired in April 2004 and began collecting his pension
beneﬁts from IBEW Local 237. He also owned Anello
Electric, a union electrical contracting business located in
Niagara Falls. In early 2008, after completing his term as
mayor, Anello continued to operate Anello Electric, which
required him to submit weekly Fund Transmittal Reports
to report to the union the number of hours worked by his
employees, including himself. From 2008 through 2010,
he submitted false transmittals to Local 237 in which he
underreported the hours that he worked as an electrician,
thereby allowing him to continue to collect his pension
beneﬁts from the Local 237 Pension Fund. Anello’s pension
beneﬁts would have been suspended had he reported that
he worked for more than 40 hours per month.

This is a joint investigation with FBI. United States v.
Vincenzo Anello (W.D. New York)




                                                               Semiannual Report to Congress: April 1- September 30, 2010   47
                                                     Labor Racketeering


                     Labor-Management
                               g      Investigations
                                             g
    Labor-management relations cases involve corrupt relationships between management and union oﬃcials. Typical
  labor-management cases range from collusion between representatives of management and corrupt union oﬃcials
  to the use of the threat of “labor problems” to extort money or other beneﬁts from employers.



Two Sentenced and Nine Plead Guilty in                               workers and nonunion workers, and avoid payment to
Carpenters Union Corruption Case                                     the union beneﬁt funds in violation of applicable CBAs.
                                                                     The defendants purportedly helped the contractors to
Between April 2010 and September 2010, guilty pleas                  conceal the scheme by: ﬁling false shop steward reports,
were entered by nine of 11 defendants indicted for their             giving the contractors advance notice of jobsite visits
alleged roles in a scheme by which oﬃcials of the United             by Carpenters Union investigators, issuing union cards
Brotherhood of Carpenters and Joiners, in return for                 to the undocumented workers who labored for those
bribes, allowed construction contractors to avoid full               contractors for cash, giving false testimony, and destroying
payment of union wages and beneﬁts at various jobsites               documents.
in New York City. Two of the individuals charged in the
indictment are associated with the Genovese and Luchese              Since 1994, the Carpenters Union and its constituent
La Cosa Nostra (LCN) Organized Crime Families. Those                 locals and District Council have been bound by a Federal
entering guilty pleas included Michael Forde, the former             consent decree stemming from a civil case brought by
executive secretary treasurer of the New York City District          the U.S. Government under the RICO Act to address a
Council of Carpenters (NYCDCC) and John Greaney, former              history of union corruption and organized crime inﬂuence
president and business manager of Carpenters Local 608.              within the District Council. As a result of the indictments,
Additional racketeering charges were ﬁled against the                the International United Brotherhood of Carpenters and
director of the Association of Wall-Ceiling and Carpentry            Joiners of America placed the NYCDCC under emergency
Industries and a construction manager for Touro College.             trusteeship and also removed NYCDCC’s executive secretary
Two of the 11 defendants received sentences ranging from             treasurer, as well as the president/business manager, and
5 years’ supervised release to 19 months’ incarceration              the business agent of the largest local in the council.
and forfeiture totaling $120,000.
                                                                     This is a joint investigation with FBI, IRS, and SSA-OIG.
In the alleged scheme, union oﬃcials accepted bribes in              United States v. Michael Forde, et al. (S.D. New York)
exchange for allowing contractors to violate the Collective
                                                                     Former Union President Pleads Guilty to
Bargaining Agreements (CBA), thereby facilitating
                                                                     Receiving Kickbacks and Embezzlement
embezzlement of ERISA-covered funds. In exchange for
the bribes, the defendants allegedly allowed and helped
                                                                     Dennis Giblin, the former president of the International
certain contractors to defraud the Carpenters Union and
                                                                     Union of Operating Engineers Local 68 and fund
its beneﬁt funds out of millions of dollars by permitting the
                                                                     administrator of the Local 68 Education Fund, pled guilty
contractors to pay union members cash at below-union
                                                                     August 9, 2010, to charges that he used his position to
rates, work without beneﬁts, employ undocumented


48      Semiannual Report to Congress: April 1- September 30, 2010
                                               Labor Racketeering

receive kickbacks because of, and with intent to, inﬂuence      Former Union Official Pleads Guilty and
his actions relating to an employee beneﬁt plan. Giblin also    Two Inspectors Sentenced in Extortion
pled guilty to embezzlement from an employee beneﬁt
                                                                Scheme
plan.

                                                                Warren Annunziata, a former oﬃcial of Local 91 of the
As administrator of the Local 68 Education Fund,
                                                                United Craft and Industrial Workers’ Union, pled guilty on
which provided occupational training and educational
                                                                July 29, 2010, to a charge of extortion. Geoﬀrey Berger, a
opportunities to Local 68’s members, Giblin was a ﬁduciary
                                                                former inspector with the New York City (NYC) Department
and was required under ERISA to act solely in the interests
                                                                of Education (DOE), was sentenced on June 22, 2010, to
of the participants and beneﬁciaries of the Education Fund.
                                                                48 months’ probation, $225,000 in restitution payable to
Around November 2004, Giblin, on behalf of the Education
                                                                the NYC-DOE, and $25,000 in forfeiture. Berger pled guilty
Fund, hired an audio-visual company to design and install
                                                                in April 2008 to extortion, conspiracy, and theft or bribery
electronic audio and visual systems at the Education Fund’s
                                                                concerning programs receiving Federal funds. Jeﬀrey
premises. For its services, Giblin caused the Education Fund
                                                                Dunat, also a former inspector with the NYC-DOE, was
to pay the audio-visual company over $315,000. He also
                                                                sentenced on September 20, 2010. Dunat, who previously
received free and discounted audio-visual materials and
                                                                pled guilty in April 2008 to extortion, conspiracy, and
components in August 2005. These items were installed
                                                                theft or bribery concerning programs receiving Federal
in his condominium by the audio-visual company free of
                                                                funds, was sentenced to 24 months’ probation, $140,000
charge, because of the work the company had received
                                                                in restitution payable to the NYC-DOE, and $110,000 in
from the Education Fund in the past. In total, Giblin
                                                                forfeiture.
received an improper gratuity in excess of $10,000 in free
and discounted items, and free labor.
                                                                Local 91 is a union that represents approximately 2,000
                                                                individuals, including bus drivers and bus escorts who work
This is a joint investigation with USPIS and EBSA. United
                                                                for companies that contract with the NYC-DOE to provide
States v. Dennis J. Giblin (D. New Jersey)
                                                                students with school bus transportation to public schools
Contractor Sentenced for Making Unlawful                        throughout New York City. Annunziata was previously the
                                                                president and executive director of Local 91, and was also
Payments to Union Officials
                                                                the union’s pension fund administrator, in which capacity
                                                                he oversaw pension and beneﬁt funds holding more than
Gerard Mulligan, an operator of a union drywall company,
                                                                $85 million in assets.
was sentenced on September 1, 2010, to six months’
incarceration followed by 36 months’ supervised release,
                                                                From approximately 1992 through 2009, Annunziata used
and a ﬁne of $5,000. Mulligan, who pled guilty in May 2010
                                                                his position as a high-ranking Local 91 oﬃcial to solicit and
to making unlawful payments to union oﬃcials, operated
                                                                collect cash payments totaling over $500,000 from various
Perimeter Interiors, Inc., a company that held a CBA with
                                                                bus company owners whose employees were members of
the United Brotherhood of Carpenters and Joiners (UBCJ).
                                                                Local 91. Annunziata received bribes from a number of bus
Mulligan paid a cash bribe to a business agent of Local 6 of
                                                                companies that contracted with the NYC-DOE.
the UBCJ in return for being permitted to violate the terms
of the CBA with the UBCJ by employing non-union workers
                                                                This is a joint investigation with FBI and OLMS. United
on his jobsites. This was a joint investigation with the FBI.
                                                                States v. Dunat, United States v. Berger, United States v.
United States v. Mulligan (S.D. New York)
                                                                Annunziata (S.D. New York)

                                                                 Semiannual Report to Congress: April 1- September 30, 2010   49
                                                    Labor Racketeering

Union Shop Steward Indicted for
Embezzlement, False Statements, and
Unlawful Payments to a Union Official

A former shop steward for a New York union trucking
company was indicted on July 21, 2010, on charges of
conspiracy to embezzle from an employee beneﬁt plan,
false statements in documents required by ERISA, and
unlawful payments to a union oﬃcial. The charges stem
from the defendant’s alleged involvement in a scheme to
defraud the IBT, Local 282 Beneﬁt Funds, by underreporting
truck drivers’ hours to the funds and for accepting illegal
payments from the trucking company in exchange for
falsifying the reports.

This is a joint investigation with the Department of
Transportation-OIG, IRS-CI, the Port Authority of New
York and New Jersey-OIG, and the Business Integrity
Commission.




50     Semiannual Report to Congress: April 1- September 30, 2010
        Labor Racketeering




Departmental Management




                             Semiannual Report to Congress, Volume 62
                                            Departmental Management

Recovery Act: Use of Departmental                                   Working Capital Fund Needs Central
Management Funds for Recovery Act                                   Point of Accountability to Ensure it Meets
Activities                                                          Legislative Intent

DOL funds received under the Recovery Act included                  We conducted a performance audit of the Department’s
$80 million for Departmental Management (DM) purposes.              Working Capital Fund (WCF) to determine if it operated
OASAM is responsible for the oversight and monitoring of            according to Federal law, guidelines, and DOL policies. It
DM funding, which can be used for oversight, enforcing              functions entirely from the fees charged to DOL agencies for
worker protection laws and regulations, and encouraging             the services it provides. The WCF is an intergovernmental
collaboration between the public workforce investment               revolving fund that is used to fund business-like activities. In
system and other agencies that receive Recovery Act                 FY 2008, WCF budgetary resources totaled $192.6 million.
funds for infrastructure projects. The Recovery Act                 The WCF is available without ﬁscal year limitation for the
required the Department to submit an operating plan to              operation of a comprehensive program of centralized
Congress explaining its planned use for the $80 million,            services as deemed appropriate and advantageous by the
and to obligate the funds by September 30, 2010, the date           Secretary of Labor. The WCF fund services and activities are
the funds expired. We conducted a performance audit                 paid for by means of reimbursement in advance from DOL
to determine if the Department had plans to properly                customer agencies to return the full cost of operations to
obligate these DM funds by September 30, 2010.                      the service providers.

Our audit found that the Department had obligated,                  Our audit found that the responsibility for maintaining and
or planned to obligate, only 76% ($61.2 million) of the             operating the WCF was shared between the Oﬃce of the
$80 million available for DM purposes. According to                 Chief Financial Oﬃcer (OCFO) and the OASAM. In addition,
Department oﬃcials, this occurred because the need for              a WCF Committee had a review role over WCF operations.
DM funds has been less than originally anticipated. Our             As a result of these shared responsibilities, WCF operations
review of the three operating plans that the Department             lacked a central point of accountability and oversight, and
submitted to Congress showed that it never anticipated              the need for detailed policies and procedures was not
obligating the entire $80 million in available DM funds.            recognized.
The ﬁrst operating plan, which was submitted in April
2009, reflected planned obligations of just under                   DOL policy was not sufficient to determine the
$76 million. Each of the two successive plans reﬂected              appropriateness and advantages of the WCF services and
further reductions in that amount — the most recent of              activities, to develop WCF budget estimates and allocate
which, in February 2010, showed planned obligations                 associated costs, and to determine what monitoring
of $66 million. (Report No. 18-10-011-07-001, issued                controls were needed over non-personnel costs to ensure
September 17, 2010)                                                 service providers properly charged them to the WCF.

                                                                    Speciﬁcally the OIG found that:

                                                                     •	     The CFO did not demonstrate that 16% of the
                                                                          services and activities ﬁnanced through the WCF were




52     Semiannual Report to Congress: April 1- September 30, 2010
                                       Departmental Management

     appropriate and advantageous to the Department          Alert Memos – New Core Financial
     as required by law.                                     Management System’s Impact on the
 • 	 The WCF budget process did not provide reasonable
                                                             Department’s FY 2010 Consolidated
     estimates of costs or anticipated collections from
                                                             Financial Statement Audit
     customer agencies, which negatively impacted
     the agencies’ ability to manage their appropriated
                                                             DOL’s financial reporting and mainframe accounting
     funds.
                                                             system, the Department of Labor Accounting and Related
 • 	 The Department did not always maintain suﬃcient
                                                             Systems (DOLAR$), was implemented in 1989 prior to
     information to support the appropriateness of
                                                             the modern-day laws and regulations that drive Federal
     its allocation methodology for charging costs to
                                                             accounting, ﬁnancial management, ﬁnancial reporting, and
     customer agencies.
                                                             information security. As a result, DOLAR$ was enhanced
 • 	 The CFO did not have monitoring controls in place
                                                             and extended numerous times to meet the Department’s
     to review non-personnel costs that service providers
                                                             internal and external reporting requirements; however,
     charged to the WCF.
                                                             the DOLAR$ antiquated technology did not allow
                                                             DOL to eﬃciently and eﬀectively meet its current and
Taken together, these conditions resulted in a lack of
                                                             future accounting/ﬁnancial needs. In July 2008, the
transparency to customer agencies regarding how the
                                                             Department awarded a contract for the development of the
WCF operated. We found that individual DOL agencies are
                                                             New Core Financial Management System (NCFMS). NCFMS
not conﬁdent that the WCF is being operated eﬀectively
                                                             was planned to be fully implemented and operational by
and eﬃciently, and that WCF services and activities are
                                                             mid-October 2009, but migration of data from DOLAR$ to
appropriate and advantageous. Without reliable WCF
                                                             NCFMS did not occur until January 2010.
budget estimates, customer agencies cannot eﬀectively
manage funds for their program activities. Finally, the
                                                             The OIG issued two alert and one status memoranda during
Department’s lack of monitoring of service provider costs
                                                             this period expressing concerns about NCFMS’s impact on
resulted in an overstatement of FY 2008 WCF costs by
                                                             the OIG’s ability to conduct an audit of the Department’s
$1.3 million.
                                                             FY 2010 consolidated ﬁnancial statements. In the Alert
                                                             Memorandum dated April 28, 2010, we highlighted
The OIG made nine recommendations to the OCFO
                                                             certain key deadlines that needed to be met by DOL to
related to revising DOL policy, clearly deﬁning roles and
                                                             allow OIG’s contractor (KPMG) suﬃcient time to complete
responsibilities, and establishing suﬃcient oversight of
                                                             the necessary audit procedures. The Department missed
the operation of the WCF. The OCFO concurred with the
                                                             the critical deadline of June 11, 2010, for delivering the
ﬁndings, except for the one calling for the Department to
                                                             second quarter ﬁnancial statements and NCFMS data
follow the Secretary’s policy guidance in managing the
                                                             extract of general ledger transactions. These items were
WCF. However, the OCFO stated that the Department is
                                                             subsequently provided on July 2, 2010; however, the audit
committed to reviewing the WCF management, including
                                                             contractor, KPMG, identiﬁed numerous issues with the
mechanisms to improve collaboration with DOL agencies
                                                             data. The third quarter ﬁnancial statements and data
and the WCF Committee. To that end, the Department was
                                                             extracts were provided early; however, the OCFO identiﬁed
ﬁnalizing a contract for an evaluation of DOL’s collection
                                                             numerous errors in this ﬁnancial statement data that
and expenditure of WCF assessments. (Report No. 03-10­
                                                             required adjustments that the OIG considered to be
002-13-001, issued September 28, 2010)



                                                              Semiannual Report to Congress: April 1- September 30, 2010   53
                                            Departmental Management

signiﬁcant. While the Department provided revised second
and third quarter data extracts of all general ledger data
on August 6, 2010, the activity for March 2010 was not
provided until August 9, 2010. KPMG was able to select
a sample of journal vouchers on July 21, 2010, but the
Department experienced signiﬁcant diﬃculty locating
suﬃcient supporting documentation.

The OIG recognized that NCFMS’s implementation
presented the Department with unprecedented challenges
and that DOL was working to address these challenges.
However, the Department is facing the likelihood that
KPMG will not be able to complete the audit and issue an
opinion by November 15, 2010, in accordance with the
OMB’s Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. This would result in
the issuance of a disclaimer of opinion on the ﬁnancial
statements, representing the ﬁrst time in 14 years that
DOL has not received an unqualiﬁed opinion on its ﬁnancial
statements. (Report No. 22-10-017-13-001, issued April
28, 2010; Report No. 22-10-018-13-001, issued June 23,
2010)




      “. . . the Department is facing the likelihood that KPMG will not be able
       to complete the audit and issue an opinion by November 15, 2010, in
       accordance with the OMB’s Bulletin No. 07-04, Audit Requirements
                   for Federal Financial Statements, as amended.”




54     Semiannual Report to Congress: April 1- September 30, 2010
                                         Departmental Management

                    Employee
                      p y Integrity
                              g y Investigations
                                         g
    The OIG is charged with the responsibility for conducting investigations into possible misconduct or criminal activities
  involving DOL employees or individuals providing services to the Department. The following cases are illustrative of
  our eﬀorts in this area.



DOL Employee Pled Guilty to Receiving                             Former Executive Resigned Over Charges
Supplementation of Government Salary                              of Inappropriate Activities

Shonda Brevard, a former Business and Industry Analyst            During this semiannual period, we completed an
for Job Corps, pled guilty on September 3, 2010, to willfully     investigation involving a career senior executive who
receiving supplementation of government salary from a             was found to have inaccurately reported his time and
contractor.                                                       attendance and exhibited inappropriate and abusive
                                                                  behavior, including sexually inappropriate comments
Brevard served as a Contracting Officer’s Technical               toward his staﬀ. The investigative results were referred to
Representative on several Job Corps contracts. One of             the department, and the executive subsequently resigned
her duties was to review invoices from private companies          in lieu of being terminated.
which contracted with Job Corps and process their
payments. Brevard, knowing that she would be the only
DOL employee who would review the contractors’ invoices
for reasonableness and payment, used her position for
personal gain. For almost two years, Brevard approved
fraudulently submitted invoices and assisted a contractor in
obtaining future contracts with DOL. Brevard received over
$230,000 in payments from the contractor. United States v.
Brevard (U.S. District Court for the District of Columbia)




                                                                    Semiannual Report to Congress: April 1- September 30, 2010   55
                                            Departmental Management

                                                  Single
                                                     g Audits
    OMB Circular A-133 provides audit requirements for state and local governments, colleges and universities, and
  non-proﬁt organizations receiving Federal awards. Under this Circular, covered entities that expend $500,000 or
  more a year in Federal awards are required to obtain an annual organization-wide audit that includes the auditor’s
  opinion on the entity’s ﬁnancial statements and compliance with Federal award requirements. Non-Federal auditors,
  such as public accounting ﬁrms and state auditors, conduct these single audits. The OIG reviews the resulting audit
  reports for ﬁndings and questioned costs related to DOL awards, and to ensure that the reports comply with the
  requirements of OMB Circular A-133.




Single Audits Identify Material Weaknesses                          During the period, we conducted quality control reviews
and Significant Deficiencies in 26 of 105                           of auditors’ reports and supporting audit documentation
                                                                    for four of the twenty recipients. The purpose of the
Reports
                                                                    reviews was to determine whether (1) the audits were
                                                                    conducted in accordance with applicable standards and
We reviewed 105 single audit reports this period, covering
                                                                    met the single audit requirements, (2) any follow-up audit
DOL expenditures of more than $79 billion during audit
                                                                    work was needed, and (3) there were any issues that may
years 2007 through 2010. These expenditures included
                                                                    require management’s attention. For the three of the
$7.6 billion related to Recovery Act funding. The non-
                                                                    four recipients, the audit work performed was generally
Federal and state auditors issued 46 qualiﬁed or adverse
                                                                    not acceptable and did not meet the requirements of the
opinions on awardees’ compliance with Federal grant
                                                                    Single Audit Act or OMB Circular A-133. We found that the
requirements, on their ﬁnancial statements, or both. In
                                                                    auditors were not properly:
particular, the auditors identiﬁed 189 ﬁndings and more
than $3.6 million in questioned costs in 26 of the 105
                                                                    •   documenting audit testing,
reports reviewed as material weaknesses or signiﬁcant
                                                                    •   documenting and assessing internal controls,
deficiencies, indicating serious concerns about the
                                                                    •   reporting on Federal expenditures, and
auditees’ abilities to manage DOL funds and comply with
                                                                    •   assessing the application of accounting standards.
the requirements of major grant programs. We reported
these 189 ﬁndings and 238 related recommendations to
                                                                    Additional work was required to bring the audits into
DOL managers for corrective action. Not correcting these
                                                                    compliance with the requirements of the Single Audit
deﬁciencies could lead to future violations and improper
                                                                    Act.
charges.

In addition, recipients expending more than $50 million
a year in Federal awards are assigned a cognizant Federal
agency for audit, and the cognizant agency is responsible
for conducting or obtaining quality control reviews of
selected A-133 audits. In FY 2010, DOL was the cognizant
agency for 20 recipients.


56     Semiannual Report to Congress: April 1- September 30, 2010
Legislative Recommendations




                 Semiannual Report to Congress, Volume 62
                           Legislative
                             g         Recommendations
    The Inspector General Act requires the OIG to review existing or proposed legislation and regulations and make
  recommendations in the Semiannual Report concerning their impact on the economy and eﬃciency of the Department’s
  programs, and on the prevention of fraud and abuse. The OIG’s legislative recommendations have remained
  markedly unchanged over the last several Semiannual Reports, and the OIG continues to believe that the following
  legislative actions are necessary to promote increased eﬃciency in and protection of the Department’s programs
  and mission.



Allow DOL Access to Wage Records                                    Amend Pension Protection Laws

To reduce overpayments in employee beneﬁt programs,                 Legislative changes to ERISA and criminal penalties for
including UI, FECA, and DUA, the Department and the                 ERISA violations would enhance the protection of assets
OIG need legislative authority to easily and expeditiously          in pension plans. To this end, the OIG recommends the
access state UI wage records, SSA wage records, and                 following: Expand the authority of EBSA to correct
employment information from the National Directory of               substandard beneﬁt plan audits and ensure that auditors
New Hires (NDNH), which is maintained by the Department             with poor records do not perform additional plan audits.
of Health and Human Services.                                       Changes should include providing EBSA with greater
                                                                    enforcement authority over registration, suspension, and
By cross-matching UI claims against this new-hire data,             debarment, and the ability to levy civil penalties against
states can better detect overpayments to UI claimants               employee beneﬁt plan auditors. The ability to correct
who have gone back to work but who continue to collect              substandard audits and take action against auditors
UI beneﬁts. However, this law (42 U.S.C. 653 (i)) does              is important because beneﬁt plan audits help protect
not provide DOL nor the OIG with access to the NDNH.                participants and beneﬁciaries by ensuring the proper value
To make the new-hire data even more useful for this                 of plan assets and computation of beneﬁts.
purpose, legislative action is needed requiring that
employers report a new hire’s ﬁrst day of earnings and              Repeal ERISA’s limited-scope audit exemption. This
provide a clear, consistent, nationwide deﬁnition for this          provision excludes pension plan assets invested in banks,
date. Moreover, access to SSA and UI data would allow               savings and loans, insurance companies, and the like
the Department to measure the long-term impact of                   from audits of employee beneﬁt plans. The limited scope
employment and training services on job retention and               prevents independent public accountants who are auditing
earnings. Outcome information of this type for program              pension plans from rendering an opinion on the plans’
participants is otherwise diﬃcult to obtain.                        ﬁnancial statements in accordance with professional
                                                                    auditing standards. These “no opinion” audits provide no
                                                                    substantive assurance of asset integrity to plan participants
                                                                    or the Department.




58     Semiannual Report to Congress: April 1- September 30, 2010
                                      Legislative Recommendations

Require direct reporting of ERISA violations to DOL. Under     process is heightened by the results of OIG analysis and
current law, a pension plan auditor who ﬁnds a potential       investigations that show the program is susceptible to
ERISA violation is responsible for reporting it to the plan    signiﬁcant fraud and abuse, particularly by employers and
administrator, but not directly to DOL. To ensure that         attorneys.
improprieties are addressed, we recommend that plan
administrators or auditors be required to report potential
                                                               Enhance the WIA Program Through
ERISA violations directly to DOL. This would ensure the        Reauthorization
timely reporting of violations and would more actively
involve accountants in safeguarding pension assets,            The reauthorization of the WIA provides an opportunity to
providing a ﬁrst line of defense against the abuse of          revise WIA programs to better achieve their goals. Based
workers’ pension plans.                                        on our audit work, the OIG recommends the following:


Strengthen criminal penalties in Title 18 of the United        • 	 Improve state and local reporting of WIA obligations.
States Code. Three sections of Title 18 serve as the primary       A disagreement between ETA and the states about the
criminal enforcement tools for protecting pension plans            level of funds available to states drew attention to the
covered by ERISA. Embezzlement or theft from employee              way WIA obligations and expenditures are reported.
pension and welfare plans is prohibited by Section 664;            The OIG’s prior work in nine states and Puerto Rico
making false statements in documents required by ERISA is          showed that obligations provide a more useful
prohibited by Section 1027; and giving or accepting bribes         measure for assessing states’ WIA funding status if
related to the operation of ERISA-covered plans is outlawed        obligations accurately reﬂect legally committed funds
by Section 1954. Sections 664 and 1027 subject violators           and are consistently reported.
up to 5 years’ imprisonment, while Section 1954 calls for
up to 3 years’ imprisonment. We believe that raising the       • 	 Modify WIA to encourage the participation of training
maximum penalties to 10 years for all three violations             providers. WIA participants use individual training
would serve as a greater deterrent and would further               accounts to obtain services from approved eligible
protect employee pension plans.                                    training providers. However, performance reporting
                                                                   and eligibility requirements for training providers have
Provide Authority to Ensure the Integrity of                       made some potential providers unwilling to serve WIA
the Foreign Labor Certification Process                            participants.


If DOL is to have a meaningful role in the H-1B specialty      • 	 Support amendments to resolve uncertainty about
occupations foreign labor certiﬁcation process, it must            the release of WIA participants’ personally identifying
have the statutory authority to ensure the integrity of            information for WIA reporting purposes. Some training
that process, including the ability to verify the accuracy         providers are hesitant to disclose participant data to
of information provided on labor condition applications.           states for fear of violating the Family Education Rights
Currently, DOL is statutorily required to certify such             and Privacy Act.
applications unless it determines them to be “incomplete or
obviously inaccurate.” Our concern with the Department’s
limited ability to ensure the integrity of the certiﬁcation




                                                                Semiannual Report to Congress: April 1- September 30, 2010   59
                                          Legislative Recommendations

• 	 Strengthen incumbent worker guidance to states.                 shall take whatever action he deems appropriate to protect
    Currently, no Federal criteria deﬁne how long an                the life of any person. Under Section 103(k) the Act states
    employer must be in business or an employee must                that an authorized representative of the Secretary, when
    be employed to qualify as an incumbent worker, and              present, may issue such orders as he deems appropriate to
    no Federal deﬁnition of “eligible individual” exists for        insure the safety of any person in the coal or other mine.
    incumbent worker training. Consequently, a state could
    decide that any employer or employee can qualify for            The primary purpose of the Mine Act is to give the Secretary
    a WIA-funded incumbent worker program.                          the authority to take appropriate action, to include
                                                                    ordering a mine closure, to protect lives. As such, the OIG
Improve the Integrity of the FECA                                   recommends a technical review of the existing language
Program                                                             under Section 103 (k) to ensure that MSHA’s long-standing
                                                                    and critically important authority to take whatever actions
The OIG continues to support reforms to improve the                 may be necessary, including issuing verbal mine closure
integrity of the FECA program. Implementing the following           orders, to protect miner health and safety, is clear and not
changes would result in signiﬁcant savings for the Federal          vulnerable to challenge.
government:

• 	 Move claimants into a form of retirement after a certain
    age if they are still injured.
• 	 Return a 3-day waiting period to the beginning of
    the 45-day continuation-of-pay process to require
    employees to use accrued sick leave or leave without
    pay before their beneﬁts begin.
• 	 Grant authority to DOL to directly and routinely access
    Social Security wage records in order to identify
    claimants defrauding the program.

MSHA’s Authority to Issue Verbal Mine
Closure Orders

The Mine Safety and Health Act of 1977 (Mine Act) charges
the Secretary of Labor with protecting the lives and health
of workers in coal and other mines. To that end, the Mine
Act contains provisions authorizing the Secretary to issue
mine closure orders. Speciﬁcally, Section 103(j) states that
in the event of any accident occurring in a coal or other
mine, where rescue and recovery work is necessary, the
Secretary or an authorized representative of the Secretary




60     Semiannual Report to Congress: April 1- September 30, 2010
Appendices




        Semiannual Report to Congress, Volume 62
                                                              Appendix
     Index of Reporting Requirements Under the IG Act of 1978

GRG
REPORTING
R
REPOR                        REQUIREMENT                                                      PAGE


Section 4(a)(2)              Review of Legislation and Regulation                             58

Section 5(a)(1)              Signiﬁcant Problems, Abuses, and Deﬁciencies                     ALL

SSection 5(a)(2)
Section                      Recommendations with Respect to Signiﬁcant
                             Recommendations                  Signiﬁcant
                             Problems, Abuses, and Deﬁciencies
                                                   Deﬁciencies                                ALL
                                                                                              ALL

Section 5(a)(3)              Prior Signiﬁcant Recommendations on Which
                             Corrective Action Has Not Been Completed                         84

Section 5(a)(4)              Matters Referred to Prosecutive Authorities                      88

Section 5(a)(5) and          Summary of Instances Where Information Was Refused               NONE
Section 6(b)(2)

SSection 5(a)(6)
Section                      List of Audit Reports                                            78

Section 5(a)(7)              Summary of Signiﬁcant Reports                                    ALL

SSection 5(a)(8)
Section                      Statistical Tables on Management Decisions on Questi
                             Statistical                                         oned Costs
                                                                           Questioned         77

Section 5(a)(9)              Statistical Tables on Management Decisions on Recommendations
                             That Funds Be Put to Better Use                                  77

SSection 5(a)(10)
Section                      Summary of Each Audit Report over Six Months Old for
                             Which No Management Decision Has Been Made                       84

Section 5(a)(11)            Description and Explanation of Any Signiﬁcant
                            Revised Management Decision                                        NONE

Secti on 5(a)(12)
SSection                     Information on Any Signiﬁ
                             Information              cant Management Decisions
                                                Signiﬁcant
                             with Which the Inspector General Disagrees                       NONE

     Requirements Under the Reports Consolidation Act of 2000

 Section 3(d)               Top Management Challenges Facing the U.S. Department of Labor     68



     Requirement Under the Dodd-Frank Wall Street Reform Act of 2010

 Section 3(d)               Peer Review                                                        87




62      Semiannual Report to Congress: April 1- September 30, 2010
Appendix




      Semiannual Report to Congress: April 1- September 30, 2010   63
                                                               Appendix

       2010 Top Management Challenges Facing The Department of Labor

       The Top Management Challenges identiﬁed by the Oﬃce of the Inspector General (OIG) for the Department of Labor
     (DOL) are discussed below. As required by the Reports Consolidation Act of 2000, the OIG has provided a summary
     of what the Inspector General considers to be the most serious management and performance challenges facing
     DOL and has brieﬂy assessed the DOL’s progress in addressing those challenges. An overview of the Department’s
     programs, the challenge for the Department, the Department’s progress, and what remains to be done to address
     these challenges are shown in the following OIG report.

For 2010, the OIG considers the following as the most serious management and performance challenges facing the
Department:

•	        Achieving the Goals and Protecting the Investment Provided by the American Recovery and Reinvestment Act
•         P
          	 rotecting the Safety and Health of Workers
•	        Improving Performance Accountability of Workforce Investment Act Grants
•	        Ensuring the Eﬀectiveness of the Job Corps Program
•	         Safeguarding Unemployment Insurance
•	         Improving the Management of Workers’ Compensation Programs
•	        Maintaining the Integrity of Foreign Labor Certiﬁcation Programs
•         S	 ecuring Information Technology Systems and Protecting Related Information Assets
•	        Ensuring the Security of Employee Beneﬁt Plan Assets
•	        Ensuring DOL’s New Core Financial Management System Produces Reliable, Accurate, and Timely Financial
          Information

For each challenge, the OIG presents the challenge, the OIG’s assessment of the Department’s progress in addressing the
challenge, and what remains to be done. These top management challenges are intended to identify and help resolve serious
weaknesses in areas that involve substantial resources and provide critical services to the public.


CHALLENGE: Achieving the Goals and Protecting the Investment Provided by the American Recovery and Reinvestment Act

OVERVIEW:
The American Recovery and Reinvestment Act (Recovery Act) was enacted on February 17, 2009, to create new jobs and save
existing ones, spur economic activity, invest in long-term growth, and foster accountability and transparency in government
spending. As of August 19, 2010, the Department received nearly $71 billion in Recovery Act funds. DOL has three key roles in
the Recovery Act eﬀort: providing worker training for these jobs, easing the burden of the recession on workers and employers by
providing for extensions and expansions of unemployment beneﬁts, and assisting and educating unemployed workers regarding
expanded access to continued health beneﬁts. The Employment and Training Administration (ETA) is responsible for virtually
all of the Recovery Act funds provided to the Department. The mission of ETA is to contribute to the more eﬃcient functioning
of the U.S. labor market by providing high-quality job training, employment, labor market information, and unemployment
insurance services primarily through state and local workforce development systems.

CHALLENGE FOR THE DEPARTMENT:
Ensuring program effectiveness and meeting Recovery Act requirements to stimulate the economy is a significant
challenge for the Department. However, in several DOL programs, large amounts of Recovery Act funds remain
unspent. We reviewed DOL Recovery Act programs on the Health Care Tax Credit (HCTC), Unemployment Insurance (UI)
Modernization, and Job Corps Leasing, and we identiﬁed large amounts of unspent Recovery Act funds and questionable
expenditures of other such funds. Our March 2010 audit of the HCTC National Emergency Grants found that just
$8 million of the $150 million designated for the program had been awarded to states since the Recovery Act was signed into law on




64       Semiannual Report to Congress: April 1- September 30, 2010
                                                        Appendix

February 17, 2009. Similarly, as part of our September 2010 audit of UI modernization grants, nine states indicated in response
to an OIG survey that they were unlikely to apply for $1.3 billion of UI modernization beneﬁts.

Conversely, the need to spend funds quickly to meet Recovery Act requirements can lead to awards that may not be in the
government’s best interest. For example, Job Corps’ largest single expenditure of Recovery Act funds was a 20-year lease
totaling $82 million with the YWCA of Greater Los Angeles, Inc. for the construction of a new facility to house the Los Angeles
Job Corps Center. Job Corps also agreed to pay 60% of fair market value at the end of the lease term if it opts to purchase the
facility. The Recovery Act included provisions that speciﬁcally allowed Job Corps to use the multi-year lease option and advance
payments to lease real property as long as construction began within 120 days of the Recovery Act’s enactment. To meet the
120-day requirement of the Act, OASAM issued a Request for Proposals that closed on April 2, 2009, and required construction
to begin on or before June 16, 2009. This timetable gave the potential awardee less than 3 months to begin construction. Job
Corps only received one proposal, which was from the existing center operator. While Job Corps did negotiate the proposed
cost of the multi-year lease down from $105 million to $82 million, it did not perform a cost beneﬁt analysis, claiming it was not
required to do so. Through our analysis, we estimate that Government construction of the facility may have cost $31 million
less than the $82 million multi-year lease. As a result, Job Corps may have lost the opportunity to put at least $31 million of
Recovery Act funds to better use.

DEPARTMENT’S PROGRESS:
In last year’s top management challenges, the OIG stated that ETA would be challenged to demonstrate that Recovery Act grants
were properly awarded. Our audit work over the past year found that ETA has announced, evaluated, and issued Recovery
Act grants in accordance with relevant criteria. Also, monitoring guidelines and procedures were comprehensive, and grant
agreements informed grantees of their responsibilities for Recovery Act reporting. However, funds provided by the Act for
monitoring Recovery Act grants have expired as of September 30, 2010, which impacts ETA’s ability to execute its Recovery Act
grantee monitoring and oversight responsibilities and may increase the risk that a portion of the $717 million in Recovery Act
grant funds may not be spent for their intended purposes. ETA has asked for funding to support an increase in grant monitoring
staﬀ as part of its FY 2011 budget request.

Regarding unused Recovery Act funds, Congress has rescinded $110 million of the $150 million appropriated for HCTC National
Emergency Grants. According to ETA, approximately $14 million of the original $150 million has been obligated, leaving about
$26 million available for future grants.

WHAT REMAINS TO BE DONE:
ETA needs to continue its eﬀorts to identify and prioritize workloads and funding levels to ensure Recovery Act grants are
adequately monitored, grant funds are spent properly, and grants achieve their intended purpose. Over the next two years, the
OIG will focus its Recovery Act audit eﬀorts on assessing how grantees and contractors performed and what was accomplished
with Recovery Act funding.

ETA also needs to consider whether unused Recovery Act funds should and could be put to better use. For the remaining $26
million available for HCTC National Emergency Grants, ETA should obtain estimates of the amount of HCTC National Emergency
Grant funds needed by each state, an action ETA believes would be more prudent to pursue after January 1, 2011, when the
status of the Trade Adjustment Assistance program (which is pending reauthorization) is clearer.

Regarding the lease with YWCA, management objected to the audit report’s estimate of potential savings that might have accrued
from a direct land or building purchase as speculative, given that no other oﬀeror came forward to oﬀer a suitable building or
parcel of land. Management also stated that a cost beneﬁt analysis was not required because OMB waived certain budgetary
reporting of the lease. We did not concur that this relieved the Department of conducting a sound cost/beneﬁt analysis. ETA needs
to work with contracting oﬃcials in OASAM to demonstrate that the multi-year lease with the YWCA to acquire a new cility at
the LAJCC was the least expensive option to the Government, and if appropriate, renegotiate the multi-year lease agreement.




                                                                      Semiannual Report to Congress: April 1- September 30, 2010   65
                                                              Appendix

CHALLENGE: Protecting the Safety and Health of Workers

OVERVIEW:
The Department administers the Occupational Safety and Health Act of 1970 (OSH Act) and the Federal Mine Safety and Health Act of 1977
(Mine Act), as amended by the Mine Improvement and New Emergency Response Act of 2006. DOL’s eﬀective enforcement of
these laws is critical toward ensuring the workplace safety of our nation’s workers. The two DOL agencies primarily responsible for
enforcing these laws are the Occupational Safety and Health Administration (OSHA) and the Mine Safety and Health Administration
(MSHA). OSHA is responsible for ensuring safe and healthful working conditions for 130 million workers at more than seven
million establishments. MSHA is responsible for the safety and health of more than 350,000 miners who work at more than
14,500 mines.

CHALLENGE FOR THE DEPARTMENT:
Enforcement plays an important part in OSHA’s eﬀorts to reduce workplace injuries, illnesses, and fatalities. With 4,340 fatal
workplace injuries reported by the Bureau of Labor Statistics in 2009, OSHA’s challenges are how to best target its resources and
how to measure the impact of its eﬀorts. OSHA carries out its enforcement responsibilities through a combination of directed
and complaint investigations, but can reach only a fraction of the seven million entities it regulates. Consequently, OSHA must
strive to target the most egregious and persistent violators while protecting the most vulnerable worker populations. OSHA must
also evaluate the success of its enforcement strategies. For example, when unsafe conditions are identiﬁed, OSHA inspectors
issue citations with penalties. While the OSH Act requires OSHA to consider certain factors, such as the size of the company in
ﬁnalizing penalty amounts, speciﬁc reductions are not mandated. OSHA policies establish reductions as an incentive to abate
violations voluntarily. However, a recent OIG audit found that OSHA has not eﬀectively evaluated the impact of hundreds of
millions of dollars in penalty reductions as incentives to reducing workplace hazards.

Regarding MSHA, the OIG’s reviews over the past several years revealed a pattern of weak oversight, inadequate policies, and a
lack of accountability on the part of MSHA, which were exacerbated by years of resource shortages. MSHA’s challenge involves
eﬀectively managing existing resources and utilizing existing authorities to maximize its enforcement eﬀorts while fulﬁlling
other important duties.

Historically, MSHA’s resource shortage negatively impacted its ability to meet statutory requirements to conduct inspections
at the nation’s coal mines. In recent years, after Congress allocated supplemental funding to MSHA to hire additional mine
inspectors, MSHA has emphasized completing 100% of its mandatory mine inspections. However, this has resulted in backlogs
in other areas, such as the review of mine plans.

Recruiting and maintaining a properly trained cadre of mine inspectors is also a challenge for MSHA. A recent OIG audit found
that journeyman MSHA inspectors were not being provided required periodic training. In addition, retirements and other
attritions make maintaining a suﬃcient number of trained mine inspectors an ongoing challenge. By 2014, 41% of MSHA’s
enforcement personnel will be eligible to retire, and 25% are estimated to do so. Consequently, MSHA must recruit and train
the right personnel, as well as enough of them, to accomplish all of its critical statutory responsibilities.

MSHA has also struggled to consistently and proactively utilize its authority to identify mine operators with the worst compliance
records. In 1977, with the passage of the Mine Act, MSHA was given the authority to take enhanced enforcement actions when
a mine operator demonstrates recurring safety violations. This Pattern of Violations (POV) authority is an important tool for
MSHA’s enforcement activities; however, a recent OIG audit found that MSHA had not successfully used its POV authority in 32
years. Another challenge for MSHA’s enforcement activities is the large volume of citations contested by mine operators and
the resulting backlog of cases currently before the Federal Mine Safety and Health Review Commission.

Lastly, studies show that the incidence of Black Lung disease is rising and the disease is being found in younger miners. MSHA
faces a challenge to reverse this trend through measures to reduce coal dust exposure.

DEPARTMENT’S PROGRESS:
OSHA has established a new program, the Severe Violator Enforcement Program (SVEP), which is designed to concentrate
resources on inspecting employers who repeatedly violate the OSH Act. SVEP includes a requirement for mandatory follow-
up inspections. As an example, for follow-up inspections of construction companies, which frequently move from location to
location, SVEP requires that at least one other worksite of the cited employer be inspected if the initial worksite is closed. The
Department has also introduced a new approach to measuring the performance of worker protection agencies. Central to

66      Semiannual Report to Congress: April 1- September 30, 2010
                                                          Appendix

this new approach is establishing regular processes for evaluating the success of enforcement strategies in helping to achieve
desired outcomes.

MSHA continues to identify and hire mine inspector candidates within authorized personnel levels, and began examining and
implementing faster, more eﬃcient methods of delivering training using online technologies. Temporary resource reallocations
and procedural changes have reduced the number of overdue mine plan reviews by two-thirds since 2008. MSHA indicates it
has continued to work with the Federal Mine Safety and Health Commission to identify ways to reduce the backlog of challenged
citations. Enacted in July 2010, the Supplemental Appropriations Act, 2010 (Public Law 111-212) provided an appropriation of
$18.2 million to the Department of Labor for the purpose of reducing existing case backlog before the Commission, and for other
purposes. Of that amount, the Department has transferred $4.451 million to MSHA for backlog reduction project expenses.
MSHA continues to revamp the process and criteria for identifying mines with POV. In addition, MSHA is working with Congress
to receive additional enforcement authorities through legislative changes. Through its “End Black Lung – Act NOW” initiative,
MSHA has conducted public informational events, produced and distributed new educational materials, and co-sponsored one-
day workshops with National Institute for Occupational Safety and Health (NIOSH). MSHA’s rulemaking agenda includes work
on a ﬁnal rule regarding personal coal dust monitors and possible adjustments to coal dust exposure levels.

WHAT REMAINS TO BE DONE:
OSHA needs to monitor and evaluate the SVEP to ensure the program is being implemented as intended and is resulting in the
identiﬁcation and abatement of hazards having the desired results. As part of the Department’s new approach to measuring the
success of enforcement strategies, OSHA needs to evaluate the impact of penalty reductions on comprehensive improvements to
workplace safety and health. OSHA also needs to implement its planned new information system, replacing its current 35-year­
old system, which is subject to errors that hamper OSHA’s enforcement eﬀorts. In addition, adjustments to the new information
system will likely be needed over the next several years to respond to program changes.

MSHA must formalize the policy and procedural changes of recent years by updating its operational handbooks, implement a
human capital strategy that will continue to address expected enforcement personnel losses during the next ﬁve years, ﬁnd
ways to further reduce the number of overdue mine plan reviews, reduce the impact of any backlog of challenged citations on
the eﬀectiveness of its enforcement program, simplify and make more transparent its process and criteria for placing mines on
POV status, and monitor and measure eﬀorts to reduce the rise in Black Lung cases.


CHALLENGE: Improving Performance Accountability of Workforce Investment Act Grants

OVERVIEW:
In FY 2009, ETA reported program costs totaling $3.4 billion for the Workforce Investment Act (WIA) Adult, Dislocated Worker,
and Youth programs. WIA adult employment and training programs are provided through ﬁnancial assistance grants to States
and territories to design and operate programs for disadvantaged persons, including public assistance recipients. ETA also awards
grants to States to provide reemployment services and retraining assistance to individuals dislocated from their employment.
Youth programs are funded through grant awards that support program activities and services to prepare low-income youth for
academic and employment success, including summer jobs.

CHALLENGE FOR THE DEPARTMENT:
Successfully meeting the employment and training needs of citizens requires selecting the best service providers, making
expectations clear to grantees, ensuring that success can be measured, providing active oversight, and disseminating and
replicating proven strategies and programs. DOL is challenged to ensure the grants it awards accomplish program objectives. For
example, SWAs are required under WIA to conduct evaluations of their Title IB workforce investment activities (Adult, Dislocated
Worker, and Youth programs). A recent OIG audit found that not all SWAs conduct these evaluations, and those who do conduct
them, do not always report the identiﬁed best practices in their respective WIA Annual Reports to ETA. ETA also did not have a
process for analyzing and sharing the results with other SWAs and stakeholders. Without a mechanism for capturing, analyzing,
and sharing the evaluations, SWAs and other grantees are missing opportunities to know and learn from other programs which
may lead to signiﬁcant improvements in their own operations.

ETA may face challenges in providing adequate oversight and monitoring for some of the grants it awards. Funds provided by the
Recovery Act to ETA and used to monitor discretionary grants expired on September 30, 2010. The reduction in staﬀ resources
and funding for travel costs will impact ETA’s ability to fully execute its grant monitoring and oversight functions. ETA is also still

                                                                         Semiannual Report to Congress: April 1- September 30, 2010   67
                                                              Appendix

working to improve the quality of WIA performance data reported by states. Reliable and timely performance data are needed
to allow ETA to identify performance problems in time to correct them.

DEPARTMENT’S PROGRESS:
ETA has commissioned independent evaluations of demonstrations and initiatives. In response to an OIG audit, ETA issued
policy guidance in September 2010, which clariﬁes the information states should submit regarding evaluation studies of WIA
activities.

With respect to grant monitoring, ETA has requested funding for 48 additional Recovery Act monitoring positions in the FY
2011 budget. In the meantime, it plans to assign the Recovery Act workload to a combination of both Recovery Act-funded and
permanent Federal Project Oﬃcers. ETA has developed a Workforce Analysis report for each Regional Oﬃce on how the Recovery
Act grants will be absorbed into ongoing operations. ETA also indicated it has used its remaining Recovery Act administrative
funds to secure contract support for administrative tasks related to grants management. ETA stated this will free up permanent
staﬀ time for grants monitoring.

WHAT REMAINS TO BE DONE:
ETA needs to develop a process to analyze evaluation results so that it can improve delivery of services nationally and be a proactive
clearinghouse to the SWAs for best practices. ETA has indicated it will: 1) develop guidelines for Regional Oﬃce staﬀ to initially
review SWA evaluations to determine which ones to pass on to its national oﬃce for ﬁnal review; 2) share best practices, tools,
and replicable models identiﬁed through state evaluations based on rigorous research practices through its online technical
assistance platform (www.Workforce3 One.org); and 3) explore opportunities, depending on funding availability, to improve
the functionality of the Workforce3 One.org website. ETA also needs to complete the Data Validation component of its Core
Monitoring Guide, provide training to ensure that its Regional Administrators and Federal Project Oﬃcers understand how to
use the new component, and ensure data validation reviews are being done as part of regional monitoring in FY 2011.


CHALLENGE: Ensuring the Eﬀectiveness of the Job Corps Program

OVERVIEW:
Education, training, and support services are provided to approximately 60,000 students at 124 Job Corps centers located
throughout the United States and Puerto Rico. Job Corps centers are operated for DOL by private contractors, and by other
Federal Agencies through interagency agreements. The program was appropriated nearly $1.7 billion in FY 2010.

CHALLENGE FOR THE DEPARTMENT:
Placement and Recruitment Outcomes – Job Corps has been challenged to meet its placement and recruitment goals over the
past several years. The number of Job Corps graduates placed in jobs, continuing their education, and/or entering the military
has declined from 91% for the year ended June 30, 2005, to 76% for the year ended June 30, 2010. In addition, in June 2009,
Government Accountability Oﬃce (GAO) reported that Job Corps achieved between 95 and
98% of the planned enrollment for male residential students during program years 2005 through 2007, but about 80% or less of
the planned enrollment for female residential students. GAO recommended that Job Corps modify its recruiting methods and oﬀer
more career training that is both attractive to females and leads to careers that will enable them to become self suﬃcient.

Safety and Health Issues – Ensuring the quality of life at centers, including healthy living conditions and the sense of safety, is
a continuing challenge for Job Corps. OIG audits continued to identify unsafe or unhealthy conditions and the lack of required
safety inspections at some centers. We also found that some centers did not hold required behavior review board meetings to
evaluate student misconduct and initiate disciplinary action; and underreported signiﬁcant incidents occurring at the centers.

Performance and Financial Reporting – Ensuring the integrity of performance and ﬁnancial data reported by center operators is a
challenge for Job Corps. OIG audits have found that weak controls at centers have resulted in the overstatement of performance
results, as well as unallowable costs charged to Job Corps. This is a particular challenge for Job Corps as most centers are operated
by contractors through performance-based contracts with incentive fees and bonuses that are tied directly to contractor
performance. Under such contracts, there is a risk that contractors will overstate performance results. Regarding ﬁnancial activity,




68      Semiannual Report to Congress: April 1- September 30, 2010
                                                               Appendix

xamples of problems identiﬁed by OIG audits include questioned costs of $1.8 million related to a contractor’s indirect costs,
and $65,553 that another contractor charged for the Center Director’s personal housing and travel expenses.

DEPARTMENT’S PROGRESS:
In FY 2010, Job Corps stated it developed new female-oriented marketing and recruitment materials and increased its career
technical training oﬀerings to attract females, including high-growth industries such as health care and green jobs. Job Corps
also created and distributed new materials and DVDs to assist with recruitment eﬀorts.

Job Corps stated it has published several Information Notices and Program Instructions on safety issues, sent quarterly memoranda
to the Regional Directors regarding major hazards identiﬁed during centers’ quarterly inspections, and provided technical
assistance in response to inquiries about center abatement action plans. Job Corps also reported that centers continued to
provide training and support to students on issues such as conﬂict resolution, abuse, and student leadership. Job Corps is in the
process of clarifying its behavior management policies.

Job Corps stated that it added “Improving Data Integrity” to Regional Directors’ performance standards, and conducted data
integrity audits concurrently with onsite compliance/quality assessments.

WHAT REMAINS TO BE DONE:
Job Corps needs to evaluate the drop in graduate placements and identify strategies to reverse this trend. Job Corps stated it is
closely examining ways to improve the graduate placement rate but noted that the economic climate is a factor in employment
results. Job Corps also needs to evaluate the success of its newly developed training programs and its eﬀorts to attract female
students, and make adjustments where needed. In addition, Job Corps needs to take actions to ensure centers provide a safe and
conducive learning environment while supporting student success and program retention. Finally, Job Corps needs to provide
proactive, consistent, and rigorous oversight of contractors at all centers.


CHALLENGE: Safeguarding Unemployment Insurance

OVERVIEW:
ETA partners with the states to administer unemployment beneﬁt programs. State UI provides beneﬁts to workers who are
unemployed and meet the eligibility requirements established by their respective states. UI beneﬁts are largely ﬁnanced
through employer taxes imposed by the states and deposited in the Unemployment Trust Fund (UTF) from which the states
pay the beneﬁts. The states administer these programs under an agreement with DOL in accordance with their state laws and
regulations. ETA funds SWAs who administer the UI program through grant agreements. These grant agreements are intended
to ensure that SWAs eﬃciently administer the UI program and comply with Federal laws and regulations. In addition, the SWAs
are required to have disaster contingency plans in place to enable them to administer beneﬁts in the aftermath of a disaster.

CHALLENGE FOR THE DEPARTMENT:
The current economic downturn has made controlling overpayments more diﬃcult, as the number of claims ﬁled has
greatly increased and new programs had to be implemented quickly, which ETA stated caused states to shift resources from
detecting improper payments to processing claims. For the 2010 Improper Payment and Information Act (IPIA) reporting
period (July 2009 to June 2010), ETA reported a total overpayment rate of 10.59%, which equates to more than $15.2
billion in UI overpayments – an increase from the $11.4 billion reported for the 2009 IPIA period. ETA estimates that about
$3.4 billion of these overpayments are attributable to fraud – an increase of $600 million from the $2.8 billion reported in
FY 2009. OIG investigations continue to uncover UI fraud committed by individuals, as well as identity theft schemes designed to illegally obtain
UI beneﬁts. OIG’s review of ETA’s compliance with Executive Order 13520 and its required Report on UI Improper Payments
identiﬁed improvements needed to measure and to mitigate UI improper payments.

ETA is also challenged to ensure that SWAs have adequate information technology (IT) contingency plans in place that provide
for the continuation of services in the aftermath of disasters. Our prior audit found that ETA had not ensured that SWA partners
had established and maintained adequate IT contingency plans. Speciﬁcally, 50 out of 51 plans lacked critical elements needed
to ensure the continued availability of the UI systems.




                                                                              Semiannual Report to Congress: April 1- September 30, 2010     69
                                                              Appendix

DEPARTMENT’S PROGRESS:
In March 2010, the Department implemented the State Information Data Exchange System (SIDES), which enables communication
and transmission of UI separation information requests from UI agencies to multi-state employers and third-party administrators.
In May 2010, the Unemployment Compensation Program Integrity Act draft legislation was delivered to Congress, and if enacted,
the legislation would permit states to use up to 5% of recovered unemployment compensation overpayments to deter and
detect beneﬁt overpayments. The legislation would also give employers incentive to provide timely, accurate, and complete
information about why their former employees no longer work for them – information critical for states to determine eligibility.
In addition, three more SWAs began using the National Directory of New Hires (NDNH) to identify persons who continued to
collect UI payments after obtaining employment. ETA also agreed to conduct annual veriﬁcation of SWAs’ IT contingency plans to
verify both plan existence and reliability. ETA stated they provided funding to assist states to develop or update UI IT contingency
plans. Thirty-one states were provided funding totaling more than $4 million for this initiative.

WHAT REMAINS TO BE DONE:
ETA can further improve its oversight of the states’ detection and prevention of UI, extended beneﬁts, and Disaster Unemployment
Assistance overpayments by fully implementing SIDES; increasing the frequency of SWA on-site reviews; and ensuring that
California implements NDNH (California is the only state not to have done so, and it alone represents 13% of the UI overpayments
nationally). ETA stated that California will implement NDNH by September 2011. ETA is continuing to pursue legislation to deﬁne
the “Date of Hire” and mandate its reporting by employers; and continuing to promote States’ use of a variety of other databases
(e.g., Social Security, Department of Corrections) to prevent and detect improper UI beneﬁt payments. ETA also needs to provide
additional, more detailed information on its eﬀorts to reduce improper payments in its next Report on UI Improper Payments.
Finally, in FY 2011, ETA needs to continue working with the states on their development of well-documented IT contingency
plans.


CHALLENGE: Improving the Management of Workers’ Compensation Programs

OVERVIEW:
The Department has responsibility for managing the Energy Employees Occupational Illness Compensation Act Program (Energy
workers’ program) and the Federal Employees’ Compensation Act (FECA) Program. Both of these programs are within DOL’s
Oﬃce of Workers’ Compensation Programs (OWCP).

The Energy workers’ program was created to provide monetary compensation and/or medical beneﬁts to civilian employees
who incurred an occupational illness, such as cancer, as a result of their exposure to radiation or other toxic substances while
employed in the nuclear weapons and testing programs of the U.S. Department of Energy and its predecessor agencies. In
certain circumstances, these employees’ survivors may be eligible for compensation. Since the program began in 2001 and
through August 26, 2010, DOL reports it has paid more than $6 billion in compensation and medical beneﬁts to more than
61,400 claimants nationwide.

The FECA provides wage-loss compensation and pays medical expenses for covered Federal civilian and certain other employees
who incur work-related occupational injuries or illnesses as well as survivors beneﬁts for a covered employee’s employment-
related death. This program is administered by the Department, impacting all Federal agencies’ budgets and employees. In FY
2010, Federal employees ﬁled 127,526 new injury claims and 19,861 claims for loss compensation. FECA beneﬁt expenditures
totaled nearly $2.8 billion for wage-loss compensation and medical treatment to more than 250,000 beneﬁciaries in FY 2010.
Most of these costs were charged back to individual agencies for reimbursement to OWCP’s Federal Employees’ Compensation
Fund.

CHALLENGE FOR THE DEPARTMENT:
The overall challenge for the Energy workers’ program centers on the timeliness of its claim decisions. For the FECA program,
minimizing improper payments and fraud continues to be its primary challenge. FECA fraud opportunities continue to exist,
and certain ones are made more likely by FECA’s inability to match FECA compensation recipients against social security wage
records.




70      Semiannual Report to Congress: April 1- September 30, 2010
                                                         Appendix

The Energy Workers Compensation program, though administered by the DOL, requires the pre-adjudication input, assistance,
and determinations of three other major Federal agencies and a Federal advisory board. Complex regulatory requirements and
the diﬃculty of locating employment and other records, as well as the inability of sick, often aging, claimants to fully understand
their rights and responsibilities, contribute to the lengthy decision process. Furthermore, the NIOSH must prepare a complicated
and time consuming dose reconstruction of the amount of radiation to which an employee with cancer was exposed. The
Department has no regulatory authority to control the completion time of the NIOSH process.

The FECA program must ensure it makes proper payments, while also being responsive and timely to eligible claimants. The
challenges facing the FECA program include moving claimants oﬀ the periodic rolls when they can return to work or their eligibility
ceases, preventing ineligible recipients from receiving beneﬁts, and preventing fraud by service providers and by individuals
who receive FECA beneﬁts while working. The OIG recognizes that it is diﬃcult to identify and address improper payments
and/or fraud in the FECA program, and we have previously reported OWCP does not have the legal authority to match FECA
compensation recipients against Social Security wage records. Currently, OWCP must obtain written permission each time from
each individual claimant in order to check records. Having direct authority to perform the match would enable OWCP to identify
individuals who are collecting FECA beneﬁts while working and collecting wages.

DEPARTMENT’S PROGRESS:
The Division of Energy Employees Occupational Illness Compensation indicates it has implemented new procedures to reduce
the time it takes to develop impairment claims and it is revamping its procedural guidance. In addition, the Department has set
up procedures to measure its timeliness of performance starting from the point of application to the ﬁnal decision and payment.
Furthermore, DOL now publishes graphs on its Web site that show processing times for various types of cases, including those sent
to NIOSH for completion of a dose reconstruction. DOL has sponsored town hall meetings to inform workers and their survivors
about available program beneﬁts, and its Traveling Resource Center goes out monthly to assist individuals with the ﬁling of their
claims. DEEOIC continues to work with pre-decisional components to streamline and improve the issuance of ﬁnal decisions.

The Department completed the rollout of its FECA beneﬁt payment system, the Integrated Federal Employee Compensation
System. This system is designed to track due dates of medical evaluations, revalidate eligibility for continued beneﬁts, use
data mining to prevent improper payments, boost eﬃciency, and improve customer satisfaction. The Department has sought
legislative authority to allow it access to Social Security Administration wage records. In addition, the OIG continued to provide
training to DOL and to other Federal agencies in the detection and prevention of fraud against the FECA program.

WHAT REMAINS TO BE DONE:
The Department needs to continue its eﬀorts to further reduce case processing times. While average processing times in the
Energy Workers program have improved over the past several years, it still takes more than 18 months to reach a ﬁnal decision
on a Part B case. Part B covers current or former workers who have been diagnosed with cancers, beryllium disease, or silicosis,
and whose illness was caused by exposure to radiation, beryllium, or silica.

In addition to the need for access to SSA wage records, the Department needs to continue to seek legislative reforms to the
FECA program to enhance incentives for employees who have recovered to return to work, address retirement equity issues,
discourage unsubstantiated or otherwise unnecessary claims, and make other beneﬁt and administrative improvements. Through
the enactment of these proposals, the Department estimates savings to the government over 10 years to be $437 million.


CHALLENGE: Maintaining the Integrity of Foreign Labor Certiﬁcation Programs

OVERVIEW:
The Department’s Foreign Labor Certiﬁcation (FLC) programs are administered by the ETA. These programs are intended to
provide U.S. employers access to foreign labor to meet worker shortages under terms and conditions that do not adversely aﬀect
U.S. workers. The permanent labor certiﬁcation program allows an employer to hire a foreign worker to work permanently in
the United States, if a qualiﬁed U.S. worker is unavailable and the employment of the foreign worker will not adversely aﬀect




                                                                      Semiannual Report to Congress: April 1- September 30, 2010   71
                                                              Appendix

the wages and working conditions of similarly employed U.S. workers. The H-1B program allows the Department to certify
employers’ applications to hire temporary foreign workers in specialty occupations such as medicine, biotechnology, and
business. The H-2B program permits employers to hire foreign workers to come temporarily to the United States and perform
temporary non-agricultural labor on a one time, seasonal, peak load, or intermittent basis. To obtain certiﬁcation, employers
must show that there are insuﬃcient qualiﬁed U. S. workers available and willing to perform the work at the prevailing wage
paid for the occupation. In addition, employers are required to pay any foreign worker the wage rate that prevails in the area of
employment for the occupation and to comply with all laws governing such employment.

CHALLENGE FOR THE DEPARTMENT:
ETA is challenged in ensuring the integrity of the FLC programs it administers. OIG investigations (initiated on referrals from
ETA and other law and non-law enforcement entities, as well as pro-active OIG eﬀorts) continue to uncover schemes carried
out by immigration attorneys, labor brokers, and transnational organized crime groups, some with possible national security
implications. OIG investigations have repeatedly revealed schemes involving fraudulent applications ﬁled with DOL on behalf
of ﬁctitious companies, and those wherein fraudulent applications were ﬁled using the names of legitimate companies without
the companies’ knowledge. Additionally, OIG investigations have uncovered complex schemes involving fraudulent DOL FLC
documents ﬁled in conjunction with or in support of similarly falsiﬁed identiﬁcation documents required by other Federal and
state organizations.

Additional challenges ETA faces in maintaining the integrity of its foreign labor certiﬁcation programs include statutory limits
on its authority in the H-1B program, making system improvements in its H-1B Labor Condition Application processing system
to better identify incomplete and/or obviously inaccurate applications, and uncertainty regarding the Department’s authority
to debar individuals or entities.

DEPARTMENT’S PROGRESS:
ETA’s Oﬃce of Foreign Labor Certiﬁcation (OFLC), Fraud Detection and Prevention Unit, which targets application fraud by
reviewing applications for inconsistencies, errors, and omissions, continues to work closely with the OIG to identify and reduce
fraud in the FLC process.

WHAT REMAINS TO BE DONE:
The Department needs to continue working with OIG to identify and reduce fraud, ensure appropriate training is provided to
OFLC staﬀ, and evaluate the results of its certiﬁcation processes to assess their eﬀectiveness. The Department needs to make
adjustments to enhance integrity of its iCert H-1B Labor Condition Application processing system to incorporate missing electronic
controls. Additionally, the Department should ensure debarments are considered, and decisions documented, for anyone
convicted of FLC violations, and FLC debarments are reported to appropriate DOL personnel for inclusion in the government-
wide exclusion system. To this end, ETA needs to work with the Oﬃce of the Solicitor to resolve this matter.


CHALLENGE: Securing Information Technology Systems and Protecting Related Information Assets

OVERVIEW:
DOL systems contain vital, sensitive information that is central to the Department’s mission and to the eﬀective administration of
its programs. DOL systems are used to determine and house the Nation’s leading economic indicators, such as the unemployment
rate and the Consumer Price Index. They also maintain critical data related to worker safety and health, pension, and welfare
beneﬁts, job training services, and other worker beneﬁts. The Congress and the public have voiced concerns over the ability
of government agencies to provide eﬀective information security and to protect critical data. The administration has called
upon federal agencies to bring about greater use of technology to consolidate data center operations, use cloud computing
infrastructures and services, and make use of Web 2.0 technologies, including blogs and social-networking services.

CHALLENGE FOR THE DEPARTMENT:
Overall, management of IT systems is a continuing challenge for DOL. Keeping up with new threats, IT developments, providing
assurances that IT systems will function reliably, and safeguarding information assets will continue to challenge the Department
today and in the future. The administration’s goal of expanding the use of technology to create and maintain an open and
transparent government, while safeguarding systems and protecting sensitive information, has added to the challenge.




72      Semiannual Report to Congress: April 1- September 30, 2010
                                                         Appendix

The FY 2010 Federal Information Security Management Act (FISMA) audit identiﬁed access controls, inventory of sensitive IT
assets, oversight of third-party systems, and remediation of known vulnerabilities as signiﬁcant deﬁciencies. The OIG has reported
on access control weaknesses over the Department’s major information systems since FY 2001. These weaknesses represent
a signiﬁcant deﬁciency over access to key systems and may permit unauthorized users to obtain or alter sensitive information,
including unauthorized access to ﬁnancial records. Furthermore, the security of sensitive information that can be accessed
remotely or stored on mobile computers/devices is a continuing challenge to the Department and in the Federal government
overall. Management of these areas will likely become more challenging in the future as cloud computing is implemented.
Consolidating data centers and moving mission critical systems to the cloud increases the risk of exposing personal identiﬁable
information (PII) and unauthorized information exchanges, including critical and sensitive pre-decisional budget and policy
information. While acknowledging the ongoing opportunity to improve controls, management has expressed its disagreement
with these FISMA audit ﬁndings, in particular the seriousness of the issues identiﬁed by the OIG.

In light of these challenges, the OIG continues to recommend the creation of an independent Chief Information Oﬃcer (CIO) to
provide exclusive oversight of all issues aﬀecting the IT capabilities of the Department. While the Administration has moved to
establish a separate CIO and Chief Technology Oﬃcer, DOL continues to manage its IT systems with a CIO who must balance IT
with other important responsibilities, such as serving as the Chief Acquisition Oﬃcer (CAO) and Privacy Oﬃcer. The administration
has clearly signaled that to be eﬀective in meeting its objectives and goals going forward, such as implementing an open and
transparent government, it will take a greater level of dedication to IT management and governance than in the past.

DEPARTMENT’S PROGRESS:
The Department is participating on several Federal Councils, Committees and Forums (e.g., Federal Chief Information Oﬃcer
Council, Information Security and Identity Management Committee, the Chief Information Security Oﬃcer Forum) to assist in
the development and implementation of policies, procedures, and standards that will address these challenges. In FY 2010,
the Department focused its continuous monitoring program on the implementation of NIST 800-53 Rev 2 minimum security
controls and on testing and evaluating access control and conﬁguration management policies and procedures. Additionally, the
Department established a Social Media Governance Work group that developed a Social Media policy and Handbook.

WHAT REMAINS TO BE DONE:
The Department needs to establish an independent CIO to provide exclusive oversight of all issues aﬀecting the IT capabilities
of the Department. DOL management recognizes the challenges associated with protecting the Department’s information and
information systems and is committed to strengthening its security posture. As such, the Department currently has plans in place
to improve upon its security controls testing and evaluation process by performing agency speciﬁc customized testing that will
focus on the agencies’ high-risk vulnerabilities and control weaknesses and to pursue a technical solution for logging computer
readable data extracts. Additionally, the Department will continue its current enterprise IT eﬀorts to strengthen DOL’s operating
environment to include: infrastructure optimization, trusted internet connection, logical access control system, and a DOL risk
management and compliance proﬁle program. Social networking technologies will require the Department to develop new
approaches to continuous monitoring of computer usage and providing information security assurance as the Department and
its agencies begin taking advantage of Web 2.0, including blogging, Wiki, Facebook, MySpace, and Twitter as part of replacing
old ways of communicating.


CHALLENGE: Ensuring the Security of Employee Beneﬁt Plan Assets

OVERVIEW:
The mission of the Department’s Employee Beneﬁts Security Administration (EBSA) is to protect the security of retirement, health,
and other private-sector employer-sponsored beneﬁts for America’s workers, retirees, and their families. EBSA oversees beneﬁt
security for an estimated 708,000 private retirement plans, 2.8 million health plans, and similar numbers of other welfare beneﬁt
plans, such as those providing life or disability insurance. Beneﬁts under EBSA’s jurisdiction consist of approximately $5 trillion
in assets covering more than 150 million participants and beneﬁciaries. EBSA is charged with overseeing the administration
and enforcement of the ﬁduciary, reporting, and disclosure provisions of Title I of the Employee Retirement Income Security
Act (ERISA).




                                                                      Semiannual Report to Congress: April 1- September 30, 2010   73
                                                              Appendix

CHALLENGE FOR THE DEPARTMENT:
Protecting beneﬁts and beneﬁt plan assets generally against fraud, misconduct, and negligence remains an ongoing challenge
for the Department. OIG investigations have shown that beneﬁt plan assets remain vulnerable to labor racketeering and/or
organized crime inﬂuence. These pension plans, health plans, and welfare beneﬁt plans comprise trillions of dollars in assets
covering more than 150 million American workers. Dishonest beneﬁt plan service providers, including accountants, investment
advisors, and plan administrators, continue to be a strong focus of OIG investigations, as well as corrupt union oﬃcials and/or
organized crime members.

EBSA Has Limited Authority to Oversee Plan Audits – Employee beneﬁt plan audits by independent public accountants (IPAs) must
provide a ﬁrst-line defense for plan participants against ﬁnancial loss. Ensuring that audits by IPAs meet quality standards adds
to the Department’s challenge because the Department’s authority to require plan audits to meet standards remains limited.
EBSA does not have the authority to suspend, debar, or levy civil penalties against employee beneﬁt plan auditors who perform
substandard audits. In addition, ERISA allows plan administrators to exclude investments held by certain regulated institutions,
such as banks and insurance companies, from the scope of a plan audit, resulting in the auditor’s disclaimer of opinion on the
ﬁnancial statements, which seriously impairs the usefulness of the audit in protecting employee beneﬁt plan assets.

EBSA Lacks Ability to Assess Enforcement Program Eﬀectiveness – EBSA lacks the ability to assess the eﬀectiveness of its civil
enforcement programs. Our audits have found that EBSA could not determine whether its civil enforcement projects, such
as the Multiple Employer Welfare Arrangements project and the Rapid ERISA Action Team (REACT) project, were increasing
compliance with ERISA, or whether the projects were decreasing the risk that workers will lose beneﬁts. We also found that
EBSA could not clearly demonstrate it was directing resources to the enforcement areas with the most impact on its mission to
deter and correct ERISA violations. Each EBSA regional oﬃce diﬀered in its interpretation of its enforcement program impact
and desired outcomes. As a result, the allocation of resources diﬀered among the regional oﬃces, and agency resources may
not have been directed at areas with the most impact.

Multiple Challenges Stem from Implementing the Patient Protection and Aﬀordable Care Act (Health Care Reform Act) –The
broad changes required by the Health Care Reform Act will challenge the Department to develop in excess of thirty new health
plan regulations and provide ongoing technical assistance, incorporate new requirements into employee beneﬁt enforcement
programs, institute new statutorily mandated research and health plan surveys, and broaden assistance and educational programs
for employee beneﬁt plan participants and beneﬁciaries. These new and extensive health care requirements will pose major
challenges for the Department.

DEPARTMENT’S PROGRESS:
The Department has previously sought legislative changes, such as expanding the authority of EBSA to address substandard
beneﬁt plan audits, and ensuring that auditors with poor records are not allowed to continue performing plan audits; these
changes have not been enacted by Congress. In addition, the Department has unsuccessfully sought recommended legislative
changes to either eliminate or modify the limited-scope audit exception to strengthen the protections aﬀorded plan participants
and beneﬁciaries. EBSA is working on new approaches to these issues and developing possible legislative language.
In an eﬀort to address inadequate assessments of the eﬀectiveness of its enforcement program, EBSA, as part of the Department’s
FY 2011- 2016 Strategic Plan, will be implementing a Sample Investigation Program in 2011, which will review randomly selected
employee beneﬁt plans for compliance with ERISA. EBSA has also published eight interim ﬁnal regulations under the Health Care
Reform Act, as well as other sub-regulatory guidance documents and model notices.

WHAT REMAINS TO BE DONE:
EBSA needs to continue work to obtain legislative change to address deﬁcient beneﬁt plan audits, to ensure that auditors with
poor records do not perform any additional plan audits, and to repeal the limited scope audit exception. EBSA will need to evaluate
the results of the Sample Investigation Program to determine what changes are needed to improve program eﬀectiveness, and
continue its eﬀorts to develop guidance to support its implementation of the Health Care Reform Act.




74      Semiannual Report to Congress: April 1- September 30, 2010
                                                       Appendix

CHALLENGE: Ensuring DOL’s New Core Financial Management System Produces Reliable, Accurate, and Timely Financial
Information

OVERVIEW:
From FY 1989 to FY 2010, the DOL has relied upon the Department of Labor Accounting and Related Systems (DOLAR$) as the
ﬁnancial system of record for the department. DOLAR$ was implemented prior to all of the modern-day laws and regulations
that drive Federal accounting, ﬁnancial management, ﬁnancial reporting, and information security. As a result, DOLAR$ was
enhanced and extended numerous times to meet the Department’s internal and external reporting requirements; however,
DOLAR$ antiquated technology did not allow DOL to eﬃciently and eﬀectively meet its current and future ﬁnancial and accounting
needs. In July 2008, the Department awarded a contract for the development of the New Core Financial Management System
(NCFMS). NCFMS was planned to be fully implemented and operational by mid-October 2009, but migration of data from
DOLAR$ to NCFMS did not occur until January 2010.

CHALLENGE FOR THE DEPARTMENT:
The implementation of NCFMS has presented the Department with several challenges. The number of actual users is signiﬁcantly
higher than planned. Initial estimates were 500 total users, but as of October 2010, the count is more than 2,600. It remains a
challenge to support this larger than expected user base.

The Department is currently unable to produce auditable ﬁnancial statements on schedule. The Department is challenged to
clean up inaccurate ﬁnancial data from DOLAR$ and interfacing systems. Until these actions are completed, the system will
continue to provide incorrect ﬁnancial and budgetary information.

While many of the problems the Department has encountered with NCFMS can be attributed to the migration of data from DOLAR$,
new problems have been introduced due to the signiﬁcant change in business processes and the users’ lack of understanding
of the new system. In NCFMS, certain key processes are performed diﬀerently than they were in DOLAR$, because NCFMS
incorporates the various OMB, Treasury and other Federal ﬁnancial requirements, processes and controls.

DEPARTMENT’S PROGRESS:
The Department has indicated that NCFMS is now providing all of DOL with day-to-day ﬁnancial transaction processing, budget
execution, and reporting. Initially, integration and data migration issues required some manual workarounds to release grants
and procurements. Additional data migration activities have substantially improved processing of these transactions, and the
issuance of grants, travel payments and procurements is being consistently performed accurately and timely by NCFMS.

Initial NCFMS training was started in the summer of 2009; and based on feedback from attendees, the training was reformatted
and given again with an agency focus in the fall of 2009. Computer Based Training and Quick Reference Guides were available
in January 2010 prior to the NCFMS go-live, and continue to be used.

DOL stated it has been working with its service provider to scale the hardware, software, help desk, training, operations, and
onsite support staﬀ. According to DOL, this surge in support has resulted in the reduction of transaction backlogs, the lowering
of late payment penalties and the increase in the accuracy of the data as transactions are getting processed more timely.

WHAT REMAINS TO BE DONE:
DOL needs to continue to work closely with OMB, Treasury and the OIG to address data quality and accuracy of reporting.
The Department needs to enhance training materials on NCFMS and continue to train the NCFMS user community on its full
capabilities. In addition, standard operating procedures and other such tools for NCFMS should be reviewed and revised on an
ongoing basis to ensure that newly hired personnel have references on how to use the system. The ﬁrst 9 months saw substantial
increases in the number of late payment penalties as staﬀ adjusted to the new business process. While DOL states it has nearly
reached pre-implementation late payment rates, DOL needs to improve operational eﬃciencies in 2011 beyond the benchmarks
of the previous system.




                                                                     Semiannual Report to Congress: April 1- September 30, 2010   75
                                                             Appendix

Changes from Last Year

Changes to the Top Management Challenges from FY 2009 include the addition of the challenge related to the implementation
of the Department’s NCFMS.

Improving Procurement Integrity was previously discussed in our FY 2009 Top Management Challenges. While the enactment
of the Recovery Act greatly increased the amount of acquisition activity in the Department, our audit work found that, overall,
the awards were announced, evaluated, and selected in accordance with relevant criteria. Additionally, Job Corps has addressed
concerns expressed in previous audits regarding the lack of adequate segregation of duties between its Regional Director and
Contracting Oﬃcer responsibilities by placing those functions in two diﬀerent reporting structures.

While we have removed procurement integrity from the FY 2010 Top Management Challenges, we remain concerned that the
Department has decided against appointing a CAO whose primary duty is acquisition management, as required by the Services
Acquisition Reform Act of 2003. Audits of the Department’s procurement activities will remain a priority for the OIG.




76     Semiannual Report to Congress: April 1- September 30, 2010
                                                                Appendix

                                              Funds Put to a Better Use

                                                  Funds Put to a Better Use Agreed to by DOL
                                                                                                                       Number of       Dollar Value
                                                                                                                         Reports        ($ millions)
For which no management decision had been made as of the commencement of the reporting period                                    2            142.2
Issued during the reporting period                                                                                               5          1,340.5
Subtotal                                                                                                                         7          1,482.7
For which management decision was made during the reporting period:
xDollar value of recommendations that were agreed to by management                                                              2            142.2
xDollar value of recommendations that were not agreed to by management                                                                           0
For which no management decision had been made as of the end of the reporting period                                             5          1,340.5

                                                Funds Put to a Better Use Implemented by DOL
                                                                                                                       Number of       Dollar Value
                                                                                                                         Reports        ($ millions)
For which final action had not been taken as of the commencement of the reporting period                                         4              1.6
For which management or appeal decisions were made during the reporting period                                                   2            142.0
Subtotal                                                                                                                         6            143.6
For which final action was taken during the reporting period:
xDollar value of recommendations that were actually completed                                                                                110.0
xDollar value of recommendations that management has subsequently concluded should not or could not be                                            0
implemented or completed
For which no final action had been taken by the end of the period                                                                6             33.6

                                                       Questioned Costs

                                                     Resolution Activity: Questioned Costs
                                                                                                                       Number of        Questioned
                                                                                                                         Reports             Costs
                                                                                                                                        ($ millions)
For which no management decision had been made as of the commencement of the reporting period (as adjusted)
                                                                                                                               16              47.7
Issued during the reporting period                                                                                             29               8.0
Subtotal                                                                                                                       45              55.7
For which a management decision was made during the reporting period:
xDollar value of disallowed costs                                                                                                             30.1
xDollar value of costs not disallowed                                                                                                          5.1
For which no management decision had been made as of the end of the reporting period                                           28              20.5
For which no management decision had been made within six months of issuance                                                    6              12.9

                                                       Closure Activity: Disallowed Costs
                                                                                                                       Number of        Disallowed
                                                                                                                         Reports              Costs
                                                                                                                                        ($ millions)
For which final action had not been taken as of the commencement of the reporting period (as adjusted)*
                                                                                                                               79              40.2
For which management or appeal decisions were made during the reporting period                                                 11              30.4
Subtotal                                                                                                                       90              70.6
For which final action was taken during the reporting period:
xDollar value of disallowed costs that were recovered                                                                                         29.6
xDollar value of disallowed costs that were written off by management                                                                          0.2
xDollar value of disallowed costs that entered appeal status                                                                                   0.0
For which no final action had been taken by the end of the reporting period                                                    80              40.8
*These figures are provided by DOL agencies and are unaudited. Does not include $1.7 million of disallowed costs
that are under appeal. Partial recovery/write-offs are reported in the period in which they occur. Therefore, many
audit reports will remain open awaiting final recoveries/write-offs to be recorded.
                                                                               Semiannual Report to Congress: April 1- September 30, 2010     77
                                                                         Appendix

                                                 Final Audit Reports Issued

                                                                                #of                                   FundsPut               Other
     ProgramName                                                               Nonmonetary           Questioned       ToBetter               Monetary
     ReportName                                                                Recommendations        Costs($)        Use($)                 Impact($)
     EmploymentandTrainingPrograms
     JobCorpsProgram
     PerformanceAuditofMINACT,Inc.,JobCorpsCenterOperator;Report
     No.26Ͳ10Ͳ004Ͳ01Ͳ370;08/10/10                                                              5         203,921                        0                 0
     AppliedTechnologySystems,Inc.OverchargedJobCorpsforIndirect
     Costs;ReportNo.26Ͳ10Ͳ006Ͳ01Ͳ370;09/24/10                                                3        1,800,000                       0                 0
     HotlineComplaintAgainsttheSierraNevadaJobCorpsCenter;Report
     No.26Ͳ10Ͳ007Ͳ01Ͳ370;09/30/10                                                               3                 0                      0                 0
     RecoveryAct:JobCorpsCouldNotDemonstratethattheAcquisitionof
     theNewFacilityattheLosAngelesJobCorpsCenterUsingaMultiͲYear
     LeasewastheLeastExpensiveOption;ReportNo.18Ͳ10Ͳ009Ͳ03Ͳ370;
     09/30/10                                                                                     2                 0           31,000,000                   0
     VeteransEmploymentandTrainingService
     VETSNeedstoStrengthenManagementControlsOvertheTransition
     AssistanceProgram;ReportNo.06Ͳ10Ͳ002Ͳ02Ͳ001;09/30/10
                                                                                                  4        2,300,000                 713,000                 0
     TheHomelessVeteransReintegrationProgramNeedstoMake
     ImprovementstoEnsureHomelessVeterans'EmploymentNeedsAre
     Met;ReportNo.06Ͳ10Ͳ003Ͳ02Ͳ001;09/30/10
                                                                                                  3                 0               5,900,000                0
     TexasVeteransCommissionCouldEnhanceServicestoVeteranswith
     BarrierstoEmployment;ReportNo.06Ͳ10Ͳ001Ͳ02Ͳ201;05/28/10
                                                                                                  1                 0               2,900,000                0
     WorkforceInvestmentAct
     AuditofStateWorkforceAgencyEvaluationsofWorkforceInvestment
     ActTitleIBProgram;ReportNo.03Ͳ10Ͳ003Ͳ03Ͳ390;08/31/10
                                                                                                  3                 0                      0                 0
     RecoveryAct:DataQualityinRecipientReporting;ReportNo.18Ͳ10Ͳ002Ͳ
     03Ͳ390;09/27/10                                                                             2                 0                      0                 0
     RecoveryAct:EmploymentandTrainingAdministrationGrantIssuance
     andMonitoringPoliciesandProceduresforDiscretionaryGrants
     IncludingGreenJobsAreComprehensivebutFundingChallenges
     ThreatentheQualityofFutureMonitoringActivities;ReportNo.18Ͳ10Ͳ
     013Ͳ03Ͳ390;09/30/10
                                                                                                   2               0                     0                   0
     GoalTotals(10Reports)                                                                     28       4,303,921            40,513,000                   0
     WorkerBenefitPrograms
     UnemploymentInsuranceService
     RecoveryAct:MoreThan$1.3BillioninUnemploymentInsurance
     ModernizationIncentivePaymentsAreUnlikelytoBeClaimedbyStates;
     ReportNo.18Ͳ10Ͳ012Ͳ03Ͳ315;09/30/10
                                                                                                  1                 0        1,300,000,000                   0
     FederalEmployees'CompensationAct
     ServiceAuditors'ReportonIntegratedFederalEmployees'
     CompensationSystemandServiceAuditors'ReportontheMedicalBill
     ProcessingSystemForthePeriodOctober1,2009toMarch31,2010;
     ReportNo.22Ͳ10Ͳ008Ͳ040431;09/24/10
                                                                                                  0                 0                      0                 0
     EmployeeBenefitsSecurityAdministration
     EBSANeedstoDoMoretoProtectRetirementPlanAssetsFrom
     ConflictsofInterest;ReportNo.09Ͳ10Ͳ001Ͳ12Ͳ121;09/30/10
                                                                                                  2                 0                    0                   0
     GoalTotals(3Reports)                                                                      3                 0        1,300,000,000                   0
     WorkerSafety,HealthandWorkplaceRights
     MineSafetyandHealth
     In32YearsMSHAHasNeverSuccessfullyExercisedItsPatternof
     ViolationsAuthority;ReportNo.05Ͳ10Ͳ005Ͳ06Ͳ001;09/29/10
                                                                                                  10                0                      0                 0
     OccupationalSafetyandHealth
     OSHANeedstoEvaluatetheImpactandUseofHundredsofMillionsof
     DollarsinPenaltyReductionsasIncentivesforEmployerstoImprove
     WorkplaceSafetyandHealth;ReportNo.02Ͳ10Ͳ201Ͳ10Ͳ105;09/30/10
                                                                                                  7                 0                      0                 0


78    Semiannual Report to Congress: April 1- September 30, 2010
                                                             Appendix

                         Final Audit Reports Issued, continued

                                                                      #of                             FundsPut           Other
ProgramName                                                          Nonmonetary       Questioned     ToBetter           Monetary
ReportName                                                           Recommendations    Costs($)      Use($)             Impact($)
ForeignLaborCertification
DebarmentAuthorityShouldBeUsedMoreExtensivelyinForeignLabor
CertificationPrograms;ReportNo.05Ͳ10Ͳ002Ͳ03Ͳ321;09/30/10                          3              0                   0              0
GoalTotals(4Reports)                                                               16              0                   0
DepartmentalManagement
OASAMManagement
RecoveryAct:UseofDepartmentalManagementFunds;ReportNo.18Ͳ
10Ͳ011Ͳ07Ͳ001;09/17/10                                                                0              0                   0              0
OfficeoftheChiefFinancialOfficer
DOLNeedstoEstablishaCentralPointofAccountabilityOverThe
Department'sWorkingCapitalFundOperationstoEnsureItMeetsthe
LegislativeIntent;ReportNo.03Ͳ10Ͳ002Ͳ13Ͳ001;09/28/10                              9              0                   0              0
GoalTotals(2Reports)                                                                9              0                   0              0
FinalAuditReportTotals(19Reports)                                                56      4,303,921       1,340,513,000              0




                                                                              Semiannual Report to Congress: April 1- September 30, 2010     79
                                                                  Appendix

                                                          Other Reports

                                             ProgramName                                      #ofNonmonetary   Questioned
                                              ReportName                                      Recommendations      Costs($)
          EmploymentandTrainingPrograms
          OfficeofDisabilityEmploymentProgram
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:OfficeofDisabilityEmploymentPolicy's
          Disability.gov;ReportNo.23Ͳ10Ͳ016Ͳ01Ͳ080;09/30/10
                                                                                                      34                        0
          VeteransEmploymentandTrainingService
          UpdatedStatusofPriorͲYearRecommendationsRelatedtoVETSITSecurity;Report
          No.23Ͳ10Ͳ006Ͳ02Ͳ001;04/13/10                                                              0                         0
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:Veterans'EmploymentandTraining'sUser
          InterfaceManagementSystem;ReportNo.23Ͳ10Ͳ021Ͳ01Ͳ001;09/30/10
                                                                                                      35                        0
          WorkforceInvestmentAct
          RecoveryAct:QualityControlReviewSingleAuditofUpperRioGrandeWorkforce
          DevelopmentBoard,Inc.fortheYearEndedJune30,2009;ReportNo.18Ͳ10Ͳ007Ͳ03Ͳ
          390;09/16/10                                                                               4                         0
          RecoveryAct:QualityControlReviewSingleAuditofHumanResourcesand
          OccupationalDevelopmentCouncilofPuertoRicoforYearEndedJune30,2009;
          ReportNo.18Ͳ10Ͳ008Ͳ03Ͳ390;09/29/10                                                       4                         0
          BureauofLaborStatistics
          UpdatedStatusofPriorͲYearRecommendationsRelatedtoBLSITSecurity;Report
          No.23Ͳ10Ͳ013Ͳ11Ͳ001;08/05/10                                                              0                         0
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:BureauofLaborStatistics'ConsumerPrice
          Index;ReportNo.23Ͳ10Ͳ015Ͳ11Ͳ001;09/30/10
                                                                                                      16                        0
          GoalTotals(7Reports)                                                                     93               0
          WorkerBenefitPrograms
          UnemploymentInsuranceService
          RecoveryAct:QualityControlReviewSingleAuditofStateofMichigan
          UnemploymentCompensationFundfortheYearEndedSeptember30,2009;Report
          No.18Ͳ10Ͳ010Ͳ03Ͳ315;09/16/10                                                              0                         0
          ReviewofReportonImproperPaymentsintheUnemploymentInsuranceProgram;
          ReportNo.22Ͳ10Ͳ020Ͳ03Ͳ314;09/30/10                                                       2                         0
          QualityControlReview:SingleAuditofSouthCarolinaEmploymentSecurity
          CommissionfortheYearEndedJune30,2008;ReportNo.24Ͳ10Ͳ003Ͳ03Ͳ315:
          06/07/10                                                                                    3                         0
          OfficeofFederalContractCompliance
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:OfficeofFederalContractCompliancePrograms'
          InformationSystem;ReportNo.23Ͳ10Ͳ017Ͳ04Ͳ410;09/30/10
                                                                                                      37                        0
          OfficeofWorkers'CompensationPrograms
          OWCPUpdatedStatusofPriorͲYearRecommendationsRelatedtoITSecurity;
          ReportNo.23Ͳ10Ͳ007Ͳ04Ͳ430;04/13/10                                                       0                         0
          EmployeeBenefitsSecurityProgram
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:EmployeeBenefitsSecurityAdministration's
          GeneralSupportSystem;ReportNo.23Ͳ10Ͳ020Ͳ12Ͳ001;09/30/10
                                                                                                      24                        0
          GoalTotals(6Reports)                                                                     66               0
          WorkerSafety,HealthandWorkplaceRights
          MineSafetyandHealth
          AlertMemorandum:MSHASetLimitsontheNumberofPotentialPatternof
          ViolationMinestobeMonitored;ReportNo.05Ͳ10Ͳ004Ͳ06Ͳ001;07/06/30
                                                                                                      2                         0
          OccupationalSafetyandHealth
          NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
          SecurityManagementActAuditof:OccupationalSafetyandHealthAdministration's
          TechnicalInformationManagementSystem;ReportNo.23Ͳ10Ͳ018Ͳ10Ͳ001;
          09/30/10                                                                                    28
          GoalTotals(2Reports)                                                                     30               0


80   Semiannual Report to Congress: April 1- September 30, 2010
                                                        Appendix

                                   Other Reports, continued

DepartmentalManagement
OfficeoftheSecretary
NotificationsofFindingsandRecommendationsRelatedtotheFederalInformation
SecurityManagementActAuditof:OfficeofPublicAffairsNationalContactCenter;
ReportNo.23Ͳ10Ͳ019Ͳ01Ͳ001;09/29/10
                                                                                             27                            0
OfficeoftheChiefFinancialOfficer
AlertMemorandum:CriticalDeadlinesAssociatedwiththeU.S.Departmentof
LaborFiscalYear2010ConsolidatedFinancialStatementAudit;ReportNo.22Ͳ10Ͳ
017Ͳ13Ͳ001;04/25/10                                                                          2                            0
AlertMemorandum:DelaysinMeetingCriticalDeadlinesAssociatedwiththeU.S.
DepartmentofLaborFiscalYear2010ConsolidatedFinancialStatementAudit;
ReportNo.22Ͳ10Ͳ018Ͳ13Ͳ001;06/23/10                                                         1                            0
UpdatedStatusofPriorͲYearRecommendationsRelatedtoITSecurityintheOffice
oftheChiefFinancialOfficer;ReportNo.23Ͳ10Ͳ003Ͳ13Ͳ001;04/19/10
                                                                                              1
GoalTotals(4Reports)                                                                      31                           0
OtherReportTotals(19Reports)                                                             220                           0




                                                                          Semiannual Report to Congress: April 1- September 30, 2010   81
                                                              Appendix

                                    Single Audit Reports Processed

                                              ProgramName                                   #ofNonmonetary Questioned
                                               ReportName                                   Recommendations    Costs($)
           EmploymentandTrainingPrograms
           VeteransEmploymentandTrainingService
           StateofCalifornia;ReportNo.24Ͳ10Ͳ548Ͳ02Ͳ201;04/19/10                              1                   0
           NetworkEnterprises,Inc.;ReportNo.24Ͳ10Ͳ570Ͳ02Ͳ201;042/13/10                        1                   0
           HarborHomes,Inc.;ReportNo.24Ͳ10Ͳ596Ͳ02Ͳ201;07/12/10                                0              11,462
           WayStation,Inc.;ReportNo.24Ͳ10Ͳ601Ͳ02Ͳ201;07/22/10                                 1                   0
           EmploymentandTrainingͲMultiplePrograms
           StateofMontana;ReportNo.24Ͳ10Ͳ536Ͳ03Ͳ001;04/19/10                                  6              32,180
           StateofCalifornia;ReportNo.24Ͳ10Ͳ542Ͳ03Ͳ001;04/19/10                              4                   0
           DepartmentofLaborandIndustrialRelationsStateofHawaii;ReportNo.24Ͳ10Ͳ          3                   0
           543Ͳ03Ͳ001;04/12/10
           StateofNevada;ReportNo.24Ͳ10Ͳ545Ͳ03Ͳ001;05/03/10                                   7             264,111
           IndianapolisPrivateIndustryCouncil;Reportno.24Ͳ10Ͳ546Ͳ03Ͳ001;04/01/10             2                   0

           StateofVermont;ReportNo.24Ͳ10Ͳ547Ͳ03Ͳ001;04/19/10                                  3              13,334
           StateofConnecticut;ReportNo.24Ͳ10Ͳ549Ͳ03Ͳ001;05/03/10                              4                   0
           StateofWashington,ReportNo.24Ͳ10Ͳ550Ͳ03Ͳ001;05/03/10                               3                   0
           StateofNewHampshire;ReportNo.24Ͳ10Ͳ553Ͳ03Ͳ001;04/23/10                            6               1,925
           StateofNebraska;ReportNo.24Ͳ10Ͳ554Ͳ03Ͳ001;05/13/10                                11            134,811
           StateofTexas;ReportNo.24Ͳ10Ͳ556Ͳ03Ͳ001;04/19/10                                    3                   0
           StateofDelaware;ReportNo.24Ͳ10Ͳ557Ͳ03Ͳ001;05/04/10                                  2             13,652
           StateofNorthCarolina;ReportNo.24Ͳ10Ͳ559Ͳ03Ͳ001;05/13/10                          9              11,670
           StateofMinnesota;ReportNo.24Ͳ10Ͳ563Ͳ03Ͳ001;05/03/10                                 8                  0
           JeffersonCountyCommission;ReportNo.24Ͳ10Ͳ565Ͳ03Ͳ001;05/04/10                        2                  0
           StateofGeorgia;ReportNo.24Ͳ10Ͳ566Ͳ03Ͳ001;05/03/10                                   5            573,469
           StateofColorado;ReportNo.24Ͳ10Ͳ567Ͳ03Ͳ001;05/13/10                                  7                  0
           StateofWisconsin;ReportNo.24Ͳ10Ͳ572Ͳ03Ͳ001;06/04/10                                 2              7,238
           SouthernCaliforniaIndianCenter;ReportNo.24Ͳ10Ͳ574Ͳ03Ͳ001;05/20/10                  3                  0

           OregonHumanDevelopmentCorporation;ReportNo.24Ͳ10Ͳ575Ͳ03Ͳ001;                      1                   0
           05/20/10
           StateofLouisiana;ReportNo.24Ͳ10Ͳ576Ͳ03Ͳ001;05/20/10                                2                   0
           StateofNewJersey;ReportNo.24Ͳ10Ͳ577Ͳ03Ͳ001;05/20/10                               2                   0
           NewMexicoDepartmentofWorkforceSolutions;ReportNo.24Ͳ10Ͳ578Ͳ03Ͳ001;              4                   0
           05/20/10
           StateofRhodeIslandandProvidencePlantations;ReportNo.24Ͳ10Ͳ579Ͳ03Ͳ001;          4                   0
           05/20/10
           StateofSouthDakota;ReportNo.24Ͳ10Ͳ582Ͳ03Ͳ001;06/04/10                             6               1,196
           CityofGreenfield;ReportNo.24Ͳ10Ͳ583Ͳ03Ͳ001;06/04/10                                14             13,665
           StateofMissouri;ReportNo.24Ͳ10Ͳ584Ͳ03Ͳ001;06/29/10                                 2               2,280
           YouthAdultDevelopmentInAction,Inc.;ReportNo.24Ͳ10Ͳ585Ͳ03Ͳ001;06/29/10           1                   0

           NationalIndianCouncilonAging,Inc.;ReportNo.24Ͳ10Ͳ587Ͳ03Ͳ001;06/29/10            3                   0

           TerritoryofAmericanSamoa;ReportNo.24Ͳ10Ͳ591Ͳ03Ͳ001;07/07/10                       2                   0
           StateofOhio;ReportNo.24Ͳ10Ͳ592Ͳ03Ͳ001;07/07/10                                     6             159,312
           CommonwealthofPennsylvania;ReportNo.24Ͳ10Ͳ594Ͳ03Ͳ001;07/09/10                      2              79,099

           StateofIllinois;ReportNo.24Ͳ10Ͳ604Ͳ03Ͳ001;08/17/10                                 12             35,023




82   Semiannual Report to Congress: April 1- September 30, 2010
                                                    Appendix

             Single Audit Reports Processed, continued

                                   ProgramName                                   #ofNonmonetary Questioned
                                    ReportName                                   Recommendations    Costs($)
IndianandNativeAmericanProgram
SanCarlosApacheTribe;ReportNo.24Ͳ10Ͳ562Ͳ03Ͳ355;05/03/10                            1                     0
AluLike,Inc.andSubsidiaries;ReportNo.24Ͳ10Ͳ568Ͳ03Ͳ355;05/13/10                    2                     0
WorkforceInvestmentAct
DelawareCountyCommunityCollege;ReportNo.24Ͳ10Ͳ544Ͳ03Ͳ390;10/04/10                  1                     0

CommonwealthofKentucky;ReportNo.24Ͳ10Ͳ558Ͳ03Ͳ390;05/03/10                           1                     0
StateofFlorida;ReportNo.24Ͳ10Ͳ569Ͳ03Ͳ390;05/13/10                                   3                     0
CommonwealthofPuertoRicoHumanResourcesandOccupationalDevelopment                 6                13,082
Council;ReportNo.24Ͳ10Ͳ571Ͳ03Ͳ390;05/13/10
StateofWestVirginia.;ReportNo.24Ͳ10Ͳ573Ͳ03Ͳ390;05/13/10                           1                 11,634
SouthCarolinaEmploymentSecurityCommission;ReportNo.24Ͳ10Ͳ581Ͳ03Ͳ390;             12             1,790,532
06/04/10
CobbHousing,Inc.;ReportNo.24Ͳ10Ͳ586Ͳ03Ͳ390;06/29/10                                 2                27,106
StateofArizona;ReportNo.24Ͳ10Ͳ588Ͳ03Ͳ390;07/02/10                                   3                     0
GovernmentofGuam;ReportNo.24Ͳ10Ͳ590Ͳ03Ͳ390;07/06/10                                 2                     0
CityofPeoria,Illinois;ReportNo.24Ͳ10Ͳ595Ͳ03Ͳ390;07/09/10                           2                     0
QualityCareerServices;ReportNo.24Ͳ10Ͳ597Ͳ03Ͳ390;07/12/10                            1                     0
SouthernNevadaWorkforceInvestmentBoard;ReportNo.24Ͳ10Ͳ598Ͳ03Ͳ390;                 9                     0
07/12/10
SeminoleNationofOklahoma;ReportNo.24Ͳ10Ͳ599Ͳ03Ͳ390;07/14/10                        1                    0
TheNavajoNation;ReportNo.24Ͳ10Ͳ600Ͳ03Ͳ390;07/19/10                                  6                    0
StateofAlabama;ReportNo.24Ͳ10Ͳ602Ͳ03Ͳ390;08/02/10                                   1                    0
TheSchoolDistrictoftheCityofHarrisburg;ReportNo.24Ͳ10Ͳ603Ͳ03Ͳ390;              1              361,677
08/17/10
GarfieldJubileeAssociation,Inc.;ReportNo.24Ͳ10Ͳ605Ͳ03Ͳ390;08/23/10                10                11,730

JohnC.CalhounCommunityCollege;ReportNo.24Ͳ10Ͳ606Ͳ03Ͳ390;09/24/10                  1                     0

GoalTotals(57Reports)                                                                 220          3,570,188
WorkerBenefitPrograms
UnemploymentInsuranceService
StateofOregon;ReportNo.24Ͳ10Ͳ551Ͳ03Ͳ315;05/03/10                                    2                     0
StateofIowa;ReportNo.24Ͳ10Ͳ552Ͳ03Ͳ315;04/23/10                                      2                     0
StateofAlaska;ReportNo.24Ͳ10Ͳ555Ͳ03Ͳ315;05/20/10                                    1                81,395
StateofIndiana;ReportNo.24Ͳ10Ͳ560Ͳ03Ͳ315;05/13/10                                   2                     0
StateofIdaho;ReportNo.24Ͳ10Ͳ561Ͳ03Ͳ315;05/04/10                                     1                     0
StateofOklahoma;ReportNo.24Ͳ10Ͳ564Ͳ03Ͳ315;05/13/10                                  3                     0
GovernmentoftheDistrictofColumbia;24Ͳ10Ͳ589Ͳ03Ͳ315;07/06/10                        3                41,956
StateofMichiganͲUnemploymentCompensationFund;ReportNo.24Ͳ10Ͳ593Ͳ03Ͳ              1                 1,951
315;07/08/10
GoalTotals(8Reports)                                                                  15              125,302
WorkerSafety,HealthandWorkplaceRights
OccupationalSafetyandHealth
NewMexicoEnvironmentDepartment;ReportNo.24Ͳ10Ͳ541Ͳ10Ͳ001;04/01/10                  1                     0

StateofCalifornia;ReportNo.24Ͳ10Ͳ580Ͳ10Ͳ001;04/19/10                                2                    37
GoalTotals(2Reports)                                                                   3                    37
ReportTotals(67Reports)                                                               238            3,695,527




                                                                    Semiannual Report to Congress: April 1- September 30, 2010   83
                                                               Appendix

                Unresolved Audit Reports Over Six Months Old

                                                                                                          #of       Questioned
               Agency     DateIssued                          NameofAudit                        Recommendations    Costs($)
                                               NonmonetaryRecommendationsandQuestionedCosts
                     FinalManagementDecision/DeterminationIssuedByAgencyDidNotResolve;OIGNegotiatingwithAgency
                                        PerformanceAuditofAppliedTechnologySystem,Inc.Job
                                        CorpsCenters:ReportNo.26Ͳ08Ͳ005Ͳ01Ͳ370
              JobCorps      9/30/2008                                                                     2           678,643
                                        NotificationsofFindingsandRecommendationsRelated
                                        totheFederalInformationSecurityManagementAct
                                        Auditof:JobCorps'GeneralSupport:ReportNo.23Ͳ09Ͳ
                                        006Ͳ01Ͳ370
              JobCorps      9/15/2009                                                                     4              0
                                        PerformanceAuditofManagementandTraining
                                        CorporationJobCorpsCenters:ReportNo.26Ͳ09Ͳ001Ͳ01Ͳ
              JobCorps      3/31/2009 370                                                                 1            63,943
                                        PerformanceAuditofRescare,Inc.:ReportNo.26Ͳ10Ͳ002Ͳ
              JobCorps       3/3/2010 01Ͳ370                                                              5           116,794
                                        PerformanceAuditofEducationandTrainingResources:
              JobCorps      3/18/2010 ReportNo.26Ͳ10Ͳ003Ͳ01Ͳ370                                         5            22,758
                                        EmployeesWithReportedFatalitiesWereNotAlways
                                        ProperlyIdentifiedandInspectedUnderOSHA’sEnhanced
                                        EnforcementProgram:ReportNo.02Ͳ09Ͳ203Ͳ10Ͳ105
              OSHA           3/31/2009                                                                     2              0
                                        NotificationsofFindingsandRecommendationsRelated
                                        totheFederalInformationSecurityManagementAct
                                        Auditof:EmployeeRetirementIncomeSecurityActFiling
              EBSA           8/28/2008 AcceptanceSystem:ReportNo.23Ͳ08Ͳ006Ͳ12Ͳ001                      3              0
                                        EBSACouldMoreEffectivelyEvaluateEnforcement
                                        ProjectResults:ReportNo.05Ͳ09Ͳ003Ͳ12Ͳ001
              EBSA           3/31/2009                                                                     3              0
                                        EBSACouldStrengthenPoliciesandProceduresoverthe
                                        REACTProject:ReportNo.05Ͳ09Ͳ005Ͳ12Ͳ001
              EBSA           9/30/2009                                                                     2              0
                                        RecoveryAct:TheU.S.DepartmentofLaborNeedsto
                                        EvaluateitsRoleinTheHealthCoverageTaxCredit(HCTC)
                                        Program:ReportNo.18Ͳ10Ͳ003Ͳ03Ͳ390
              ETA            3/31/2010                                                                     4              0
                                        RecoveryAct:ActionsNeededtoBetterEnsure
                                        CongressionalIntentCanBeMetintheWorkforce
                                        InvestmentActAdultandDislocatedWorkerPrograms:
              ETA            3/31/2010 ReportNo.18Ͳ10Ͳ004Ͳ03Ͳ390                                         1              0
                                        WHDNortheastRegion'sManagementofCMPPenalties
                                        andBackWagesCouldBeImproved:ReportNo.04Ͳ10Ͳ
              WHD            3/31/2010 001Ͳ04Ͳ420                                                          3              0
                                        OversightoftheMinimumWageandOvertimeExemption
                                        ProvisionsCouldBeStrengthened:ReportNo.04Ͳ10Ͳ002Ͳ
              WHD           12/16/2010 04Ͳ420                                                              3              0
                                        UpdatedStatusofPriorͲYearRecommendationsRelated
                                        toWageandHourITSecurity:ReportNo.04Ͳ10Ͳ002Ͳ04Ͳ
              WHD            3/31/2010 420                                                                 1              0
                                        ActionsRequiredtoResolveSignificantDeficienciesand
                                        ImproveDOL'sOverallITSecurityProgram:ReportNo.23Ͳ
              OASAM          3/30/2010 10Ͳ001Ͳ07Ͳ001                                                       2              0
                                        NotificationsofFindingsandRecommendationsRelated
                                        totheFederalInformationSecurityManagementAct
                                        Audit:ReportNo.23Ͳ10Ͳ002Ͳ07Ͳ001
              OASAM          1/29/2010                                                                     3              0
                                        UpdatedStatusofRecommendationsRelatedtoEBSAIT
              EBSA           3/30/2010 Security:ReportNo.23Ͳ10Ͳ004Ͳ12Ͳ001                               1              0
                                  FinalDeterminationNotIssuedbyGrant/ContractingOfficerbyCloseofPeriod

                                       ProcurementViolationsandIrregularitiesOccurredIn
                                       OSHA’sOversightofaBlanketPurchaseAgreement:
              OSHA            1/9/2009 ReportNo.03Ͳ09Ͳ002Ͳ10Ͳ001                                      3              681,379

84   Semiannual Report to Congress: April 1- September 30, 2010
                                               Appendix

    Unresolved Audit Reports Over Six Months Old

                    RecommendationsReͲClassifiedtoUnresolvedBasedonOIGFollowͲupWork
                        NotificationsofFindingsandRecommendationsRelated
                        totheFederalInformationSecurityManagementAct
                        Auditof:ForeignLaborCertificationSystem:ReportNo.23
                        08Ͳ008Ͳ03Ͳ001
ETA           8/29/2008                                                                1               0
                        StateofMarylandWorkforceAgencyUnemploymentTax
                        andBenefit:ReportNo.23Ͳ02Ͳ008Ͳ03Ͳ315
UIS           9/13/2002                                                                2               0
                        StateofCaliforniaUnemploymentTaxandBenefit
UIS           2/27/2003 System:ReportNo.23Ͳ03Ͳ005Ͳ03Ͳ315                            6               0
                        FISMAAudit:EmploymentandTrainingAdministration
                        UnemploymentICONNetwork:ReportNo.23Ͳ04Ͳ027Ͳ03Ͳ
UIS           9/30/2004 315                                                            2               0
                        NotificationsofFindingsandRecommendationsRelated
                        totheFederalInformationSecurityManagementAct
                        Auditof:CentralBillProcessingSystem:ReportNo.23Ͳ08Ͳ
                        007Ͳ04Ͳ001
ETA           8/27/2008                                                                4               0
                        NotificationsofFindingsandRecommendationsRelated
                        totheFederalInformationSecurityManagementAct
                        Auditof:MSHA'sGeneralSupportSystem:ReportNo.23Ͳ
                        08Ͳ009Ͳ06Ͳ001
MSHA          8/26/2008                                                                2               0
                        FISMAAuditofOASAMECN/DCN:ReportNo.23Ͳ04Ͳ028Ͳ
OASAM         9/29/2004 07Ͳ001                                                         3               0
                                  AgencyHasRequestedAdditionalTimetoResolve
                        TheCityofAtlanta,GeorgiaDidNotAdequatelyManage
                        WelfareͲtoͲWorkandWorkforceInvestmentActGrants:
                        ReportNo.04Ͳ09Ͳ001Ͳ03Ͳ001
ETA          11/17/2008                                                                6          11,343,253
TotalNonmonetaryRecommendations,QuestionedCosts                                   74         12,906,770




                                                               Semiannual Report to Congress: April 1- September 30, 2010   85
                                                              Appendix

                                               Investigative Statistics

                                                                                              Division Totals              Total
 Cases Opened:                                                                                                              246
    Program Fraud                                                                                    185
    Labor Racketeering                                                                               61

 Cases Closed:                                                                                                              278
    Program Fraud                                                                                    215
    Labor Racketeering                                                                               63

 Cases Referred for Prosecution:                                                                                            190
    Program Fraud                                                                                    133
    Labor Racketeering                                                                               57

 Cases Referred for Administrative/Civil Action:                                                                            83
    Program Fraud                                                                                    72
    Labor Racketeering                                                                               11

 Indictments:                                                                                                               175
     Program Fraud                                                                                   110
     Labor Racketeering                                                                              65

 Convictions:                                                                                                               158
    Program Fraud                                                                                    106
    Labor Racketeering                                                                               52

 Debarments:                                                                                                                19
    Program Fraud                                                                                     8
    Labor Racketeering                                                                               11

 Recoveries, Cost Efficiencies, Restitutions, Fines/Penalties, Forfeitures, and Civil
 Monetary Actions:                                                                                                     $85,024,424
    Program Fraud                                                                                  $32,572,417
    Labor Racketeering                                                                             $52,452,007


 Recoveries: The dollar amount/value of an agency’s action to recover or to reprogram funds or to make                       $4,981,557
 other adjustments in response to OIG investigations
 Cost-Efficiencies: The one-time or per annum dollar amount/value of management’s commitment, in
                                                                                                                              $5,702,594
 response to OIG investigations, to utilize the government’s resources more efficiently
 Restitutions/Forfeitures: The dollar amount/value of restitutions and forfeitures resulting from OIG
 criminal investigations                                                                                                     $67,026,434
 Fines/Penalties: The dollar amount/value of fines, assessments, seizures, investigative/court costs, and
 other penalties resulting from OIG criminal investigations                                                                   $1,082,531
 Civil Monetary Actions: The dollar amount/value of forfeitures, settlements, damages, judgments, court
 costs, or other penalties resulting from OIG civil investigations                                                           $6,231,308
 Total                                                                                                                     $85,024,424*


* These monetary accomplishments do not include the following amounts obtained as a result of the OIG’s investigative eﬀorts in multi-agency
investigations:
         •	 Restitution of $11,847,420 for victims in an investigation involving labor traﬃcking and related violations. The court-ordered
              restitution includes payment of victim’s wages during their servitude, as calculated under the Fair Labor Standards Act. United
              States v. Akouavi Kpade Afolabi.
         • 	 A civil monetary penalty in the amount of $1,033,362 assessed by Immigration and Customs Enforcement as a result of a
              company’s routine use of undocumented workers on their job sites.




86     Semiannual Report to Congress: April 1- September 30, 2010
                                                      Appendix

                                  Peer Review Reporting
                                                p     g
    The following meets the requirement under Section 989C of the Dodd-Frank Wall Street Reform and Consumer
  Protection Act (P.L. 111-203) that the Inspectors General include their peer review results as an appendix to each
  semiannual report. Federal audit functions can receive a rating of “pass,” “pass with deﬁciencies,” or “fail.” Federal
  investigation functions can receive a rating of “compliant” or “noncompliant.”



Pe e r R e v i e w            of      DOL -OIG                  Security (DHS)-OIG’s audit function for the year ending
Audit Function                                                  on September 30, 2008. This review, which was issued
                                                                in June 2009, resulted in an opinion that the system of
The Department of Transportation (DOT)-OIG conducted a          quality control for DHS-OIG was suitably designed and
peer review of the system of quality control for DOL-OIG’s      provided a reasonable assurance of DHS-OIG conforming
audit function for the year ending on September 30, 2009.       to professional standards in the conduct of audits. The peer
This peer review, which was issued on February 3, 2010,         review gave DHS-OIG a pass rating and identiﬁed seven
resulted in an opinion that the system of quality control       ﬁndings and recommendations. According to DHS-OIG,
was suitably designed and provided a reasonable assurance       as of September 2010, corrective actions have been taken
of DOL-OIG conforming to professional standards in the          to address ﬁve recommendations. The two outstanding
conduct of audits. The peer review gave DOL-OIG a pass          recommendations are that DHS-OIG revise its audit manual
rating and made no recommendations.                             to incorporate Government Auditing Standards, paragraphs
                                                                7.57 and 7.59, related to the validity and reliability of
Pe e r R e v i e w o f                DOL -OIG                  evidence; and emphasize to staﬀ the requirement to
Investigative Function                                          document the consideration of fraud. DHS reported it will
                                                                close the recommendations when it issues a revised audit
The Treasury Inspector General for Tax Administration           manual in the 2nd quarter of FY 2011.
(TIGTA) initiated in FY 2010 a peer review of the system
of internal safeguards and management procedures                DOL-OIG Peer Review of HHS-OIG
for DOL-OIG’s investigative function for the year ending        Investigative Function
on September 30, 2010. TIGTA’s review is expected to
be completed in FY 2011. The last external peer review          DOL-OIG conducted an external peer review of the U.S.
report of DOL-OIG’s investigative function was completed        Department of Health and Human Services (HHS)-OIG’s
in October 2007 by the Department of Defense’s Defense          system of internal safeguards and management procedures
Criminal Investigative Service. This peer review found DOL­     for its investigative function for the year ending on
OIG to be compliant and made no recommendations.                June 30, 2009. This peer review, which concluded in
                                                                June 2009, found HHS-OIG to be compliant and made no
DOL-OIG Peer Review of DHS-OIG                                  recommendations.
Audit Function

DOL-OIG conducted an external peer review of the system
of quality control for the U.S. Department of Homeland


                                                                  Semiannual Report to Congress: April 1- September 30, 2010   87
                                                                        Appendix

                                                             OIG Hotline

    The OIG Hotline provides a communication link between the OIG and persons who want to report alleged violations
  of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or danger to public health and
  safety. During the reporting period April 1, 2010, through September 30, 2010, the OIG Hotline received a total of
  1,294 contacts. Of these, 941 were referred for further review and/or action.




Complaints Received (by method reported):                                                                                                                   Totals
Telephone                                                                                                                                                      818
E-mail/Internet                                                                                                                                                259
Mail                                                                                                                                                           169
Fax                                                                                                                                                             44
Walk-In                                                                                                                                                          4
Total                                                                                                                                                        1,294

Contacts Received (by source):                                                                                                                              Totals
Complaints from Individuals or Nongovernmental Organizations                                                                                                 1,254
Complaints/Inquiries from Congress                                                                                                                               4
Referrals from GAO                                                                                                                                               5
Complaints from Other DOL Agencies                                                                                                                              15
Complaints from Other (non-DOL) Government Agencies                                                                                                             16
Total                                                                                                                                                        1,294

Disposition of Complaints:                                                                                                                                  Totals
Referred to OIG Components for Further Review and/or Action                                                                                                     52
Referred to DOL Program Management for Further Review and/or Action                                                                                            430
Referred to Non-DOL Agencies/Organizations                                                                                                                     459
No Referral Required/Informational Contact                                                                                                                     380
Total                                                                                                                                                       1,321*



*During this reporting period, the Hotline office referred several individual complaints simultaneously to multiple offices or entities for review. (i.e.
two OIG components, or to an OIG component and DOL program management and/or non-DOL Agency)




88       Semiannual Report to Congress: April 1- September 30, 2010
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             Email: hotline@oig.dol.gov
               Fax: 202.693.7020




  The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210

Report Fraud, Waste, and Abuse by calling or e-mailing
                  the OIG Hotline
        800.347.3756 or hotline@oig.dol.gov
